<html>
<title> - SALMON IN THE COLUMBIA RIVER BASIN: REVIEW OF THE PROPOSED RECOVERY PLAN</title>
<body><pre>[Senate Hearing 106-453]
[From the U.S. Government Printing Office]





                                                        S. Hrg. 106-453
 
                  SALMON IN THE COLUMBIA RIVER BASIN: 
                  REVIEW OF THE PROPOSED RECOVERY PLAN

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                FISHERIES, WILDLIFE, AND DRINKING WATER

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   ON

          THE PROPOSED DECISION BY THE FEDERAL GOVERNMENT TO 
  RECOVER ENDANGERED SALMONID STOCKS IN THE COLUMBIA RIVER BASIN, AND 
  SPECIFICALLY WITH REFERENCE TO THE ``4-H'' DOCUMENTS OF THE FEDERAL 
                                 CAUCUS

                               __________

                             JUNE 23, 1999

                               __________

  Printed for the use of the Committee on Environment and Public Works


_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington DC 
                                 20402


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       one hundred sixth congress
                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
JAMES M. INHOFE, Oklahoma            FRANK R. LAUTENBERG, New Jersey
CRAIG THOMAS, Wyoming                HARRY REID, Nevada
CHRISTOPHER S. BOND, Missouri        BOB GRAHAM, Florida
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
MICHAEL D. CRAPO, Idaho              BARBARA BOXER, California
ROBERT F. BENNETT, Utah              RON WYDEN, Oregon
KAY BAILEY HUTCHISON, Texas
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director
                                 ------                                

        Subcommittee on Fisheries, Wildlife, and Drinking Water

                   MICHAEL D. CRAPO, Idaho, Chairman

CRAIG THOMAS, Wyoming                REID, HARRY, Nevada
CHRISTOPHER S. BOND, Missouri        LAUTENBERG, FRANK R., New Jersey
JOHN W. WARNER, Virginia             WYDEN, RON, Oregon
ROBERT F. BENNETT, Utah              GRAHAM, BOB, Florida
KAY BAILEY HUTCHISON, Texas          BARBARA BOXER, California

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 23, 1999
                           OPENING STATEMENTS

Crapo, Hon. Michael, U.S. Senator from the State of Idaho........     1
Reid, Hon. Harry, U.S. Senator from the State of Nevada..........    53
Wyden, Hon. Ron, U.S. Senator from the State of Washington.......    14

                               WITNESSES

Ausman, Lynn, grower, Waitsburg, WA, on behalf of the Washington 
  Association of Wheat Growers and the Washington Barley 
  Commission.....................................................    44
    Prepared statement...........................................    77
Craig, Hon. Larry, U.S. Senator from the State of Idaho..........    13
Dunn, Mark, director of government affairs, J.R. Simplot Company, 
  Boise, ID......................................................    38
    Prepared statement...........................................    71
Faber, Scott, director, Floodplains Program, American Rivers.....    36
    Prepared statement...........................................    68
    Responses to additional questions from Senator Baucus........    70
Frampton, George, Acting Chair, Council on Environmental Quality.    16
    Prepared statement...........................................    53
    Responses to additional questions from:
        Senator Baucus...........................................    59
        Senator Crapo............................................    56
        Senator Reid.............................................    58
Kempthorne, Hon. Dirk, Governor, State of Idaho..................     3
    Prepared statement...........................................     6
    Statement, Northwest Power Planning Council..................     8
Lothrop, Robert C., manager for policy development and litigation 
  support, Columbia River Inter-Tribal Fish Commission, Portland, 
  OR.............................................................    33
    Prepared statement of Donald Sampson.........................    59
    Report, executive summary of ``Wa-Kan-Ush-Mi Wa-Kish-Wit'', 
      Columbia River Inter-Tribal Fish Commission................    61
Squires, Owen, Pulp and Paperworkers Resource Council, Lewiston, 
  ID.............................................................    40
    Prepared statement...........................................    72
Stearns, Tim, policy director, Save Our Wild Salmon, Seattle, WA.    41
    Prepared statement...........................................    73

                                 (iii)

  


  SALMON IN THE COLUMBIA RIVER BASIN: REVIEW OF THE PROPOSED RECOVERY 
                                  PLAN

                              ----------                              


                        WEDNESDAY, JUNE 23, 1999

                             U.S. Senate,  
       Committee on Environment and Public Works,  
                     Subcommittee on Fisheries, Wildlife,  
                                        and Drinking Water,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:30 p.m. in 
room SD-406, Senate Dirksen Building, Hon. Michael D. Crapo 
(chairman of the subcommittee) presiding.
    Present: Senators Crapo and Wyden.
    Also present: Senator Craig.

          OPENING STATEMENT OF HON. MICHAEL D. CRAPO, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Crapo. The hearing will come to order.
    This is the hearing of the Subcommittee on Fisheries, 
Wildlife, and Drinking Water of the Environment and Public 
Works Committee. Today we will review the 1999 Columbia River 
Basin salmon recovery decision, and the 4-H Paper.
    We would like to welcome Idaho's Governor Kempthorne, the 
former chairman of this committee, to testify today.
    Before we proceed to the testimony, I would like to make a 
brief opening statement. Today, the Fisheries, Wildlife, and 
Drinking Water Subcommittee will take up the issue of the 
Columbia River Basin recovery efforts, the 1999 decision, and 
the 4-H Paper.
    In November 1991, the first Snake River species, the 
sockeye salmon, was listed as endangered under the Endangered 
Species Act. It is disheartening that nearly 8 years later 12 
stocks of Columbia Basin salmonids are listed and we still have 
no plan in place for recovering this Pacific Northwest icon. I 
can say that we have done a good job of creating working groups 
and methods for analyzing data and engaging in process. In 
fact, I see an interesting chart here that I think the Governor 
might talk about relating to that process. But it seems that 
the process has become the product. One of those processes, the 
4-H Paper of the Federal Caucus is the focus of today's 
hearing.
    After I first learned of the 4-H Paper and the efforts of 
the Federal Caucus, I raised concerns about it at an Energy 
Committee hearing in Hood River, Oregon. It was astonishing 
that although we were only months away from the 1999 decision 
date, a new process had been undertaken, as the National Marine 
Fisheries Service Regional Director Will Stelle put it, to 
ensure that the Federal agencies did their homework in 
preparing for the decision.
    It has been 4 years since the National Marine Fisheries 
Service issued its Biological Opinion in March 1995 and set out 
to develop a long-term recovery plan by December 1999. But it 
isn't the eleventh-hour establishment of this working group 
that causes me the greatest degree of concern. I have 
encountered stakeholders from both sides of this debate--tribal 
officials, State, other Government officials--who have shared 
their apprehensions about the way in which the Federal Caucus 
has conducted meetings regarding the 4-H Paper. I understand 
that these meetings have been in private, that they have 
declined to share substantive information regarding the 
development of the approach that is being taken, and, 
furthermore, that the Federal Caucus has precluded the public 
from participating in or providing input into the process, and, 
finally, that there are no plans for independent peer review of 
this Caucus' activities and its work product.
    With so many ongoing processes related to salmon recovery, 
one might wonder why this particular process would raise so 
much concern. It has become clear from conversations with 
Federal Caucus staff that the 4-H Paper is synonymous with the 
terms of ``conceptual recovery plan'' and the ``Federal 
consensus.'' It isn't surprising that these terms like a 
``conceptual recovery plan'' or developing a ``Federal 
consensus'' on salmon recovery would create angst among the 
States, the tribes, and the interest groups, and other people 
of the Pacific Northwest when they believe they are being 
excluded from a process that will lay the groundwork for the 
1999 decision. This decision will have profound impacts on the 
entire Pacific Northwest. It is no wonder that the people, the 
interest groups, and the Governments are so vigilant about 
their collective future.
    That is why today I am submitting a Freedom of Information 
Act request to all of the Federal agencies involved in the so-
called Federal Caucus. There is no doubt that any product 
resulting from salmon recovery deliberations is going to be 
contentious, but the Federal Government is setting itself up 
for failure if the process is not carried out in an open and 
transparent manner. This is not intended to be a punitive 
action or a tactic to slow the process. In fact, the purpose of 
these FOIA requests is quite the contrary. I am confident that 
by opening up the process now and letting in the light of day 
on these very important efforts, further delays are going to be 
averted as we move closer to a decision.
    Our citizenry is politically astute and active. The people 
of the Pacific Northwest want to save the salmon but they will 
not tolerate being brushed aside as issues of this magnitude 
are decided. Any salmon recovery plan is only going to be as 
successful as the amount of public understanding and support 
that it enjoys. I look forward to hearing how the agencies plan 
to inform the citizenry of their activities and how they plan 
to explore the alternatives with the public. I am also 
interested in hearing from the stakeholders in the region and 
their suggestions about how to best proceed.
    With that, we will now proceed with our first witness. As I 
indicated, our first witness is Governor Dirk Kempthorne. Dirk, 
I already called you Senator earlier today when I was referring 
to you because I have become so accustomed to that. We 
certainly welcome you back here to the Senate and back here to 
this committee. We would like to ask you to keep your testimony 
as close as you can to 5 minutes. We welcome you here Governor 
Dirk Kempthorne and look forward to your testimony.

              STATEMENT OF HON. DIRK KEMPTHORNE, 
                    GOVERNOR, STATE OF IDAHO

    Governor Kempthorne. Chairman Crapo, thank you very much, 
and thank you for the invitation to speak before this 
committee. As you noted, I at one time had the honor of being 
the chairman of this subcommittee. I have great memories of the 
friendships I had with those members that served on the 
subcommittee as well as the staff that support this 
subcommittee.
    Mr. Chairman, I want to say with all sincerity how proud I 
am that you are the Chairman. You are doing a tremendous job. 
You serve not only Idaho well, but the entire Nation in this 
current leadership capacity. I commend you for that.
    Senator Crapo. Thank you.
    Governor Kempthorne. I can affirm that this subcommittee 
confronts some of the toughest issues in the Senate, and the 
matters before you greatly impact my home State of Idaho and 
the other States that make up the Pacific Northwest region of 
our country.
    By definition, all of those States are an integral partner 
in resolving many of the tough fish recovery issues presently 
being grappled with by the Federal agencies, as you have noted, 
Mr. Chairman. The States have their role to play in this 
process, and as I have visited with the other Governors in the 
Northwest, we are all in agreement that we must work together 
on salmon recovery.
    As you know, the Endangered Species Act consultation 
process has been ongoing, and soon the work of the Federal 
resource agencies will be compiled into what is being referred 
to as the 1999 Decision--the document which will set forth 
proposed alternatives in dealing with the fish issues in the 
Columbia River Basin System.
    As could be expected, the States have long been preparing 
for this process.
    The Multi-Species Framework, funded by the Bonneville Power 
Administration, has been working diligently to develop and 
analyze alternatives from both a biological and human effects 
perspective. That process is expected to be completed by this 
fall.
    Recently, under the able leadership of Governor Kitzhaber 
in Oregon, the Columbia River Basin Forum was formed to provide 
an appropriate setting for the States, the affected Indian 
tribes, and the Federal agencies to fully discuss the key 
issues facing them under the Endangered Species Act. I am 
pleased that Idaho is participating in the Forum, and I look 
forward to dedicating the necessary resources to help this 
process succeed.
    Notwithstanding the many dollars, the human resources, the 
effort dedicated to these existing processes, it has come to my 
attention that the Federal agencies playing a key role in the 
1999 Decision have formed what has become known as the Federal 
Caucus, an interagency working group with a most ambitious 
agenda.
    Headed up by the National Marine Fisheries Service, the 
Caucus is staffed with senior officials from such agencies as 
the Bureau of Reclamation, the Environmental Protection Agency, 
as well as other key Federal agencies. To its credit, the 
Caucus has amassed the right people at the right time to begin 
working on the 1999 Decision.
    I am not concerned that the Federal Caucus is moving ahead 
and getting its work done on the 1999 Decision. Instead, what 
troubles me about the Federal Caucus is that its work is being 
done behind closed doors.
    In a recent letter I wrote to Secretary of Interior Bruce 
Babbitt and Commerce Secretary William Daley, I made it clear 
that the States impacted by the 1999 Decision have assumed from 
the start that they would be treated as partners by the Federal 
Government as it attempts to forge a solution to the problem of 
sustainable salmon and steelhead recovery in the Northwest.
    Additionally, I am uncertain that the agencies making up 
the Federal Caucus are using the most recent research data to 
make their scientific assumptions. There have been no requests 
to the State of Idaho by the agencies of the Federal Caucus to 
submit any of our data or analysis on these issues.
    I am not asking that the States intrude upon the 
deliberations and otherwise impede the progress of the work 
being performed by the Federal agencies responsible for the 
1999 Decision. What I am asking is for the States to be given a 
seat at the table and the opportunity to be fully involved in 
the process sooner rather than later.
    Let me reference a diagram of all the different agencies 
that are working on various aspects of salmon recovery. Mr. 
Chairman, that indicates all of the different agencies. Now 
there is a new player, and it is called the Federal Caucus.
    [The referenced chart follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    I hear Federal officials say that the States hold the key 
to the ultimate solution. Well, curiously, Mr. Chairman, their 
new approach totally leaves the States out of the picture.
    So the question is, when do the States get their legitimate 
role acknowledged, and when do we become an integral part of 
this process?
    If it is not until after a decision is reached by the 
Federal agencies, then what role does that leave for the 
States?
    We have assumed that the States, the tribes, the Federal 
Government were all working together on a Multi-Species 
Framework process which will help the region come to a common 
resolution on salmon recovery, only to discover in a February 
1999 memo that the Federal Caucus intends to develop its own 4-
H process without any input by the States or the tribes.
    Mr. Chairman, I would ask that the entire text of my 
opening statement be made part of the record. I would also ask 
that comments that I made to the Northwest Power Planning 
Council April 7, 1999, be made part of this record as well.
    Mr. Chairman, I would conclude by simply saying, and 
reiterating, time and time again, I have had high ranking 
Federal officials make it very clear that the States hold the 
key and that it must be a regional approach. The Governors are 
ready to work in a regional approach, in a bipartisan approach. 
Yet this latest effort by the Federal Caucus does not include 
the States. It doesn't make sense to me. I don't think it will 
lead to the solution that we're after.
    So, again, Mr. Chairman, there is the challenge. I applaud 
your efforts, as evidenced by this hearing today.
    [The prepared statement of Governor Kempthorne and 
accompanying material follow:]
         Statement of Governor Dirk Kempthorne, State of Idaho
    Mr. Chairman and members of the committee, it is a pleasure to be 
back with you today. I have many fond memories of the friendships we 
established and the work that we accomplished together.
    This is the subcommittee I once chaired. I can tell you in all 
sincerity that this subcommittee is in good hands. I'm proud of my good 
friend, Mike Crapo. I'm proud to call you Mr. Chairman, and I thank you 
and all the members of this subcommittee for the work you do.
    I can affirm that this subcommittee confronts some of the toughest 
issues in the Senate, and the matters before you greatly impact my home 
State and the other States that make up the Pacific Northwest region of 
our country.
    By definition, all of those States are an integral partner in 
resolving many of the tough fish recovery issues presently being 
grappled with by the Federal agencies. The States have their role to 
play in this process, and as I've visited with the other Governors in 
the Northwest, we are all in agreement that we must all work together 
on salmon recovery.
    As you know, the Endangered Species Act consultation process has 
been ongoing, and soon, the work of the Federal resource agencies will 
be compiled into what is being referred to as the `` 1999 Decision''--
the document which will set forth proposed alternatives in dealing with 
the fish issues in the Columbia River Basin System.
    As could be expected, the States have long been preparing for this 
process.
    The Multi-Species Framework, funded by the Bonneville Power 
Administration, has been working diligently to develop and analyze 
alternatives from both a biological and human effects perspective. That 
process is expected to be completed by this fall.
    Recently, under the able leadership of Governor Kitzhaber in 
Oregon, the Columbia River Basin Forum was formed to provide an 
appropriate setting for the States, the affected Indian tribes and the 
Federal agencies to fully discuss the key issues facing them under the 
Federal Endangered Species Act. I am pleased that Idaho is 
participating in the Forum and I look forward to dedicating the 
necessary resources to help this process succeed.
    Notwithstanding the many dollars, human resources and effort 
dedicated to these existing processes, it has come to my attention that 
the Federal agencies playing a key role in the 1999 Decision have 
formed what has become known as the ``Federal Caucus,'' an inter-agency 
working group with a most ambitious agenda.
    Headed up by the National Marine Fisheries Service, the Caucus is 
staffed with senior officials from such agencies as the Bureau of 
Reclamation and the Environmental Protection Agency, as well as other 
key Federal agencies. To its credit, the Caucus has amassed the right 
people at the right time to begin working on the 1999 Decision.
    I am not concerned that the Federal Caucus is moving ahead and 
getting its work done on the 1999 Decision. Instead, what troubles me 
about the Federal Caucus is that its work is being done behind closed 
doors.
    In a recent letter I wrote to Secretary of Interior Bruce Babbitt 
and Commerce Secretary William Daley, I made it clear that the States 
impacted by the 1999 Decision have assumed from the start that they 
would be treated as partners by the Federal Government as it attempts 
to forge a solution to the problem of sustainable salmon and steelhead 
recovery in the Northwest.
    Additionally, I am uncertain that the agencies making up the 
Federal Caucus are using the most recent research data to make their 
scientific assumptions. There have been no requests to the State of 
Idaho by the agencies of the Federal Caucus to submit any of our data 
or analysis on these issues.
    I am not asking that the States intrude upon the deliberations and 
otherwise impede the progress of the work being performed by the 
Federal agencies responsible for the 1999 Decision.
    What I am asking for is the States to be given a seat at the table 
and the opportunity to be fully involved in the process sooner rather 
than later.
    Let me reference a diagram of all the different agencies that are 
working on various aspects of salmon recovery. Now, there's a new 
player, and it's called the Federal Caucus.
    I repeatedly hear Federal officials say that the States hold the 
key to the ultimate solution. Curiously, their new approach totally 
leaves the States out of it.
    So, the question is, when do the States get their legitimate role 
acknowledged, and when do we become an integral part of this process?
    If it is not until after a decision is reached by the Federal 
agencies, then what role does that leave for the States?
    We have assumed that the States, the tribes and the Federal 
Government were all working together on a Multi-Species Framework 
process which will help the region come to a common resolution on 
salmon recovery, only to discover in a February, 1999 memo that the 
Federal Caucus intends to develop its own ``4-H'' process without any 
input by the States or the tribes.
    Mr. Chairman and members of the subcommittee, the States and tribes 
have already invested a great deal of time and money into this process. 
The Bonneville Power Administration funds the regional fish recovery 
program, including the Multi-Species Framework, to the tune of $215 
million per year, paid for by the ratepayers and the taxpayers.
    Despite that significant investment, we have no assurance that the 
Federal Caucus intends to utilize the resources of the Multi-Species 
Framework as it conducts its work on the 1999 decision.
    In fact, we may not know what the intention is of the Federal 
Caucus until after their work product is completed.
    In addition to finding out about the progress of the work of the 
Caucus, we are interested in knowing about the fundamental assumptions 
for the decisions being made. The following example illustrates my 
point.
    In Idaho, fish hatcheries are playing an important role in the 
current recovery effort. Will the Caucus develop alternatives based 
upon recoverable wild fish, or will they take into consideration the 
many hatchery stocks?
    Such an assumption is critical because the continued viability of 
Idaho's fish hatcheries will be at stake. This will be an important 
component of the 1999 Decision, and we should have input on the 
direction being considered by the Federal Caucus.
    Mr. Chairman and members, my concern is not that the Federal 
agencies are working hard on the 1999 Decision.
    Rather, I am fearful that given the ambitious goals and objectives 
of the Caucus, the time and opportunity for meaningful State 
participation in the process is rapidly waning.
    When I left the U.S. Senate to become Governor of Idaho, I wanted 
to continue to be an active participant in forging regional consensus 
solutions for fish recovery.
    I strongly believe that active State participation is critical to 
ensuring the success of the 1999 Decision.
    Instead, the response from the Federal Government has been just the 
opposite. I reiterate that I have no desire to invade or impede the 
progress being made by this interagency working group as they ``get 
their house in order.''
    But the work of the Federal Government, especially on a decision 
that will have broad environmental and economic impact on the Pacific 
Northwest, must be conducted in the spirit of partnership and 
cooperation. To date, this has not occurred, but I look forward to 
joining in this process to ensure its ultimate success.
    Let me give you a specific example. While this new Federal 
bureaucracy builds, so does the Caspian tern population on Rice 
Island--a federally, man-made island in the estuary of the Columbia 
River that serves as a temporary home for these birds while they feast 
on millions of endangered salmon smelt.
    After meeting with a number of Federal agencies last year, they 
agreed to move forward on an environmental assessment. Then, almost as 
soon as the EA was completed, we saw the Federal agencies accusing each 
other of inaction or impeding another agency's ability to get work 
completed.
    The States are just a pawn in this ``hide the ball'' scheme which 
results in no solutions and continual surprises for the Federal 
agencies and the States.
    There is, however, no easy solution to the issue of salmon 
recovery. If it were easy, it would have been done already. I believe 
we will only be successful in our efforts to recover fish when we work 
together to address the causes of mortality.
    Mr. Chairman, when the Northwest Power Planning Council recently 
met in Boise, I discussed a number of broader recovery issues, 
including predation, harvest, and the elements of river governance. I 
would ask that my statement to the Council be included as part of the 
record.
    With that, I thank you for the invitation to be with you again and 
I'd be happy to answer any questions.
                                 ______
                                 
 Comments of Governor Dirk Kempthorne to the Northwest Power Planning 
                  Council, Boise, Idaho, April 7, 1999
    To all members of the Northwest Power Planning Council, welcome to 
Idaho. This is the first opportunity that I've had to meet with you 
since assuming this new role.
    I would like to say, Mr. Chairman, we're very proud to have you as 
the chairman, and with your colleague, Mike Field, again, Idaho is 
well-served.
    I look forward to working with this Council and I applaud you for 
many of the things you have done. I believe this Council is going to 
continue to be extremely important to the well-being of the region.
    I'd like to acknowledge a few of the items that the Council has 
certainly been working on recently.
    The Council's work in the Lemhi and Clearwater Basins of Idaho, as 
well as other watersheds in the region, is another example of 
cooperative regional efforts.
    The irrigation consolidations, fish screening, and habitat 
improvement are very important recovery actions that the Council has 
contributed to over the years.
    The Artificial Production Review process has raised concerns for 
some, but it is another good example of a regional effort to use our 
resources wisely and efficiently.
    It is important that the region decide how to best use artificial 
production in the Columbia River Basin for sustainable populations of 
fish that supports harvest and other resources.
    Having served as a United States Senator, I can tell you that 
solutions to many of the issues you deal with as a Council will not be 
solved by the U.S. Congress.
    States united will provide solutions for education, welfare, 
corrections, and many natural resource issues including endangered and 
threatened species.
    Let me briefly give you my perspective on ESA. We had the ball on 
the one-yard line as time ran out on the clock. We were very close to 
getting real reforms to the ESA that would have helped States and 
regions deal with this critical issue.
    I doubt we will see reforms anytime soon because of the 
Presidential election and the time needed to reassemble the supportive 
coalitions.
    So, we will need to press ahead as States and regions helping the 
Federal agencies implement recovery efforts and finding solutions for 
our threatened and endangered species.
    One of the solutions holding promise for dealing with threatened 
and endangered species is the Multi-species Framework.
    The Framework project is an obvious outgrowth of the Northwest 
Power Act's mandate to enhance, protect, and mitigate fish and wildlife 
species in the Basin. Council members and Council staff are integrally 
involved in the Framework, and are helping make it a success.
    The Northwest received national attention last month when the 
Federal Government listed several more species of salmon and steelhead 
as threatened or endangered. As a result, practically every major 
watershed in the region is now affected.
    We have listings on top of listings, and the National Marine 
Fisheries Service is on the verge of becoming a one-stop shopping 
center for all the region's regulatory needs.
    Two weeks ago, NMFS and other Federal agencies announced that it 
wouldn't be wise to deal with each listed species on an individual 
basis, so they announced their intention to adopt a multi-species 
approach.
    They realized that with so many listed species in the Basin, they 
would not have the luxury of focusing on each individual species 
without regard to impacts on other species. Whether they got the idea 
from the regions Framework process or developed it on their own, I am 
glad they finally decided to embrace the multi-species recovery 
approach.
    We must work with the Federal Government, but we can't wait for 
them to come up with solutions. I think the region has to lead to 
recovery.
    You have heard this time and time again, but I want to say it again 
with more emphasis, this is a critical time for the region to work 
together and speak with one voice.
    We have to decide as a region what our recovery strategy will be. 
If we don't have the strength and leadership to do it as a region, 
Congress will do it for us.
    I am committed to working cooperatively with the other Northwest 
Governors Governor Racicot, Governor Kitzhaber, and Governor Locke--to 
chart that strategy.
    The region has been well-served by these three gentlemen along with 
my predecessor Governor Batt.
    I look forward to continuing this spirit of cooperation and 
teamwork.
    It is important that we put more emphasis on recovery actions that 
will give some immediate relief to the listed fish stocks.
    One example of that is mitigating the impacts of the terns.
    The Caspian tern colony on man-made Rice Island are responsible for 
harvesting upwards of 25 percent of the 100 million smolts that 
migrated past Rice Island in 1998.
    I have been to Rice Island. I went last Fall and saw where crews 
had combed the sandy beaches of that island in search of pit tags from 
the smolt we send down to the estuary.
    I met with the Army Corps of Engineers and NMFS to address the 
impacts the terns were having on Idaho's migrating smolt.
    They committed to work on a research project that would discourage 
the terns from nesting on Rice Island by encouraging them to use East 
Sand Island which lies 15 river miles downstream in an area with a more 
diverse prey base.
    There is no sense in spending 200 million dollars in producing 
smolts that have survived to the estuary and then allowing terns 
exclusive feeding rights.
    It is my understanding the Corps and cooperating agencies will 
finish work for the first year's test on the islands this weekend.
    I commend the Council for participating in this effort.
    But it just continues to amaze me that we make the effort to 
provide better passage for the smolt only to have up to 25 percent of 
them consumed as they prepare to enter the ocean.
    We must be more aggressive in fixing this problem. We don't need 
more tests. We don't need more data. We need to get these fish to the 
ocean, and stop worrying about the social engineering of a non-
threatened bird that is consuming our endangered fish.
    How serious are we about saving fish when we are reluctant to move 
a non-threatened bird that are setting up shop on a government-made 
island and eating our smolt?
    Let me remind you, nothing being suggested here would endanger the 
terns. All we are doing is relocating the birds.
    Continuing research on ocean conditions is as important as any of 
the current programs being funded in the region. There are many 
unknowns, however, without research we may learn we're spending 
billions to restore fish in the region only to find they are 
disappearing in the ocean.
    When you ask NMFS what is happening in the ocean, they acknowledge 
quite candidly that no on knows. It's is a ``black box.''
    At some point, we must have some serious discussions about some of 
the harvest issues--in the Columbia River Basin and with Canada and 
Alaska.
    Once these magnificent fish have survived 2 to 3 years in the 
ocean, they face another predator.
    Without getting into all the specifics, the Marine Mammal 
Protection Act has been highly successful. Just this decade, we have 
seen a sixfold increase in the number of West Coast Sea Lions.
    When the Marine Mammal Protection Act was put in place, there were 
an estimated 7,000 sea lions. Today, there are close to 170,000.
    Is that having an effect on our adult salmon attempting to return 
to Idaho to spawn? Absolutely.
    One out of every four adult salmon observed at Lower Granite Dam 
shows signs of interaction with marine mammals.
    This is yet another clear example of a single species management 
plan that doesn't take into account the fact that the mammals are 
preying on an endangered species.
    Isn't it time that we address the problems created by an increase 
in the mammals through a multi-species approach?
    How serious are we about saving these endangered fish when we allow 
non-threatened birds and non-threatened mammals to consume endangered 
fish at both ends of the process?
    One solution that came from this region was the concept of advanced 
hydro turbines.
    As we look at some of the longer-term actions and research, it is 
critical we use our resources wisely and efficiently. One of those 
actions I am particularly interested in is the minimum gap runner 
technology.
    As you know, when the blades of a traditional Kaplan turbine are 
slanted at certain angles, gaps are formed that can kill or injure 
fish.
    The minimum gap runner is a runner designed to eliminate the gaps 
in the turbine blades that fish enter when the turbine is operating.
    With existing turbine conditions, estimates of fish survival 
through the turbines vary from 89 to 94 percent.
    With the installation of minimum gap runners, engineers are 
predicting up to a 4 percent improvement. Even a 4 percent improvement 
increases the survival range up to 93 to 98 percent. Any improvement 
multiplied by the number of turbines in the Columbia-Snake dams would 
be significant.
    As we rehabilitate these turbines, it makes good sense that we 
replace the old runners with minimum gap runners that improve fish 
passage and in some instances also increase power generation.
    As a United States Senator, I was successful in getting Congress to 
put funds into this promising research for each of the last 4 years, 
and last year, the Clinton Administration stepped up to the plate and 
included those in its budget request to Congress.
    The President's Committee of Advisors on Science and Technology 
recommended in their November 1997 report to accelerate R&D to develop 
advanced hydro turbines and low-head run-of-river turbines. They 
recommend $4M in fiscal year 1999, $8M in fiscal year 2000, $11M in 
fiscal years 2001 and 2002, and $12M in fiscal year 2003.
    I would be pleased to join the other Governors of this region and 
send a joint letter to our congressional delegations stating our 
endorsement and any enhancement of this recommendation.
    At a Senate hearing I conducted on this technology, the Corps of 
Engineers affirmed to me they will install minimum gap runners in two 
of the units at Bonneville Dam this year.
    After the migration season this year in late summer or early fall 
one of the units will be tested for effects on fish. Hatchery fish will 
be used in the test.
    We await the results, but we may have the opportunity to improve 
fish passage and increase generation capacity at the same time.
    From your meeting with Dick Fisher of Voith Hydro you heard the 
same information that I did. The numbers are there. More fish will 
survive, and we need to be aggressive as a region in replacing these 
antiquated turbines.
    I applaud the Council's effort to help move this program forward.
    Now, having said all this, I, like Governor Locke of Washington, 
don't see a scenario anytime soon where the breaching of dams will 
occur.
    I know you are aware of Karl Dreher's presentation from the Idaho 
Department of Water Resources that says flow augmentation is not 
feasible.
    Until the region stops focusing on breaching and flow augmentation 
as the keys to salmon recovery, I don't see serious efforts being made 
to help the fish right now.
    The region must set the standard for helping the fish right now 
looking at harvest, predation and a multi-species management approach.
    There is no easy solution to the issue of salmon recovery. If it 
were easy, it would have been done already. I believe there are areas 
where we can make improvements that will have immediate benefits for 
the fish.
    We will only be successful in our efforts to recover fish when we 
work TOGETHER to address the causes of mortality in all four phases of 
their life cycle.
    Again, welcome to Idaho. I want you to know that I intend to be an 
advocate for the Northwest Power Planning Council and with the other 
Governors of the Northwest, we will use the Council to further the 
region's efforts.
    I look forward to working with you.
    Senator Crapo. Thank you very much, Governor Kempthorne.
    We expect that Senator Wyden from Oregon and Senator Reid 
from Nevada will be here. We also may see some of the other 
Senators from the Pacific Northwest show up. Senator Craig is 
at a very important caucus right now and will try to break away 
to come here. But until they get here, I get to ask questions 
first, and maybe I will take up their time too.
    Governor, the Federal Government in its various forms, the 
various agencies that we've dealt with in the Pacific Northwest 
have frequently stated in forums like this that they have to 
move forward, they cannot change the way they are going about 
business due to the statutory impositions that they face and 
the deadlines that they face under statute.
    I see Senator Craig has just entered the room. Senator, 
please feel free to join us. In fact, if you would like, you 
can make a brief opening statement. We're just barely getting 
into this.
    Senator Craig. I don't have any statement at this time.
    Senator Crapo. Governor, as I indicated, the Federal 
agencies have frequently stated in forums such as this that 
they can't change the way they're going about business due to 
statutory deadlines and parameters that they've got to live 
within. How would you suggest that the Federal Caucus best 
include the States at the roundtable while maintaining their 
momentum and moving toward the 1999 Decision?
    Governor Kempthorne. Mr. Chairman, the vehicle is there. 
Again, I think we are all dedicated to the recovery of the 
salmon. There is nothing--nothing--in statute that would 
preclude a Federal agency from sitting down and having a good, 
meaningful discussion with the States. In fact, in all of the 
things that this subcommittee is going to be dealing with, Mr. 
Chairman, I believe that when we saw progress it is when we 
undertook a collaborative process; when you had the 
Administration working with Congress, when it was bipartisan, 
and when all of the affected and impacted parties had a place 
at the table. That is what I'm asking for. Again, that is what 
I think is a formula that leads us to results and to stop the 
rhetoric.
    Senator Crapo. Later in the hearing today, we expect to 
hear from several other interest groups. We have already heard 
from various tribes and other interest groups, people 
representing many different aspects of the issues that we face 
in the Pacific Northwest who also seek a seat at the table, so 
to speak.
    In terms of designing what I call a collaborative process 
to build a consensus that we can move forward on in the 
Northwest, when you look at that process, I have no 
disagreement with you the States should be at the table and in 
a very big way. What about these other interest groups, the 
tribes and the other interest groups, some of which are not 
governmental entities, do you have an opinion or a position on 
how we should approach their participation in the process?
    Governor Kempthorne. Mr. Chairman, I think you see probably 
listed up there most of the groups that are impacted. Again, if 
you're impacted, you probably have part of the solution. Again, 
I think there are certainly ways. We have demonstrated there 
are models that can be utilized. However, when I hear that a 
chairman of a subcommittee is filing a Freedom of Information 
Act request to find out what a Federal Caucus is doing, Federal 
agencies, about one of the most critical issues of the 
Northwest--salmon recovery--it suggests to me that we don't 
have the correct process in place. Here you have a group of 
Governors--now, today, I can only represent myself--but I do 
know the other Governors, in a collaborative effort would love 
to work with the respective Federal agencies, with other 
impacted parties. As we reference Multi-Species Framework, the 
Columbia River Basin Forum, we are together at a variety of 
times. So let's just have the Federal Government, especially 
the Federal Caucus, open the doors. I am representing the State 
of Idaho. We have the resources. We are going to be impacted by 
this. We want to see the recovery of the salmon. So, again, I 
am saying to those in the Federal Government that say that we 
play a critical role and that we are going to be a partner, 
this partner is ready.
    Senator Crapo. Thank you. I will just ask one more question 
at this time, and then I am going to turn it over to Senator 
Craig for any statement that he would like to make as well as 
questions.
    You have indicated that you don't really object to the 
Federal agencies communicating with each other and seeking to 
fulfill their statutory obligations as they are obligated to 
move forward, and as we hope that they will properly move 
forward, under the statutory requirements that we live with. I 
don't have that concern either.
    The concern that I see is that when we hear and understand 
that what is happening in the Caucus is the development of a 
conceptual framework for a recovery plan or that type of 
activity, it raises a significant level of concern. It seems to 
be putting the cart before the horse in the sense that if a 
conceptual recovery plan is identified or created and then the 
States are brought to the table, it seems to me that the 
opportunity of the States, or the tribes, or other interest 
groups is focused only into what has already been predetermined 
and limits the outcome. To me, that is the concern I am 
addressing.
    I wanted to just get your approach to that. I know you 
indicated that you were not suggesting that we eliminate the 
ability of the agencies to communicate. What is it that you see 
as the problem and what is it that you see as the solution. I 
know I'm asking for a little bit of repetition there.
    Governor Kempthorne. Sure. Chairman Crapo, a slogan that I 
like is ``The best surprise is no surprise.'' So, with all of 
the good faith effort by the States of this region that want to 
bring about the recovery of salmon, if they are not allowed to 
be part of what ultimately is a recommendation and we are 
simply to see the final product when it is finally completed 
without any input, I think we have little recourse but to be 
surprised by that. Then what posture are we to take? That as 
sovereign States, well, that's fine, we would have liked to 
have seen it done otherwise.
    But now that the Federal Government has come up with this 
process of their own without input by the States that are 
comprising the United States of America, I think it does not 
bode well and it does not spell out a formula for partnership 
and for results. We are after results.
    If I may, Mr. Chairman, offer a quick example. You 
referenced the point about Federal agencies communicating 
together. For the past few years I have been working on the 
Caspian tern issue. Here we have Rice Island which has been 
created by the Corps of Engineers by dredging the Columbia so 
that it is navigable. We have seen created, therefore, a man-
made island, 230 acres. Caspian tern is now located there. It 
has been established that upwards of 25 million smolt are being 
consumed by the Caspian tern before these smolt can get to the 
ocean.
    Sitting in your chair, Mr. Chairman, I had received 
assurances from the Federal agencies that they would 
communicate, they would collaborate, they would work to get the 
solutions, and that for this season they would get a Caspian 
tern population down to 500 to 1,000 nesting pair. Well, the 
working group now affirms that there is anywhere from 6,500 to 
9,000 nesting pair on Rice Island.
    Again, I have sat down with these different agencies and 
they have told me, well, it is not our agency that objects to 
relocating the birds, it is another agency. Then that agency 
says, no, we really can't do it without the agreement and sign-
off by this other Federal agency, and it goes on and on.
    So the fact of the matter is, on a federally-made island 
you now have a non-threatened, a non-endangered bird consuming 
an endangered species, a smolt. It just stands to reason, if 
you can get 25 million smolt to the ocean, you probably have a 
little bit better chance of getting them back. It is an 
absolute failure thus far on this Caspian tern. So, how serious 
is the Federal Government? That's the question I would pose.
    Senator Crapo. Thank you.
    Senator Craig, please make any statement and ask any 
questions you may have.

            OPENING STATEMENT OF HON. LARRY CRAIG, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Craig. First of all, Mr. Chairman, let me thank you 
for holding this hearing. Let me especially thank you for your 
bold stroke in using FOIA to get at what is a problem for us in 
the Pacific Northwest delegations. I won't speak for Senator 
Wyden since he is here, but I can I think speak for those 
Senators, Democrat and Republican, in the Pacific Northwest and 
the affected States who have stood with relative unity on this 
issue. We must be kept aware at all times of the information 
and the activity concerning this matter.
    As you know, Senator Crapo, when Senator Smith hosted our 
hearing at Hood River, this became an issue. I was frankly 
frustrated by the cavalier attitude on the part of the Will 
Stelle: ``Gee, we're not keeping any secrets, we're just 
meeting in private.'' Well, they don't have that right, bluntly 
put. That doesn't mean that individual A doesn't have a right 
to communicate with individual B. When they sit down and 
discuss frameworks, however, we want to be aware of how that 
process works. I am not now suggesting, as I was so abrupt as 
to suggest at that time, that I wanted to intervene, but I 
certainly want to know.
    So now we will know, thanks to your stroke. If it doesn't 
work, well, I see George Frampton sitting behind the Governor. 
George, we will call upon you to do what is responsible for you 
to do at the Council of Environmental Quality. I see Donna Darm 
and Donna has been before our committee. We have had these 
rounds before. I hope it has now registered on you that this is 
one of the most important issues that the Pacific Northwest 
States and delegations involved will face in many years. 
Decisions and plans that will be made could well affect 
thousands and thousands of people along with the species in 
question. We simply must know.
    It is always a pleasure to have Governor Kempthorne back 
and to work with him in the role that he has taken on this very 
important issue. The Governor works very closely with the Idaho 
congressional delegation so that we all are together on it.
    I have no questions, but I wanted to stop by and applaud 
you for what you are doing. I just came from Interior 
Appropriations markup and I visited with Senator Gorton about 
this. If this isn't straightforward in coming, we will just tag 
it on to your money. Get the message. We will be kept informed. 
We will be a part of the loop. We will not expect surprises. 
That's the way the public process works. I hope that message is 
made clear today. Thank you, Mr. Chairman.
    Senator Crapo. Thank you, Senator Craig.
    Senator Wyden, Governor Kempthorne has just finished his 
testimony and we're at questions. Please make any opening 
statement and then feel free to ask questions.

             OPENING STATEMENT OF HON. RON WYDEN, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Wyden. Thank you very much, Mr. Chairman. I 
appreciate that. We have an Energy and Natural Resources 
hearing in a little bit on a Douglas County matter for Oregon, 
so, like many of our colleagues, I'm trying to be in two 
places.
    I just want to begin by welcoming our good friend Governor 
Kempthorne. I still wish that we could have gone forward with 
all of your exceptionally important efforts on the Endangered 
Species Act in the last Congress. As you know, it tracks very 
well with the Oregon coastal salmon plan and really takes us 
where I think we ought to be for the 21st century with respect 
to endangered species; and that is, encouraging these home-
grown, locally-driven kinds of approaches. So, we miss you, 
Dirk, and know that it will always be good to have your 
counsel.
    Governor Kempthorne. Thank you.
    Senator Wyden. Incidentally, I was in Boise recently with 
Senator Crapo and we are working hard to try to bring back 
Amtrak coverage from Portland to Boise. We're encouraged and so 
we're going to try to rope you into that exercise before long 
as well.
    Mr. Chairman, I just want to make one comment with respect 
to the principal topic we are delving into today, and that is 
the question of dams and salmon restoration. I see Mr. Frampton 
is here. Please accept my apologies as well for not being able 
to stay.
    One of the principal concerns I have this afternoon, based 
on discussions that I have had with folks in the Pacific 
Northwest, is the concern that decisionmaking authority is 
going to be able to stay in the region. I think there is great 
concern in the Northwest now with all of the various Federal 
agencies trying to look at ways to evaluate the science and 
take steps, which are completely appropriate, that this in some 
way is going to lead to the region losing the authority that is 
so important to actually make decision that best address the 
needs of the Pacific Northwest.
    As a corollary of that, I want to impress upon Mr. Frampton 
the need to have all the stakeholders at the table. I know that 
there are a number of groups that have contacted us, wheat 
growers and others, that are very concerned that they won't 
have an opportunity for input. Exports, of course, are an 
enormous part of the Northwest economy; they create jobs all 
the way through the Pacific Northwest. I may possibly be able 
to get back before the end of Mr. Frampton's testimony, but 
know that those are two concerns raised in the last few weeks 
that have been important in the region. To ensure that as what 
has become known as the Federal Caucus, the various agencies 
that are having discussions about salmon and dams, goes 
forward, we do want to keep the authority within the region and 
we do want to make sure that principal stakeholders like wheat 
growers are not left behind.
    With that, Mr. Chairman, I thank you. Possibly I may get 
back. To Governor Kempthorne, I look forward to working with 
him. My apologies to Mr. Frampton for having to take off so 
quickly. Thank you.
    Senator Crapo. Thank you. Did you have any questions for 
the Governor?
    Senator Wyden. No questions.
    Senator Crapo. Governor Kempthorne, before we release you, 
I actually had two other questions but one of them was on the 
Caspian terns and you answered that as a part of the last 
question. So, really, the last question that I have relates to 
the Multi-Species Framework. I don't know if we signalled to 
you that we were going to ask this question, so you may not be 
prepared to respond, but if you can, I would appreciate your 
doing so.
    The question I have is whether you are satisfied with the 
work product of the Multi-Species Framework that is underway 
right now, and whether you believe Idaho's issues are being 
adequately addressed in that whole part of the process.
    Governor Kempthorne. Yes, Mr. Chairman, I would be happy to 
respond to that. I want to add how much I appreciated Senator 
Craig's and Senator Wyden's comments. As a member of this 
subcommittee and the full committee, Senator Wyden was someone 
that we were able to find good partnership with. So as we look 
at Federal-State relationships, again, you have a good group of 
colleagues who can forge some results.
    With regard to the Multi-Species Framework, it is multi-
faceted. I think you have very talented individuals working on 
it. The idea is for them to identify the science, the 
alternatives, the options, and to just lay it before 
decisionmakers. I have met with leadership of the Multi-Species 
process and they have said that their intent is to come up with 
the data so that decisionmakers can then pick and choose what 
they think makes the most sense for the region in an approach 
to recover the salmon in balance with the economy of the 
region. They are moving ahead. I am anxious to see the array of 
options and information that they provide. But it is in place.
    I am supportive of that particular aspect, but it is not 
comprised of the decisionmakers. It is to lay before those who 
can make decisions what they think should be the ultimate 
solution. To me, it provides a great deal of information that 
in that collaborative process I've referenced we would have 
information that would be of benefit. So, I'm supportive of it 
at this point.
    Senator Crapo. Thank you. Governor Kempthorne, we also are 
supportive of your efforts in making sure that the voice of not 
only the State of Idaho, but the other States in the region be 
heard in this issue as well as others. Your advocacy for 
States' rights is one which earned you the support of the 
people of Idaho as Governor and which will serve them well.
    I should tell you before we conclude that there are a 
number of issues where we would like to see States have a 
louder voice in managing issues. I note that you have been 
working very hard in the Superfund arena to try to get Idaho's 
voice better heard as we face some significant questions in the 
Silver Valley. Hopefully, possibly we will be able to get this 
committee or some part of the Environmental and Public Works 
Committee to come to Idaho and hold some hearings or take at 
least some action out there to assist you in those efforts as 
well.
    So, unless you have anything further to say, we will 
conclude your part of the testimony. Thank you once again very 
much for coming.
    Governor Kempthorne. Thank you, Mr. Chairman, and, again, 
thank you for your leadership. We would welcome any committee 
activity in the State of Idaho and we would be honored to have 
you there. Thank you.
    Senator Crapo. Thank you very much.
    Senator Crapo. Our second panel today will be--actually, 
I'm looking at my agenda here, we didn't even count you as a 
panel, Governor Kempthorne, we counted you as a special 
witness. So our first panel is the Honorable George Frampton, 
the Acting Chair of the Council on Environmental Quality, who 
will be accompanied by Ms. Donna Darm, with the National Marine 
Fisheries Services; Mr. Witt Anderson, of the Army Corps of 
Engineers; and Mr. Stephen Wright, of the Bonneville Power 
Administration. We welcome all of you.
    Mr. Frampton, please feel free to begin your testimony.

    STATEMENT OF GEORGE FRAMPTON, ACTING CHAIR, COUNCIL ON 
                     ENVIRONMENTAL QUALITY

    Mr. Frampton. Thank you, Mr. Chairman. I am pleased to 
appear before you today to testify about the Federal role in 
salmon recovery efforts in the Columbia River Basin. Since the 
role of CEQ in this effort is largely a strategic one, it is 
one of making sure that Federal agencies have the resources 
they need, are working together, the process is working right.
    I appreciate the opportunity to represent this panel of 
regional agencies who are part of the operational effort. Donna 
Darm is the Assistant Regional Administrator for NMFS in the 
Northwest, Witt Anderson, is a Fisheries Biologist with the 
Corps of Engineers in Portland, and Steve Wright is the Vice 
President, Corporate for Bonneville Power Administration.
    We all know that a lot of salmon runs in the Northwest are 
in deep trouble. Some are near extinction. I think we're all 
beginning to realize that this is also a bigger issue than just 
salmon. Salmon are a keystone species, they serve as indicators 
of the health of watersheds and clean water. So, although the 
Endangered Species Act may have pointed the way here in a 
sense, this is not just an Endangered Species Act issue, and it 
is not even a salmon issue. It is really, in part, about the 
vision that people in the region have about their future.
    We are committed to salmon restoration and convinced that 
the restoration of salmon runs, the continued promotion of a 
vibrant economy in the region, and a fine quality of life are 
three things that go together; indeed, they probably have to go 
together. You're not going to have one of those without the 
other two.
    What I would like to do, Mr. Chairman, is just make a few 
points that I hope will be responsive to the concerns that you 
have expressed, and Governor Kempthorne expressed, Senator 
Craig expressed this morning about the process and the Federal 
Caucus. I hope to clear up those concerns because I think to 
some extent they are based on a misconception of what it is 
that the Federal agencies are doing.
    There are four points I guess I want to make in my oral 
testimony, Mr. Chairman.
    First, if you recall, going back to 1993 when the Clinton 
Administration came in, we were faced with a very highly 
balkanized debate in the Pacific Northwest over forest 
management. That was in some part because the Federal agencies 
were really working at cross-purposes. They were self-defeating 
and there was no discipline for the Federal family to work 
together. So making sure that the Federal agencies work 
together has really been a hallmark of this Administration. It 
was through interagency partnership that we were able to forge 
a Northwest forest plan that protected forests and provided for 
a sustainable timber economy.
    It is our commitment to try to make sure that that 
interagency partnership is there on salmon recovery efforts. 
That is the reason why the Federal Caucus exists. The Federal 
Caucus really represents our commitment to making sure that the 
Federal family works together. It's very simple.
    Second, the so-called 1999 Decision, which is a decision 
about the future configuration, operations of the Columbia 
River Power System and its impact on endangered salmon runs, is 
necessarily focused on hydropower operations to a large extent. 
Those good decisions can't be made unless they are seen in the 
context of all of the four H's--hydropower impacts, habitat 
protection, hatchery policy and operations, and harvest 
regimes.
    So the 4-H Paper is not so much a piece of paper, as a 
process or a place where the Federal agencies can talk to each 
other about this larger context in which the 1999 Decision is 
going to have to be made. It is a place where strategies and 
ideas can be shared among the Federal agencies. It is not a 
decisionmaking process. I see that Governor Kempthorne took his 
chart down. I'm sorry he did because I thought it was Frampton 
Exhibit No. 1.
    Senator Crapo. We will have it put back up for you.
    Mr. Frampton. Thank you very much. When you look at that, 
if there isn't one place there where the Federal agencies can 
talk to each other, we're in trouble. That's really what the 4-
H Paper is about.
    Third, even though Federal agencies ultimately have 
statutory responsibilities and operational responsibilities and 
have to make decisions, I think this Administration has made 
the point that we believe the best solution--the best strategy 
for salmon restoration and a healthy economy--has got to be 
developed in the region. This is not a platitude, it is not a 
cover for the Feds to go behind doors and make the decisions. 
Nor is it an abdication of responsibilities which the Federal 
agencies ultimately have to make decisions that fit into a 
strategy. It is a recognition that contributions to salmon 
recovery, if we're to have a successful strategy, have to come 
from States and local governments and from private interests. 
Habitat protection on private lands, for example, is going to 
be a terribly important element of any successful regional 
program.
    So we need the active engagement and the leadership of 
State governments and local governments and private sector at 
all levels. Without strong regional public support for such a 
strategy to create that kind of engagement, we're not going to 
be able to meet this challenge. So this is a real commitment.
    Finally, in order to forge a successful regional strategy, 
it is clear that we need a robust, open, public debate in the 
region about the real choices here--the real costs, the real 
alternatives, the real benefits, the risks of various 
alternatives. We need a debate without presuppositions, nothing 
off the table, an honest evaluation of what the science can 
tell us and what it can't tell us, an honest evaluation of the 
costs and who are going to bear the costs of various 
alternatives, and how we cushion those costs or develop 
transition programs where they are required. The Administration 
is committed and I am committed to such a debate.
    So the Federal Caucus process and the 4-H Paper process is 
not the Federal agencies going behind closed doors with their 
cards held close to their chests and making up their minds. It 
is a place where the Federal agencies together can develop some 
ideas and then take those ideas and put them into various 
public processes. For example, the 4-H Paper process is now in 
the course of being married with the Multi-Species Framework, 
the Power Planning Council's Multi-Species Framework. They 
share common subcommittees.
    The point of the 4-H Paper process is to get ideas into the 
Multi-Species Framework context and into the Columbia River 
Basin Forum process so that all stakeholders can start 
considering those ideas, developing strategies, and ultimately, 
in a broader way, getting those proposed strategies and 
alternatives out for public debate. After all, part of what the 
Federal agencies have to do, and they are on a very tight time 
schedule, is to develop these draft documents like the Snake 
River Feasibility Study, EIS, and scientific assessments and 
put them out there for public review and for public debate. 
That is what we're about.
    I am very happy to have heard Governor Kempthorne say good 
things about the Multi-Species Framework process. I think that 
is a process in which all of the stakeholders are at the table. 
That is the process in which initially, as I think he pointed 
out, Mr. Chairman, the alternatives are going to be developed, 
but the decisions are not even going to be made then. The 
decisions are going to be made only after a full public debate. 
What we have to do is make sure that that debate is made with 
the best information, and that it is an honest debate that 
looks at what the information can help tell us and what it 
can't.
    That's my closing thought I guess is that ultimately there 
aren't going to be any silver bullets here. There aren't going 
to be any easy choices. Some very difficult choices are going 
to have to be made. No easy decisions. I don't think that 
science is going to dictate one decision or another, and I 
doubt that the economics is going to dictate one decision or 
another.
    Ultimately, we are going to be making some policy choices 
about the future of the region and those decisions ideally need 
to be made in the region with strong public support from the 
region, based on a full understanding of what the real choices 
are and what our vision is of the future. We're committed to 
that process.
    As I listened to you and the Governor, I understood 
perfectly well your nervousness about the Feds getting together 
at the last minute in a closed room someplace and making up the 
playbook. Well, we may be drawing up some ideas about the 
playbook, but the game is going to be out on the field. 
Everybody is going to be involved, and we're committed to that 
kind of a process.
    Thank you very much for having us here today and giving us 
an opportunity to respond to these concerns. I hope that what 
you will hear from me and others today will make a lot of 
people easier about what is going on, the process. The Federal 
Government and the Administration commit to an open process, to 
State involvement, and to a very robust public debate before 
any decisions are made. Thank you.
    Senator Crapo. I appreciate also your appearance here and 
those who have come with you. I am sure we will have an 
opportunity to hear from them as questions may elicit responses 
in which they can assist in providing information.
    As a prelude to my questions, let me just elaborate a 
little further on some of the concerns. I have heard it said, 
and I've heard this attributed to a number of different people, 
so I don't know who really said it, but I've heard it said that 
some prominent political figure has stated ``If you give me 
control of the process, I can control the outcome.'' I believe 
that. That is one of the reasons we have such a big concern.
    I want you to give us more detail about what actually is 
going on inside the Federal Caucus and what is happening in the 
meetings. As you talked about it today, you shared the fact 
that alternatives were being developed, that it was a location 
where strategies and ideas are being shared. You did indicate 
that it is not a decisionmaking process, but, frankly, I find 
it very hard to understand because just controlling the process 
can help generate the result. You talked about developing 
alternatives or sharing strategies and that they will be the 
framework. Developing the framework for recovery is a term that 
has been used, not by you today but by others. When those kinds 
of terms are used, they evoke a question as to whether a 
framework going to be established. Could you respond to that?
    Mr. Frampton. Mr. Chairman, my sense is that the real 
definition of the range of alternatives is going to occur in 
the Northwest Power Planning Council's Multi-Species Framework. 
That's the forum in which we are trying to develop the 
alternatives that will be the basis of public debate. I think 
the Federal Caucus right now is really involved in feeding 
ideas into the Multi-Species Framework.
    I think I would like to ask Donna Darm to talk a little bit 
more in detail about what is happening in the 4-H Paper process 
and the relationship between that process and the Multi-Species 
Framework.
    Senator Crapo. Please.
    Ms. Darm. Thank you. I think that Mr. Frampton actually 
captured it perfectly in saying that the Framework is the place 
where alternatives are being developed. Keep in mind, when we 
first started the Federal Caucus in February, it wasn't 
entirely clear where the Framework would end up. The schedule 
that they were on had them developing alternatives at the 
beginning of the summer, which would have then fed well into a 
draft 4-H Paper and Biological Assessments for Section 7 
consultations in the fall.
    As it has turned out, our two processes have merged and, in 
effect, as Mr. Frampton said, the workgroups are one and the 
same essentially for investigation of all of the different H's 
in the development of the alternatives. Frankly, the way things 
have turned out, it is primarily Council staff and Federal 
agency staff who are staffing those workgroups and doing most 
of the work.
    So there is heavy participation and interaction between the 
Council and the Federal agencies on the development of those 
alternatives.
    Senator Crapo. Well, what is it exactly that is happening 
in the Federal Caucus meetings that is not happening in the 
other meetings which have more public involvement?
    Ms. Darm. You will have a chance to see some of that when 
you get the documents, which, by the way, we would be happy to 
provide without a FOIA request.
    Senator Crapo. Good.
    Ms. Darm. And you will be bored. There's a lot of 
discussion about things like what we do after the consultation, 
do we need to have NEPA documentation, do we need to have 
records of decision, that sort of thing. There is a lot of 
discussion about the Clean Water Act and the role of the Clean 
Water Act in the decision. There is quite a bit of discussion 
about the alternatives as they are being developed.
    The other big area that we have focused on and that I think 
we all should be focused on, Mr. Frampton alluded to this, is 
the development of the science. The National Marine Fisheries 
Service, in particular, views it as one of our jobs to provide 
for the public debate the best scientific information available 
on the status of salmon stocks and on the likely impacts of any 
of the management alternatives on those stocks. So we spent a 
lot of time in the Caucus workgroup focusing on what sort of 
analyses are available, how we can get all of the data together 
necessary, how we can collaborate with the Framework analytical 
process.
    Mr. Frampton. Senator, if I could make an observation about 
some of the practicalities of this.
    Senator Crapo. Yes. Go ahead.
    Mr. Frampton. A little bit perhaps before I came to CEQ, my 
sense is that the formation of the Federal Caucus and the 4-H 
Paper helped to accelerate the Multi-Species Framework process 
and get it moving forward. Now we are finding these things are 
coming together.
    But if you go back 5 or 6 months, if you were a Federal 
official with responsibility for participating in decisions a 
year down the road or 15 months down the road and you were 
totally dependent for the development of alternatives outside 
of a Federal process doesn't go forward or gets delayed. Then 
you come to a position in late 1999 as a Federal official in 
which you are faced with a statutory deadline or a court-
ordered deadline and you have not met your statutory 
responsibilities to prepare for that decision.
    That would be a terrible situation for the Federal agencies 
to be in. They need to start a process, if only as a backup, 
that guarantees that they are at least diligently moving 
forward to exercise responsibilities that are going to be 
triggered a year from now. I think that originally may have 
played some part in the formation of the Federal Caucus.
    Now the more open, more inclusive, more public process is 
working and the two are dovetailing.
    Mr. Wright. Mr. Chairman, could I add to Mr. Frampton's 
answer?
    Senator Crapo. Yes, please.
    Mr. Wright. One other piece. I think it has been our 
perspective for some time now that it is not important just to 
develop a plan, but to develop a plan that will be implemented. 
The only way you are going to get to implementation is if you 
have some form of regional consensus. For that reason, the 
States have had difficulty providing adequate funding for the 
Multi-Species Framework process and have come to us and asked 
us for funding support. In fact, Bonneville has I believe 
provided the majority of the funding for the Multi-Species 
Framework process, excuse me, Bonneville and the Corps.
    [Laughter.]
    Senator Crapo. We'll give the Corps its credit.
    Mr. Wright. For just that reason, our belief is the only 
way this can work is if we bring the region along with us as we 
go along here.
    Senator Crapo. There are a number of questions I want to 
ask. Let me clear up one little issue first. Donna, you 
indicated that you would provide the documentation we're asking 
for without the FOIA request. I appreciate that. But it was my 
understanding that the Federal agencies had been very closed-
mouthed and unresponsive to requests from people or groups in 
the region as to what was going on or documentation of the 
meetings. Is that not the case? Have you always been willing to 
provide this information?
    Ms. Darm. Mr. Chairman, I am not aware of any requests we 
have received for documents that we have produced. We have, 
however, been participating with the Framework over the last 
several months, going out to the public and explaining to 
people what the Federal Caucus is and what its role is in the 
development of alternatives and so forth. So we have been quite 
open about what the Caucus is doing.
    Senator Crapo. Well, there seems to be a pretty strong 
feeling in the region that nobody knows what is going on in 
these meetings and nobody can really ascertain what it is. But 
maybe this hearing will help clear up a lot of that.
    Let me go back to another line of questioning to try to 
further plumb the issue of why the concern, and whether the 
concern is something that we should be worried about or it is 
just a misunderstanding.
    Mr. Frampton, would you agree that it is the Federal 
agencies under Federal law that will ultimately make the 
decision?
    Mr. Frampton. Well, the Federal agencies have operational 
and statutory responsibilities that together will result in a 
decision or series of decisions, that's correct.
    Senator Crapo. That's my understanding. That is the answer 
I've received to that question when I've asked it at various 
hearings, although different agencies think that it is other 
agencies who have more power than they do. We are all, 
including the Federal agency officials, trying to figure out 
who really is going to make the decision. Maybe it will be 
Congress that ultimately makes the decision. I don't know. But 
the point is that a Federal decisionmaking forum or a Federal 
agency, either alone or in collaboration in conjunction with 
other Federal agencies, will make the decision, as the statutes 
require.
    With that understanding in place, there is a big concern 
about what we are achieving when we seek and ask for public 
input. Let me explain what I'm getting at here. In one context, 
one of the concerns that I have about our Federal environmental 
decisionmaking process which is required by Federal law today 
is that the public input or the public participation is by 
statute and by regulation far too often designed to create 
conflict or to create battlegrounds on which conflict can take 
place, rather than to build consensus and further 
collaboration. What I am saying is, far too often Federal 
agencies, as they operate under their statutory mandates, go 
through a process of decisionmaking; they make a decision. Then 
they put out a document in which public comment is invited. 
They get comments from many people and the various interest 
groups, and then if a public hearing is held, it becomes a 
place where competing interest groups, in my opinion, stage 
their arguments for the hearing officer to try to make sure 
their arguments are in the record, and often do so hoping that 
the television cameras and radio stations and newspapers are 
there to report the eloquence of their arguments to the public. 
But it doesn't really amount to sitting around a table with the 
various interest groups and building a collaborative process 
that should yield some type of effort to find common ground and 
build consensus.
    Whether you agree with me or not on that, that is a 
perspective that I think is very widely shared in the Pacific 
Northwest, if not across the country, about the process that we 
go through. It generates, frankly, quite a bit of cynicism; 
cynicism because the perception is there that the decision has 
already been made, cynicism that the public opportunity for 
input is more of a show than a reality, or that it does not 
have an impact on the ultimate outcome, and cynicism because of 
the complicated process and the time delays that occur.
    With that kind of perspective, to then find out that the 
Federal agencies that are making the decision are meeting 
because they have an impending statutory deadline coming and 
they've got to get ready for it and they've got to be prepared 
to make decisions, and they are putting together--Donna, did 
you say the best way to describe it is that they were 
developing the framework? What was your wording of what the 
best description of the Federal Caucus was?
    Ms. Darm. Actually, I think it was Mr. Frampton who 
mentioned it.
    Mr. Frampton. I think it was feeding ideas into the Multi-
Species Framework process, is the way I think I characterized 
it.
    Senator Crapo. Is that how you would characterize it?
    Ms. Darm. I think that's a good characterization. I 
generally think of it as the context for the hydropower 
decision.
    Senator Crapo. Okay. The agencies are putting together the 
ideas or putting together the framework. A lot of words that 
have been used here today. In that context, if that is all set 
up and then the public is invited in to participate, then 
hasn't a significant part of the decision in fact been made?
    Mr. Frampton. Well, Senator, if that's the way this were 
going to go, we would lose probably the key opportunity for 
building public support for a workable strategy in the region.
    Senator Crapo. I agree.
    Mr. Frampton. Which is why we don't want to go that way. I 
think you made a very accurate, very general observation about 
the way most of our Federal environmental laws were structured 
from the early 1970's, because they are principally designed 
around Federal decisionmaking.
    What we have found in the last few years is that on these 
big, very difficult regional ecosystem issues, the traditional 
Federal decisionmaking process, irrespective of public input 
and NEPA process, is not sufficient to build a regional 
consensus and develop a successful regional strategy. I've 
worked on a number of these projects, from the Everglades, 
which is a State-Federal-local-landowner project, to California 
water issues.
    Each of these requires really an architect-designed, 
collaborative process. Federal statute didn't create the Multi-
Species Framework process. We had to develop it to fit the need 
for State-private-Federal-tribal collaboration. But we need 
that process and we need to use that process if we're going to 
develop a successful strategy.
    Because we want to have a successful strategy, we are going 
to be committed to the process in which the decisions are 
really shaped is inclusive and beyond that, a public process.
    Senator Crapo. Let me try an analogy. That's always 
dangerous because I'm not sure I can create an analogy that 
will work here exactly, so please cut me a little slack on 
this. To make the point that I'm making, let's analogize it 
with sports. If there is a group that gets together and decides 
the rules of the game that will be played. They get to decide, 
for example, that one of the alternatives will be that the ball 
is shaped a certain way. If they say that the field will be 100 
yards long, it will have to be played outdoors as opposed to 
indoors on hardwood floors, with goal posts instead of hoops. 
No one will be surprised that the game will be football rather 
than a basketball. You change the game by the rules that you 
decide to apply.
    When they invite the participants to play, they can't 
choose between basketball or football. That has been decided. 
They might decide what plays to run on the football field, but 
they won't decide what plays to run on the basketball court. 
Maybe basketball would have been the better game.
    The point I am making is that the ability to control the 
development of alternatives, the ability to control the rules 
of the game can dramatically change the direction of the 
decisionmaking and the participation of those who are 
ultimately invited to participate. In that context, it seems to 
me that there is a very real concern.
    I am saying that you haven't calmed my concern that there 
is a real problem here in the decisionmaking. I believe is 
going on among the Federal agencies without the participation 
of the States and the tribes and the people in the region. What 
I am also saying is I don't think we are really yet getting to 
that collaborative process. Maybe we are moving to one at the 
tail-end. Like I say, we can collaborate about what plays to 
run, but it is going to be in a football game, not in a 
basketball game. That is the concern I have.
    Do you not feel that the decisionmaking that the Federal 
Caucus is engaged in is going to have a dramatic impact on the 
alternatives and the outcomes that are possible or achievable 
in the process?
    Ms. Darm. Can I jump in on that?
    Senator Crapo. Certainly. Go ahead.
    Ms. Darm. Thanks, Mr. Chairman. The alternatives are being 
developed in the framework and they are being developed in 
collaboration with everyone who participates. Not all parties 
participate particularly at the technical level very fully. But 
it is open to everyone to participate. The alternatives are 
being vetted throughout the region right now. It is not like 
there is a huge range of alternatives that are possible. Our 
decision space isn't that large.
    I think maybe what you were driving at earlier, Mr. 
Chairman, is once these alternatives are all on the table and 
we know what they are, and the analyses are all on the table 
and we know which of the alternatives might have a chance of 
getting you where you want to go, what happens then. When we 
get to that point, will the Federal agencies have already come 
to some conclusion about which is the preferred alternative 
among those alternatives?
    To be quite frank about it, we have been grappling with 
that decision ourselves. In fact, earlier this week a couple of 
representatives from the Federal agencies met with 
representatives from the Power Planning Council to talk about 
whether it would be possible to have a joint public process 
once everything is on the table. Once all the alternatives are 
on the table, the analyses are on the table, is there some way 
for the Power Planning Council, the Forum, the Federal 
agencies, all of the governmental parties in the region to get 
together on a joint process so we aren't all off going in some 
different direction, asking the public to participate in some 
different process, and essentially competing with one another.
    Senator Crapo. Let me ask you, once the alternatives are on 
the table and the science has been done and we're at the point 
of making the decision, what reason is there at that point for 
a Federal Caucus to operate unless it is to make decisions? If 
so, how can they involve the community in the making of that 
decision?
    Ms. Darm. The idea at that point would not be for the 
Federal Caucus to be the governmental entity that interfaces 
with the public. It still will be necessary for the Federal 
agencies to do their homework, to have a place where they can 
communicate with one another. Whether it is called the Caucus, 
or a regular meeting of the Federal agencies, or something 
else, we will still need to talk with one another. But in terms 
of the public process, in terms of getting input on the 
alternatives that have been developed, in terms of getting 
review of the analyses, the scientific, economic, social 
analyses that have been done, in terms of testing those 
analyses, that sort of thing, that needs to be a public 
process.
    Senator Crapo. Are you telling me then, I can have your 
assurance that the Federal Caucus is not developing 
alternatives?
    Ms. Darm. The Federal Caucus is working--may I elaborate a 
little bit?
    Senator Crapo. Sure.
    Ms. Darm. The way that the Framework process started was a 
little bit different from the direction we might have gone. 
They started by soliciting from the region visions of the 
river--what do you want the river to look like in 20 years. 
They talked about river as ecosystem, river as machine, those 
kinds of things. From that process they have distilled seven 
alternatives essentially.
    Senator Crapo. Who distilled those alternatives, the 
Caucus?
    Ms. Darm. The Framework. No, no, this is all the Framework 
process.
    Senator Crapo. All right.
    Ms. Darm. The Federal agencies have a narrower mandate. 
We're looking at listed species. The Framework is looking at 
the entire ecosystem and all species. The Caucus is looking at 
listed aquatic species. So we have come at it from a little bit 
different angle, which is people talk about the four-H's--
habitat, harvest, hatcheries, hydropower. For each of the four 
H's there is a limited number of alternatives that you can 
pursue. You can mix and match those alternatives in different 
ways. For example, if you don't want to take out dams, is there 
something you can do in harvest or in habitat to get an 
increase in survival to make up for the fact that you haven't 
taken out dams, just to pick an example. You can mix and match 
those scenarios for each of the H's in different ways than the 
Framework has developed them.
    So our approach, at least through the analytical part of 
what we're doing, is to try and test the sensitivity of the 
listed species to various mixes and matches of scenarios. We 
are doing that through a scientific process. The Framework 
scientific group is involved in that. We're trading 
information, we're using the same databases.
    Senator Crapo. If I understand you right, it is a much 
broader analysis because you're not looking at only listed 
species. You're looking at an ecosystem approach.
    Ms. Darm. The Framework is looking at the entire ecosystem.
    Senator Crapo. So then back to my question. I would 
interpret your answer to mean that in the context of the 
question of whether the Caucus is developing alternatives, 
maybe alternatives isn't the right word because that's in the 
context of species recovery, but you are developing I'll use 
the word approaches to ecosystem management. Is that a fair 
statement?
    Ms. Darm. That isn't quite how I would put it. I would say 
we are working with the Framework to develop the range of 
possible actions for each H.
    Senator Crapo. For each agency?
    Ms. Darm. Each H--I'm sorry, it's regional jargon--
hydropower, harvest, hatcheries, and habitat. The Framework has 
already decided how it will mix and match those H's in its 
alternatives. Other combinations are possible and we would like 
to at least analytically explore the other combinations.
    Senator Crapo. So you're looking at the alternatives that 
the Framework has generated with the various mixes and matches 
of the H's.
    Ms. Darm. Exactly.
    Senator Crapo. But you are also looking at other mixes and 
matches of the H's?
    Ms. Darm. Yes. Right. Same choices, different mixes and 
matches.
    Senator Crapo. Now that tells me that you are looking at 
other alternatives.
    Ms. Darm. We're looking at different mixes of the same 
alternatives.
    Senator Crapo. All right.
    Ms. Darm. Alternative scenarios. It gets confusing what you 
call them. I am not trying to dodge.
    Senator Crapo. I understand. I don't think you're trying to 
play word games with me.
    Ms. Darm. No. I'm trying to be clear.
    Senator Crapo. But you are looking at different mixes of 
the alternatives than the Framework is?
    Ms. Darm. Yes.
    Senator Crapo. Different mixes of the H's than the 
alternatives that the Framework is using?
    Ms. Darm. That's the idea.
    Senator Crapo. Let's assume that one of those different 
mixes looks pretty good but it is not something that the 
Framework generated. At that point, nobody in the Pacific 
Northwest but the Caucus knows that or has been working on that 
or has had input on that. That, to me, would seem to be a 
procedural problem, because maybe there is a real serious 
defect that the Governor of the State of Idaho could have 
pointed out had he been able to be there to participate in the 
evaluation of this different mix of the H's.
    Ms. Darm. I had mentioned this was an analytical exercise. 
For the purpose of analysis, we are mixing and matching these 
H's in different ways. In mid-August we will have completed at 
least the preliminary exercise of doing that and we will be 
hosting a regional workshop to display and discuss those mixes 
and matches of alternative scenarios. In addition, all of the 
technical staff from the Federal agencies, as I mentioned 
before, are participating heavily in the Framework workgroups. 
So there is plenty of opportunity. If we learn something 
surprising that comes out of this mixing and matching 
analytical exercise, there is plenty of opportunity to share it 
and discuss it regionally.
    Senator Crapo. Let me take this a step further. Analysis is 
being undertaken of different mixes and matches which can go 
beyond the mixes and matches that have already been done by the 
Framework. I would assume that the analysis is going to 
generate among the Federal Caucus members some mixes and 
matches that they think aren't very workable, some that they 
think are workable but have problems, and some that they think 
are more workable than others. Which begins to be the 
development of a preference. Will the Federal Caucus determine 
a preferred mix and match or a preferred alternative?
    Ms. Darm. This was a discussion that we had in our 
conversation with the Power Planning Council earlier this week 
because the Power Planning Council, in their rulemaking 
process, will take some subset of the alternatives being looked 
at in the Framework and proceed to their rulemaking. So we were 
talking to the Council about what mechanism would make the most 
sense to narrow the range of alternatives that we should look 
at.
    From our perspective, because we're implementing the 
Endangered Species Act, we will be most interested in those 
alternatives that meet the requirements of the Endangered 
Species Act. The Council has somewhat broader mandates and so 
we will be looking at other factors as well.
    Senator Crapo. When you say ``we,'' it is the Federal 
Caucus that you're talking about.
    Ms. Darm. I can't remember how I used it in that sentence. 
It was either the Federal Caucus or the Federal Caucus and the 
Power Planning Council.
    Senator Crapo. But in any event, it is not the Framework.
    Ms. Darm. The Framework was set up to generate 
alternatives. It is not a decisionmaking exercise.
    Senator Crapo. Okay. But, see, what I'm hearing you say is 
that the alternatives have now been generated by the Framework 
and the Caucus is taking it to the next step, which is to 
analyze the alternatives as well as to mix and match beyond 
those alternatives with the various options, and then to 
determine which of those best satisfy the needs of the 
Endangered Species Act, which, as I understand you, the next 
step would be those then would be the preferred approaches--
maybe that's not the legal terminology--but those will be the 
approaches that gain the support of the participants in the 
Federal Caucus as the decision is being made. Have I 
incorrectly stated the process that you're following?
    Ms. Darm. No.
    Senator Crapo. You don't see a problem there? Because, as I 
see it, that's a problem. The problem is that the Federal 
Caucus is now evaluating the various four H's, including, but 
not limited to, the mixes that have been put together by the 
Framework, going beyond that and looking at other mixes and 
matches, concluding which of those have the most merit, and 
then proceeding toward a decision on those. Certainly, at some 
point I assume you're going to open it up for public comment 
and public participation. But I'm getting more and more 
concerned rather than less and less concerned about the process 
you're describing.
    Mr. Frampton. Senator, it seems to me, and I'm listening to 
some of this detail as a little bit of an outsider as well, but 
my understanding is that the purpose of this sharpening process 
is to make sure that the alternatives that go out to the public 
for broad public debate through the Framework process are the 
best possible set of alternatives. The proof of the pudding 
here is whether ideas, better ideas, the best ideas, set of 
ideas, a broad set of ideas, alternatives, well-documented in 
the sense of some understanding of the costs and risks of the 
various alternatives that go out through the Multi-Species 
process to the public for public debate, if that is a good set 
of alternatives, that is a broad set of alternatives. That will 
be the test of this. That is not the endpoint; that is the 
beginning of public debate.
    Senator Crapo. Oh, I don't think it's the beginning. I 
think it is pretty well down the road toward the end. That's 
maybe where we are having our difference of opinion. Let me put 
it this way. As you determine the best options to put forward 
for the public participation, options will be rejected and 
options will be accepted, and the preferred options will be 
those put forward to the public. But the public has not had the 
opportunity, the Governor of Idaho, the Governors of the 
States, the tribes, the other people, have not had an 
opportunity to participate in a collaborative process to help 
generate the selection of those options to then put forward.
    Mr. Frampton. That is what the Multi-Species Framework 
accomplishes. To the extent that that is the lead process, that 
is the process that is going to put forth the alternatives, and 
that process increasingly becomes completely married to what 
the Federal Caucus is doing, then you have a completely 
transparent alternatives process.
    Senator Crapo. I have two comments on that though. First, 
if the Caucus takes the work product of the Multi-Species 
Forum----
    Ms. Darm. Framework.
    Senator Crapo. Framework. I'll remember that. The Multi-
Species Framework and then makes its own independent judgment 
on which of those alternatives are best, then for some reason 
you don't have the collaborative process deciding which of the 
alternatives are best any more, you have got a filter now--the 
Federal Caucus filtering which ones will go forward. That's my 
first concern.
    The second concern is that, if I understand the testimony 
correctly here today, the Federal Caucus will go further than 
that and they will actually evaluate other alternatives, other 
mixes that were not put forward by the Framework process and 
either reject or accept some of those and put those forward.
    The question I come down to again is, why does it take a 
closed process in which Federal agencies meet to do that 
filtering? Why can't we have an open, collaborative process to 
identify the alternatives? If we need more analysis and more 
mixes and matches, why can't we have a collaborative, open 
process? Because I'm very concerned, notwithstanding all of the 
expertise and wisdom that may reside in the agencies, there is 
not going to be agreement at the public level, at the level of 
the States, the tribes, and the community if they believe that 
the options they are allowed to have public input on at some 
point have been generated by a closed process.
    Ms. Darm. I understand your point. I see what you are 
saying and it makes sense. I am trying to think how to 
accommodate those concerns in the timeframe that is available 
and given some of the constraints we have. I mentioned before 
that the Federal agencies have, as you said, statutory 
obligations. Options that lead to extinction of species, it is 
going to be hard for us to put those forward as real options. 
What I am concerned about is the Federal agencies, or any 
process if it is a joint process, which I think would be the 
ideal, putting out options that ultimately don't have a chance 
of passing the final test.
    Senator Crapo. I'm not so concerned as to which options 
come out. I would assume that the collaborative process that I 
am advocating would also reject options that do not protect the 
species because I truly believe that there are very few, if 
any, groups that would support the elimination of a species if 
there are options for protection of the species that will work.
    What I am talking about more so is the process by which 
those options are created, evaluated, and then filtered and 
then put forward to the public. It gets back to my stated 
concern earlier. If the process that we are involved in 
ultimately is one in which a Federal agency, or in this case 
Caucus, makes a decision, or maybe several possible decisions, 
but filters the decision and then puts forward a selected set 
of alternatives, then the public is invited to give comment or 
to participate in evaluating those alternatives, then the very 
purpose of the collaboration, the very option of collaboration 
has been severely limited. Therefore, the opportunity for 
developing public support for whatever decision is ultimately 
put forward is significantly limited. That is the concern I 
have.
    Mr. Frampton. That concern is based on an assumption that 
the Federal Caucus controls the Multi-Species Framework.
    Senator Crapo. Well, it is based on the assumption that 
the----
    Mr. Frampton. If the Multi-Species Framework process only 
takes what it gets from the Federal Caucus as opposed to--if 
the Federal Caucus comes up with a slightly revised version or 
better idea, feeds it into the Multi-Species Framework process, 
which then takes it, for whatever it's worth, in the larger, 
more open and public context--if the Multi-Species Framework of 
the Power Planning Council stakeholder, public-driven process 
were circumscribed by what the Federal agencies give it, then 
it wouldn't be a very useful process even if the Federal Caucus 
didn't exist if it only could take what the Federal agencies 
told it to take and consider.
    Senator Crapo. Let me ask a quick question here. Do the 
Federal agencies have any statutory obligation to follow the 
recommendations of the Multi-Species Framework?
    Mr. Wright. To the extent that the Framework process 
results in something that would be adopted by the Northwest 
Power Planning Council, Bonneville at least is required to act 
consistent with the actions that would come up from the 
Council.
    Could I add to that?
    Senator Crapo. Sure.
    Mr. Wright. I would like to add to some of the responses, 
if I could, Mr. Chairman. A couple of thoughts. First of all, 
this is an evolving process. As Ms. Darm described, we are 
having discussions even this week about how to better involve 
the region and the Framework process and others in this. I 
think you're expressing a concern about how this process will 
evolve, and I think those concerns can be taken into 
consideration as we develop this process. Of course, we want to 
because, in the end here, we need a plan that is not thrown out 
and is rejected by the region out of hand. That doesn't serve 
our interest, the region's interest, anyone's interest. So we 
certainly want to accommodate the concerns of those in the 
region.
    But I do want to say that I've sat in hearings before and 
talked with many folks in the region and the fundamental 
criticism of the Federal agencies probably a year ago was that 
you don't speak with one voice; that you come to us and we talk 
to NMFS and they say one thing, we talk to Bonneville and they 
say another thing. So in order to address that concern----
    Senator Crapo. I share that concern, by the way.
    Mr. Wright. Well, in order to address that concern, we do 
have meetings where we get together and we seek to resolve our 
disagreements so that we're not telling people different 
things. In any process that evolves here, we would continue to 
have discussions amongst the Federal agencies where we seek to 
resolve our differences so that we're not sending different 
signals.
    Senator Crapo. I don't think anybody is saying that the 
agencies shouldn't communicate, because, believe me, we don't 
like those kind of charts any better than you don't like those 
charts. Did I interrupt you? Did you want to say anything more?
    Mr. Wright. Just to finish on that. So, we would continue 
to have those kind of discussions. Our thinking at least has 
been that we can have those kinds of discussions where we can 
resolve our disagreements and at the same time work with the 
Multi-Species Framework process, and that those come together 
because we will be using the information that we get out of the 
Multi-Species Framework process in terms of educating our own 
discussions amongst ourselves about where we want to go.
    So we've seen these as processes that to some extent are 
parallel but also are integrated. You need to have, in fact, 
both of those going at the same time.
    Senator Crapo. I know that I've been kind of beating this 
maybe to the point of futility, so I won't belabor this too 
much longer. But I want to try to maybe just put it in a 
different perspective. If there was an entity that you were 
dealing with that was making an important decision about your 
life, it was a group of different entities or people who were 
involved who were making that decision, and they agreed that 
they would allow for public comment and public input on the 
decision they were going to make, but before they did so they 
got together in a closed room and kind of decided what 
approaches to the decision they thought were the workable ones 
and what ones they didn't think were the workable ones and then 
they came out and let the public give input on the ones that 
they had chosen as the options they thought were the preferred 
approaches, wouldn't you feel a little concerned? Wouldn't you 
feel like maybe they left one in the room that they didn't 
bring out on the table that would have been better for you?
    Mr. Wright. Since you're looking at me, I'll be happy to 
take that one.
    Senator Crapo. Go ahead.
    Mr. Wright. Certainly. Absolutely, no question about it. 
That would be a concern. That's the problem that we've got. 
When we seek to have discussions where we resolve disagreements 
among ourselves so that we speak with one voice, the concern 
is, so what's really going on inside that room?
    Senator Crapo. Right.
    Mr. Wright. Unfortunately, I think in order to address the 
criticism of we need to speak together with one voice, there 
will always be that concern about, so what did you really talk 
about that you haven't told us about?
    Senator Crapo. Exactly.
    Mr. Wright. But the goal here is, again, we see the end 
game, and the end game is we have to come up with a product 
that the region finds acceptable. The only way you can do that 
is by having an awful lot of discussion with folks. In our 
discussions amongst ourselves, we're talking about what works 
here for the region. I think the commitment that we can make to 
you is that that is our goal. We want something that works for 
the region.
    Senator Crapo. I am just going to make a statement after 
which I'll be glad to give you, Mr. Frampton, the last word to 
respond. I believe that you've got to be very attuned to the 
fact that when the people of the Pacific Northwest say they 
want input, they're not saying that they want to have the 
ability to comment on a selected set of alternatives. They are 
saying they want to be a part of the decision. They want to 
have their thoughts, their feelings, their economics, their 
concern for the species and the ecosystem, and their approach 
to solutions considered and they want to be a part of the 
discussion. They don't just want to be able to submit comments 
for a hearing record, whether it be a formal hearing or 
submitting written testimony or written comments. They want to 
be a part of the decision.
    The reason for that is because there is a very healthy 
distrust of the Federal agencies. I think there would be the 
same distrust of the State agencies if they were making the 
decision, or Congress, or whoever it is. There is a healthy 
distrust of the decisionmakers, which is I think healthy. It is 
important that there be a concern by the public in that regard. 
I'll go back to something that you indicated at the beginning 
of your testimony, Mr. Frampton, to kind of illustrate my point 
here.
    You indicated in your first point that we have a need for 
the agencies to coordinate so we can get good public policy. 
One of the examples that you used was achieving a sustainable 
timber economy in terms of a timber plan. I'll tell you right 
now, there is a very big disagreement in the Pacific Northwest 
as to whether the Federal Government achieved anything close to 
an acceptable Federal plan with regard to developing a 
sustainable timber economy. Yet the Federal process that 
yielded the current situation we have in the timber economy in 
the Pacific Northwest probably dotted all the i's and crossed 
all the t's and satisfied the requirement for public input. I 
believe that there are probably those who participated in the 
process who believe that they've found the right balance in 
terms of protecting the forest ecosystems and creating a 
sustainable timber harvest. But I don't think they did and I 
think I'm in the vast majority in terms of the way the public 
feels in the Pacific Northwest.
    That's just one example of how there may be different 
points of view as to whether the right result got achieved as a 
result of the process that we followed. It is that that leads 
to the healthy suspicion of whether a Federal process or any 
process that does not involve a very open, collaborative system 
is going to yield a decision that can be accepted. So that's 
the concern that I raise.
    If you would like to add anything further, Mr. Frampton, 
please feel free to.
    Mr. Frampton. Only, Senator, to agree with your stated goal 
and to say that I think that is the Federal agencies' 
aspiration also, to have meaningful regional participation in 
the decisionmaking itself, not something that is mere window-
dressing. That is because, as a number of my colleagues have 
said, to develop a successful regional plan to restore salmon, 
we are going to have to have strong public support, and 
participation is probably the best way to get that support.
    In my reference to the Northwest forest plan, I was 
referring really to Oregon and Washington, the west side plan. 
I think there is very strong public support there for that 
plan. I realize that east of the mountains we're still 
struggling.
    Senator Crapo. It's a different picture.
    Mr. Frampton. If I could, I'm reminded that I forgot to ask 
for the record that my written statement be included.
    Senator Crapo. Oh, definitely. It will be.
    Mr. Frampton. Thank you.
    Senator Crapo. I forgot I have another question, so I am 
going to go back and ask one more. One of the issues that has 
been raised to me is whether the outcome of the Federal Caucus' 
deliberations is going to be subject to scientific peer review. 
From your discussion today, I assume that what you're 
contemplating is that will happen but that it will happen in 
some subsequent context. Could you, either Mr. Frampton or 
Donna, could you respond to that?
    Ms. Darm. Thank you, Mr. Chairman. I would think that it is 
fair to say we haven't entirely thought through this. The 
scientific analysis that we'll be using to evaluate the 
alternatives will be subjected to peer review. The final 
decision in terms of what is in the Biological Opinion will be 
subjected to scientific review as well. The timing of that most 
likely will be once at least a preliminary decision has been 
made. But I have to say we really haven't thought through all 
of the steps that need to take place.
    Senator Crapo. All right. Let me just say, as we conclude 
with this panel, there are three or four things that I would 
like to very heavily emphasize. First, you've already answered, 
at least for NMFS you have, the FOIA request, and we'll get 
that out today. I would ask that all of the agencies very 
promptly and thoroughly respond. If there is any problem with 
that, I would ask that the agencies get to me right away so we 
can figure out what any problem may be.
    Second, I strongly ask that the Federal Caucus stop 
meetings that are held in private that do not involve the 
States, the tribes, and the other participants so that we can 
move toward a collaborative process. I think that's kind of 
twofold. I'm not saying that the Federal agencies should not 
have the opportunity to meet and discuss among each other and 
try to get past some of the complications that are present in 
the statutory systems within which we operate. But I am saying 
that the evaluation of alternatives and the development of the 
mixes and matches and so forth should happen in wide open 
public view with full participation. I don't see any need for a 
Federal Caucus there.
    I think that part of that encouragement is that the Federal 
agencies aggressively push for a meaningful collaborative 
decisionmaking process as we try to achieve exactly what you've 
described here. I have no problem with what you have described. 
I just think it needs to be a collaborative process at a much 
earlier stage; namely, from the outset.
    Then, finally, with regard to independent scientific 
review. I think that any outcomes of this process must be 
independently reviewed in terms of an independent scientific 
review.
    Again, I appreciate your testimony here today. If you would 
like to respond to any of those, I will give you the last word 
right now before we finish.
    Mr. Frampton. Thank you, Mr. Chairman.
    Senator Crapo. Thank you all very much. This panel will be 
excused.
    Senator Crapo. We now go to Panel II. Mr. Robert C. 
Lothrop, manager of policy development and litigation support 
of the Columbia River Inter-Tribal Fish Commission, from 
Portland, Oregon.
    Mr. Lothrop, we welcome you today. I am sorry we went on so 
long but I wanted to get through some questions there with the 
previous panel. Please proceed with your testimony. Again, I 
ask you to try to watch the lights and we'll hope to keep the 
hearing under a time control. Thank you.

STATEMENT OF ROBERT C. LOTHROP, MANAGER, POLICY DEVELOPMENT AND 
     LITIGATION SUPPORT, COLUMBIA RIVER INTER-TRIBAL FISH 
                  COMMISSION, PORTLAND, OREGON

    Mr. Lothrop. Mr. Chairman, the Commission is honored by the 
invitation to testify here today. Mr. Sampson sends his 
apologies. He had a death in the family this week and so he was 
unable to make the hearing today. So I am here in his place.
    Senator Crapo. Please give him our condolences.
    Mr. Lothrop. I will.
    As you know, the Commission has four member tribes--Nez 
Perce, Warm Springs, Yakama, and Umatilla tribes. They are all 
located in the central Columbia River Basin, in the heart of 
the salmon territory of the Columbia River Basin, and have 
fished for thousands of years on the salmon returning to the 
streams and their homelands.
    As I sat and listened to the preceding panel, I heard a lot 
that struck a chord with the Commission's policies and some new 
information, and I'm still puzzling through some of that new 
information. Our testimony to a certain extent addresses the 
Federal Government's 4-H Paper. We now know that it is a 4-H 
process. But it is difficult to comment on the substance of 
that because we haven't seen it. It has been something that has 
evolved behind closed doors to date. It appears that the doors 
are opening, but it seems unsettled as to how they are opening.
    As Ms. Darm said, it is at least our impression that the 
information that is being prepared as part of this 4-H process 
will, in their words, ``help answer whether sufficient survival 
improvements can be achieved in the hydropower system to 
contribute to the recovery of listed stocks, or whether large 
survival improvements must be achieved in other sectors''--or 
by the other H's.
    The Commission and its member tribes have for a long time 
recognized that one cannot assess or manage the various 
mortality sectors, the four H's in isolation. In fact, the 
Commission has firmly taken a position that all mortality 
sectors must be addressed, and we have called this ``gravel-to-
gravel management.'' I learned that when I came to the 
Commission in 1981.
    In order to control the various sources of salmon mortality 
and manage them to achieve rebuilding, it is necessary to 
develop goals and objectives for the affected salmon stocks 
that are consistent with law and based on sound biology. When 
assembled into a comprehensive package, the measures adopted to 
achieve these goals and objectives must add up to rebuilt 
salmon runs.
    Over 4 years ago, the Commission and its member tribes 
published ``Wy-Kan-Ush-Mi Wa-Kish-Wit'' (The Spirit of the 
Salmon) plan. The plan encompasses the 4-H and includes 
quantitative goals and objectives. It uses the best available 
science and provides for monitoring, evaluation, and adaptive 
management. I believe it is still the only plan for Columbia 
River Basin salmon restoration that quantitatively assesses the 
measures recommended against the adopted goals and objectives 
and addresses all four H's in a manner consistent with 
applicable laws.
    For decades, the primary approach to conserving Columbia 
River Basin salmon has been to constrain harvest. The tribes 
have not had a commercial fishery on spring chinook since 1977, 
or summer chinook since 1964, or sockeye since 1988. Despite 
such restrictions, the runs have continued to decline to where 
they are now listed as either ``threatened'' or ``endangered.''
    To prevent the extinction of Snake River spring/summer 
chinook, it is essential to develop a plan that addresses all 
four H's. Yet, given the Federal Government's current 
restrictive policies, particularly with regard to artificial 
propagation, rebuilding of summer and spring chinook will have 
to be implemented solely by making significant changes in the 
hydro system and habitat management policies.
    A reasonable 4-H analysis must be firmly grounded in the 
best available science. The policy of deference to agency 
expertise does not always foster the use of best available 
science. We call for independent scientific review. Any 4-H 
analysis developed by the Federal Government should be subject 
to thorough independent science review with the input of the 
scientific views of the tribes and the States.
    In closing, we believe that in order to meet its 
obligations to protect and rebuild salmon, the Federal 
Government must conduct an analysis of what must be done in 
each of the four H's in order to meet reasonable goals and 
objectives. These goals and objectives must be based on the 
biological needs of salmon and the Federal Government's legal 
obligations. These legal obligations include not only the ESA 
and treaties with Indian tribes, but a variety of other Federal 
laws. Thank you, Mr. Chairman.
    Senator Crapo. Thank you, Mr. Lothrop. First of all, I 
would like to ask if you would be kind enough to send me a copy 
of your ``Spirit of the Salmon'' document.
    Mr. Lothrop. Absolutely.
    Senator Crapo. Thank you. I would like to go first into the 
question of independent scientific review. You were here I 
assume during the testimony of the Federal officials.
    Mr. Lothrop. Yes.
    Senator Crapo. From what you heard, do you believe that it 
is necessary that whatever the Federal Caucus process generates 
needs to be submitted to a rigorous independent scientific 
review?
    Mr. Lothrop. Yes. Absolutely. Governor Kempthorne's remarks 
struck a chord with me, too. I think in the course of that 
scientific review, the States should be able, as well as the 
tribes and others, to offer their science to that independent 
review so that all the data is on the table, all the cards are 
on the table available for scrutiny by independent scientific 
review.
    Senator Crapo. Thank you. You also I'm sure were here when 
we had the testimony from them with regard to the process they 
are following and heard the colloquy that we had. Do you have a 
concern about whether the tribes' and your interests are going 
to have the opportunity to participate in the process fully 
enough, given the understanding that you achieved from what you 
heard today?
    Mr. Lothrop. Yes. I think Steve Wright said that the 
process is evolving. I think it is probably highly evolutionary 
right at this point. That leaves us playing catch-up, quite 
frankly. It appears that the National Marine Fisheries Service 
staff and Northwest Power Planning Council staff are moving 
forward with scientific analyses and have been working on the 
alternatives. But as this picture comes into focus, for us, I'm 
concerned that we get to the game on time, so to speak. There's 
lots of talk about the playing field. The Federal Government 
has a much bigger team than the tribes do and our ability to 
interact timely with them is critical.
    Senator Crapo. So, if I understand you right, you are 
concerned that they are evaluating options that go beyond the 
Multi-Species Framework process?
    Mr. Lothrop. The tribes have some concerns with the 
alternatives as they have been currently developed in the 
Framework process. We are making our concerns known to the 
Framework process. But, ultimately, I believe the tribes will 
test the output of the Framework against ``Wy-Kan-Ush-Mi Wa-
Kish-Wit'' and whether it can achieve the goals and objectives 
that are in the tribal plan.
    I sensed a little maybe dichotomy between Governor 
Kempthorne's perception of the Framework, which I think is 
generally shared by the tribes. It is something to put the 
information on the table. It is not the decisionmaking process. 
The Federal Government was focusing more attention on the 
Framework not as a decisionmaking process, but an input process 
for decisionmaking. That is still a little bit unclear to me, 
and I am concerned about that.
    Senator Crapo. Did you have any concern about the testimony 
that the Federal Caucus is putting together various mixes and 
matches of the four H's and the science that we see on those 
that go beyond what has been generated by the Framework?
    Mr. Lothrop. The tribes are greatly concerned by finding 
the appropriate mix of the four H's. Having the Federal 
Government do that in isolation from the tribes is troubling. 
Governor Kempthorne said he knows of no law, and I know of no 
law, that prevents the Federal Government from sitting down 
with the tribes and having an honest conversation about the 
four H's and what is needed to recover salmon.
    Senator Crapo. So what I hear you saying is that in this 
extended analysis of the four H's and what mixes and matches 
will work, you feel the tribes have something to add and you 
would like to be at the table in a position to add it.
    Mr. Lothrop. Absolutely.
    Senator Crapo. All right. Thank you. I have no further 
questions. We appreciate your testimony here with us today.
    Mr. Lothrop. Thank you, Mr. Chairman.
    Senator Crapo. We will now go to Panel III. Mr. Scott 
Faber, the Director of Floodplains Programs, American Rivers, 
Washington, D.C.; Mr. Mark Dunn, the Director of Government 
Affairs of the J.R. Simplot Company, from Boise, Idaho; Mr. 
Owen Squires, the Pulp and Paperworkers Resource Council, from 
Lewiston, Idaho; Mr. Tim Stearns, the Policy Director of Save 
Our Wild Salmon, from Seattle; and Mr. Lynn Ausman, a grower 
from Waitsburg, Washington, on behalf of the Washington 
Association of Wheat Growers, and Washington Barley Commission.
    Gentlemen, we would like to ask you to proceed in that 
order. This is the last panel. We are running a little later 
here. I apologize I spent so much time on the other panel. But 
I do want to hear your testimony. I would like to ask you to 
try your best to keep your oral testimony to the 5 minutes, as 
indicated by the lights, and then we will have a chance to have 
some colloquy afterwards.
    Mr. Faber?

   STATEMENT OF SCOTT FABER, DIRECTOR, FLOODPLAINS PROGRAM, 
                        AMERICAN RIVERS

    Mr. Faber. Thank you, Mr. Chairman, and thank you for the 
opportunity to testify today. My name is Scott Faber and I am 
Director of Floodplain Programs for American Rivers. With me 
today is Justin Hayes, Associate Director for Public Policy for 
American Rivers.
    Let me just start by saying that I am not an expert on 
Snake River salmon but I may be of more value to this 
particular hearing because I've spent the last 6 years working 
with the Corps of Engineers to reform the management of the 
Mississippi and Missouri Rivers. I believe that many of the 
lessons that we've learned on those rivers could be applied to 
the Columbia and Snake.
    Like you, 6 years ago we were very frustrated by the Corps' 
decisionmaking process. Rather than working with stakeholder 
groups and States to develop consensus, the Corps conducted 
studies and developed management alternatives in isolation, all 
of which probably sounds familiar to you now, and, after 
spending years and millions of dollars, mechanically sought our 
input through public hearings which provided wonderful theater 
but really very little more.
    But in the Midwest, we have pursued a different course that 
you might consider in the Pacific Northwest. We persuaded the 
Corps and other Federal agencies to develop a wide range of 
science-based management alternatives and then simply ask the 
public to decide the fate of our rivers. On the Upper 
Mississippi River, for example, which stretches from St. Paul 
to St. Louis, the Corps worked with American Rivers and Mark 
2000, which represents waterway users and farmers, to create 
the Upper Mississippi River Summit, which is an annual forum of 
farmers, conservation groups, and waterway users, and asked 
them to set management goals for the river together. Rather 
than having States or the Corps run that process, I run that 
process with my colleague who represents the navigation 
industry.
    On the Missouri River, the Corps' held public workshops on 
a wide range of management alternatives that were selected in 
part by the public, and then asked river stakeholders to seek 
consensus on how the river's dams should be managed. In both 
cases, the Corps provided sound science-based information and 
then got out of the way and asked the public to make the tough 
calls.
    It has not been easy and it has not been perfect, but it 
has dramatically changed river management on the Mississippi 
and Missouri Rivers for the better and, for the first time, 
brought the rivers' economic and environmental interests 
together.
    This model could be applied to the Columbia and Snake. But 
I believe there is one problem, which is that the Corps has not 
developed all of the information that people need in order to 
make a real choice, as Mr. Frampton said earlier. In 
particular, the Corps has failed to really anticipate the 
social and economic impacts of dam removal and propose measures 
that could offset those impacts. Obviously as an outsider, it 
is clear to me that the decision to remove Snake River dams is 
a difficult decision and one that will not be made lightly. But 
the Corps I think is not allowing you to make a real choice 
because they have not developed plans and put those plans 
before you that would mitigate the impacts of dam removal on 
waterway users. There is, obviously, no question that removing 
dams and doing nothing more would increase transportation 
costs.
    But I think we can do more. We will not be able to really 
make that choice, that real choice until the Corps works with 
stakeholder groups to develop a transportation mitigation 
alternative or a series of potential alternatives. It is clear 
to us that wheat farmers and other waterway users cannot 
shoulder the burden, and should not shoulder the burden, of 
salmon recovery alone.
    That's why American Rivers recently hired Dr. Edward 
Dickey, the former Assistant Secretary to the Army for Civil 
Works under the Bush Administration and an expert on the 
transport of commodities, like wheat, to develop a 
transportation mitigation plan for the Snake. Although Dr. 
Dickey's proposal is not yet complete, options might include 
enhanced rail and road infrastructure, additional rail cars, 
additional facilities to store or transfer grain, and other 
investments designed to reduce transportation costs. Obviously, 
there will be other beneficiaries, not just waterway users, 
from these sorts of investments.
    I am sure you know that building consensus about any river, 
and particularly the Snake River, is not an easy task. Right 
now, river interests are polarized, unwilling to consider 
management alternatives that both save salmon and meet the 
needs of waterway users. But I think this committee can help 
partly by holding field hearings to encourage discussion about 
transportation mitigation alternatives, by directing the Corps 
to develop those mitigation alternatives as part of their DEIS, 
and by directing the Corps to hold workshops designed to build 
consensus between groups like American Rivers and the American 
Farm Bureau Federation and others.
    Of course, it is absolutely critical that the Corps use the 
best science and economic information available. I think right 
now there is some reason to be concerned that they are not 
doing that. Let me just give you one quick example before I 
finish up.
    Recently, the Corps has conducted surveys in California to 
gauge likely interest in Snake River fishing and recreation if 
dams were removed. But the Corps ultimately refused to include 
the potential benefits of recreation from those people 
originating in California when they ultimately calculated the 
economic benefits of dam removal. They also ignored the 
relatively greater economic value of tourists who come from out 
of State and assumed that local communities like Lewiston 
wouldn't try to capture that new recreation by building boat 
ramps and trails and other things designed to attract tourists 
and other kinds of visitors.
    Let me just finish by saying that 6 years ago no one 
believed that Mississippi River stakeholders could put aside 
our differences and develop a vision for the river. But we did 
that and we're now working together, farmers and 
environmentalists, to implement our vision. Thank you, Mr. 
Chairman.
    Senator Crapo. Thank you very much, Mr. Faber.
    Mr. Dunn?

 STATEMENT OF MARK DUNN, DIRECTOR OF GOVERNMENT AFFAIRS, J.R. 
                 SIMPLOT COMPANY, BOISE, IDAHO

    Mr. Dunn. Thank you, Chairman Crapo. My name is Mark Dunn. 
I am Director of Governmental Affairs for the J.R. Simplot 
Company. I am here primarily today, however, in my capacity as 
Chairman of the Government Affairs Committee of the Northwest 
Food Processors Association, which is a regional trade 
association representing the $6 billion fruit and vegetable 
processing industry in Idaho, Oregon, and Washington.
    Thank you for the opportunity to testify today on a topic 
that is of critical concern to our industry and, in fact, the 
entire Pacific Northwest. Protecting and recovering endangered 
salmon and maintaining the economic viability of the Northwest 
are not mutually exclusive, in our opinion. In fact, the 
recovery of salmon is dependent on industries such as food 
processing.
    Food processing is the largest manufacturing employer in 
the State of Idaho and the second largest in the States of 
Oregon and Washington. Our companies provide the tax revenues 
and economic stability the region requires to focus on such an 
enormous task. However, to be successful, the region must have 
a common vision, a vision that is shared by all parties, 
including the Federal agencies.
    The Federal Caucus does not currently seem to be a part of 
that shared vision for the Northwest. They continue to send 
conflicting messages and have failed to coordinate with 
critical regional initiatives. This uncertainty leads to 
increased conflict in the region and to decreased effectiveness 
of the regional process. As you can imagine, it is hard to 
motivate business leaders to participate in a process that, in 
the end, means nothing because NMFS or one of the other 
agencies decides to go a different direction.
    In my written testimony, I provided a couple of examples. 
The first one was the 4-H Paper that I think you've discussed, 
so I am going to skip over that, and just mention the second 
example, which shows our concern for what appears to be 
extremely serious coordination issues among the Federal 
agencies.
    The Bonneville Power Administration is currently in the 
middle of a controversial rate case that will have long-term 
impacts on the Pacific Northwest. In September 1998, after 
nearly a year long public process, Vice President Gore 
announced a set of ``Fish and Wildlife Funding Principles'' 
which would be incorporated into the new BPA rate case. These 
principles were formally incorporated into BPA's Record of 
Decision for the Power Subscription Strategy issued in December 
1998.
    Last month, we learned that three Federal bureaucrats from 
NMFS, U.S. Fish and Wildlife, and EPA, each of whom are members 
of the Federal Caucus, had drafted a 17-page memo titled 
``Preliminary Cost Estimates for Two Fish and Wildlife 
Alternatives.'' This memo, which was circulated to key 
Administration officials, attempts to make a case for further 
rate increases for BPA from 10 to 22 percent in the 2002 to 
2006 period. This is on top of the excessive reserves BPA 
already plans to accumulate using its adopted ``Fish Funding 
Principles.''
    While the contents of this memo are of critical concern to 
the region's industry, possibly the most shocking part of this 
incident is that the memo was never shown to the officials at 
the Bonneville Power Administration prior to being circulated 
among top Administration officials.
    If the Caucus cannot or will not coordinate such an 
important initiative, how can we as economic stakeholders hope 
to work with them? How can we trust their statements, and, even 
more concerning, what is coming next?
    The future of the Northwest will be shaped by the decisions 
that are made within the next few years. With so much on the 
line, we cannot afford to have Federal bureaucrats pursing 
their personal agendas outside of the accountability of the 
formal regional process.
    Regional elected officials, leaders, and stakeholders are 
forging a vision for the future of the Northwest. This 
leadership I believe was clearly articulated by Governor 
Kempthorne today. It is a vision that includes protecting and 
restoring salmon runs while continuing to support the economic 
engine that makes it all possible. It is a vision that will 
focus on a balanced, cost effective, and scientifically sound 
recovery measures.
    The Federal agencies, obviously, will play a major role in 
implementing and influencing these measures. However, it is not 
appropriate for them to attempt to circumvent the will of the 
region. I urge you, on behalf of all Northwest economic 
interests, to continue to press the Federal agencies to 
cooperate with the region and make sure they are supporting the 
implementation of regionally-based solutions.
    In closing, I would like to personally thank you, Senator 
Crapo. This hearing is typical of your desire to reach out and 
bring people together to solve problems. We want you to know 
that we appreciate your leadership on this critical issue.
    Senator Crapo. Thank you, Mr. Dunn.
    Mr. Squires?

   STATEMENT OF OWEN SQUIRES, PULP AND PAPERWORKERS RESOURCE 
                    COUNCIL, LEWISTON, IDAHO

    Mr. Squires. Thank you, Senator Crapo. Mr. Chairman and 
members of the committee, my name is Owen Squires. I am the 
Rocky Mountain Regional Director of the PPRC, the Pulp and 
Paperworkers Resource Council. We are an organization of 
300,000 members across the United States deeply committed to 
the conservation of our natural resources. I will be glad to be 
able to go home today and tell my fellow Union members and 
brothers and sisters that an analytical mix and match of the 
four H's by the Federal Government, and I can also tell the 
1,200 shut down mills and 40,000 out of work timber workers, 
that Mr. Frampton says it is all under control. It scares us to 
death to tell you the truth.
    As an example of the Federal family left alone to their own 
devices, an example of that is what they have done with the 
PATH process. They are using 20-year old data--it isn't current 
data, it isn't new data, it isn't pit-tag data--to make a case 
for dam breaching. In their ``spread the risk'' policy, the 
National Marine Fisheries Service told the Corps of Engineers 
to drive super saturation levels out of Lower Granite Dam to 
the maximum, 130 percent. That kills fish. We know it kills 
fish, they know it kills fish, the Corps of Engineers knows it 
kills fish.
    On June 9, the Army Corps of Engineers agreed with the 
request of KBTV, a national NBC affiliate out of Boise, to have 
Mr. John McKern interviewed to talk about dams, fish, and fish 
survival. The day before they showed up, Mr. McKern wasn't 
available. John McKern is probably one of the most honest 
people I know and we couldn't get a reason out of him why he 
wasn't available to be there.
    I represent labor--working people of this country. We are 
scared that they will do to us in this issue what they did to 
us in the timber issue. Our State has been devastated. We are 
torn apart. If the Government does not work in the open 
democratic process, we have no chance. We need to be there, 
labor, all of us.
    Out where I come from in Idaho we say that 35 years ago the 
``suits'' showed up and they built the dams. We protested it. 
We talked about it. We talked about the very issues that we are 
talking about here today--anadromous fish. We were told by the 
Government they had the solution. Now the suits are back, 
different faces, different haircuts, but they are back again 
and this time they have the solution again, with no input from 
us.
    We are the people that pay the bills. We are labor. We will 
ultimately pay the sacrifice and bear the burden. We must have 
a place there. We must be there, the tribes must be there, 
scientists must be there, all of us there to seek a balanced 
solution to this problem. Because it is not just the economy of 
the Northwest, it is anadromous fish. We work with local area 
high schools and we planted over 100,000 to teach children the 
wonders of God's magnificent creatures.
    We have to find a solution. But we can't find that solution 
if the Government conducts their hearings behind closed doors. 
We must be there. They must be in the open or this thing will 
not work. I thank you, Senator, for your time.
    Senator Crapo. Thank you, Mr. Squires.
    Mr. Stearns?

   STATEMENT OF TIM STEARNS, POLICY DIRECTOR, SAVE OUR WILD 
                  SALMON, SEATTLE, WASHINGTON

    Mr. Stearns. Senator Crapo, thank you again for holding 
this hearing. In the last few years, you have done the region a 
great service by continuing to pull us all together into a mid-
course correction on process. I think today you've obviously 
talked about how we define the field, and that's what I am 
particularly interested in here.
    My name is Tim Stearns and I am the Policy Director of Save 
Our Wild Salmon. For the last 8 years I've sought to help the 
region the region adapt to salmon recovery and to force the 
decisions to do that. I could go on at length about my 
frustrations with State, Federal agencies, but I won't. I don't 
really believe that there is a conspiracy theory here. What I 
think is really a problem is that there hasn't been a clear 
goal and a clear set of political guts to go towards that goal.
    We have spent a long time dealing with this issue. 
Declining salmon are not new. Dams in this region cut off 
thousands of miles of habitat once and for all. It is clear the 
dams have problems--passage, flow, cumulative effects problems. 
We tried one fix in 1980 with the Northwest Power Act. It 
didn't work. The ESA has kicked in in 1991. The Northwest Power 
Planning Council and the region tried a regional fix in 1994. 
We didn't implement it. We've lost control of it. It has gone 
to the Feds.
    Unfortunately, the Feds have had to step in. I certainly 
wouldn't agree that they've done a particularly good job. They 
don't implement their Biological Opinions, they don't 
necessarily enforce them, they haven't met their flow targets, 
they haven't modified projects they pledged to. They have had a 
difficult time with competing priorities. Unfortunately, the 
previous Administration and this Administration both under-
estimated the challenge. They didn't really establish a 
framework to make decisions. They didn't really put together 
the analytical capabilities they needed to work through these 
issues. They have never given us clear time lines. There has 
been ambiguity from the beginning.
    We had a process called the PATH process which was 
inclusive. It included absolutely every interest, from the 
States, the Feds, and the tribes. Yet, NMFS put out a Fish 
Appendix that they rewrote. There is a problem.
    I think a bigger problem though is that our Biological 
Opinions have been inconsistent, they haven't been coordinated, 
they haven't been enforced. During this whole process the 
science has changed. The scientific paradigm that we're working 
on is different than it was in 1980, different even than it was 
in 1991. Fish need rivers, they need watershed processes. We 
need to use technology to work with those issues.
    The court reluctantly approved the Federal plan in 1995 
because the Clinton Administration committed to making long-
term decisions in 1999. We want to hold them to that set of 
decisions. Now, one of the key elements of that process was a 
Corps EIS. It is about 6 months behind. It is clearly too 
limited to one H, the hydro system. It doesn't look at the full 
Columbia. It hasn't consulted with all the interested parties 
from Alaska to California and throughout the region. They have 
had a difficult time on when and how to release information. So 
the Corps clearly has a series of analytical problems.
    We also have put a lot of faith and hope in this ill-
defined Framework process. We are full participants in the 
Framework but I caution anyone from putting too many eggs in 
that basket. I would also suggest that this process is not 
funded by Bonneville. It is funded by ratepayers, which is all 
of us. It is not funded by the Corps. It is funded by 
ratepayers who pay those bills. So let's not over dramatize 
that Federal agencies are the ones carrying this ball. It is 
everybody in the region who has an interest here.
    The Federal 4-H Paper, I think there are three reasons for 
it, and they are pretty good reasons. It is clear the Corps EIS 
is way too limited and too narrow.
    The second reason is the Biological Opinions we are 
operating under are incomparable, inconsistent, they are not 
coordinated. Let me just give you an example. Under the 94-98 
Hydro Biological Opinion, we allow the hydro system to kill 99 
percent of migrating smolts and over 60 percent of migrating 
adults. Under the Harvest Biological Opinion, we allow only the 
harvest of 24 percent--60 percent versus 24 percent. I think 
the tribes have a pretty strong case to say it is not 
equitable, it does not meet the Federal test. We don't even 
define the habitat and hatchery problem in those Biological 
Opinions. Until we get them all on the same page, we have got a 
problem.
    The third main reason, the Feds do not speak with one 
voice. It would be great if we could get George Frampton to be 
the sole representative of the Federal Government. The 
practical effect is he is not going to be there. We're going to 
need all the Federal agencies. The Federal agencies need to 
talk. I normally am an absolute critic of openness and want 
openness. But, frankly, if we open this process up so that we 
have to go and monitor each and every Federal meeting when they 
talk to each other anywhere and everywhere, you can look at 
your own diagram, we're exhausted with the excess of process. 
So it is not really a big win for the region if you go and say 
let's open up every single meeting.
    What the Feds really need to do is to finally put their 
options on the table. They need to take comment, they need to 
respond, they need to hold hearings around the region. Each and 
every option that is viable needs to go through the same 
scientific and economic filter. What we can no longer have is 
anecdotal recovery plans--it's the ocean, it's the turns, it's 
the Alaska fishermen, it's the dams. What we have to do is have 
a rigorous disciplined process to go through.
    At the same time, we have been asked to approve a credible 
financing plan, a financing plan for the future of salmon 
recovery. Right now, it is going to pit salmon recovery versus 
treasury repayment. I have a 7-year-old. Today I save for his 
college. I am not sure he's going to go to college, I'm not 
sure what college he's going to go to, but I want to be ready 
for each and every option. We know that in the next 10 years 
salmon recovery is going to cost money and, at least for this 
transition period, it is going to cost a substantial amount of 
money. The sooner we save for that inevitable rainy day, the 
better off we're going to be.
    Let me close with what I think are five things that this 
committee can continue to do for us. We need one set of 
hearings. We need them before Thanksgiving or after the first 
of the year; we don't need them in the holiday season and ruin 
the holiday for us. This process ruins the holiday for us 
already. But it has got to talk about the Corps EIS, it has got 
to talk about the draft Biological Opinions, it has got to talk 
about the 4-H Paper, it has got to put the Framework on the 
table. But one set of hearings that go from Alaska to 
California and throughout the region.
    We need to lay out all of our alternatives and take them to 
PATH, take them to the ISAB, take them to the IEAB, take them 
to the Framework. We ought to peer review this thing to death.
    The second major thing is we have got to make decisions 
prior to the migration. We fear nothing more than this will 
become an election football again and we will put off 
decisions. Not making decisions makes this a disaster for 
everybody in the region.
    Third, the Feds should make no binding decisions before 
they fully consult, meet their obligations to consult with the 
States and tribes. But they also have to do that within two 
very narrow parameters. It has got to follow the law, it has 
got to meet the scientific tests.
    Fourthly, we need to keep our options open. Dam removal is 
an uncomfortable thing to advocate. But the science says it 
makes some sense. What we can't do is take any option off the 
table right now. We have to send them through the same 
scientific and economic filter.
    Finally, whatever we do, in the words of my 86 year-old 
father, he's seen a lot of changes in his life and he's been 
against every single one of them, change is going to hurt. We 
have to deal with the people who have to change and build real 
transition plans. I guess I would just close by saying change 
is overdue in this system. Change is inevitable. It is better 
for us to embrace change and move on together.
    I would like to thank you again for at least getting the 
Federal agencies here at the beginning of the hearing. It is 
always a frustration when we're here to listen to them and then 
they go away.
    Senator Crapo. I notice a couple of them stayed in the 
audience. I hope that they will have a transcript of this. 
We'll make sure they do have one.
    Mr. Stearns. Just a final remark. Ted Strong, who used to 
run the Columbia River Inter-Tribal Fish Commission, suggested 
that we've had a lot of thunder and a lot of rain dances, but 
we haven't had much rain. It is time that we make this system 
rain. Thank you.
    Senator Crapo. Thank you, Mr. Stearns.
    Mr. Ausman?

  STATEMENT OF LYNN AUSMAN, GROWER, WAITSBURG, WASHINGTON, ON 
BEHALF OF THE WASHINGTON ASSOCIATION OF WHEAT GROWERS, AND THE 
                  WASHINGTON BARLEY COMMISSION

    Mr. Ausman. Thank you, Mr. Chairman. On behalf of the 
Washington Association of Wheat Growers and the Washington 
Barley Commission, it gives me great pleasure to talk to you 
this afternoon on these important issues.
    I am a barley grower and wheat grower in Asotin County in 
the State of Washington. Asotin County is bordered on the north 
by the Snake River and Lower Granite dam is the first of four 
dams that we've heard much about. There are four grain 
receiving stations in Lewis Clark Valley.
    As the Governor put it, ``The salmon fisheries of this 
State have, in the past, been wonderfully productive. Of late, 
however, evidence of a decrease in the run is apparent, and all 
are agreed that something ought to be done to prevent the final 
extinction of a great industry.'' This Governor was John R. 
Rogers, not our present Governor Gary Locke, and he said it in 
1899, not 1999.
    Our Association thinks this puts salmon restoration 
problems in the proper perspective as we deal with it today. In 
our area there is strong support to increase the salmon runs in 
our river system. There is also almost total agreement that 
breaching the lower Snake River dams will not be the answer to 
the problem.
    The members of our association are growing increasingly 
frustrated as we have watched the ongoing analysis of salmon 
restoration in the Snake River system focus almost solely on 
dam breaching. We were told from the beginning that there would 
be four H's to be considered--habitat, hydropower, harvest, and 
hatchery management. However, it has become increasingly clear 
that the Federal agencies are not focusing on these other H's.
    In the past few year of watching the process of salmon 
recovery efforts, it has become apparent to us that this 
problem is one of more complex issues of scores of years. It 
starts with the very definition of salmon species to continue 
on to include the variance of ocean temperatures. A marine 
biologist expressed the belief that there weren't ten reasons 
for fish run declines or even a hundred, but he thought a 
thousand reasons would be more in the ballpark. I would submit 
to you that the problems we have with fish population is not 
what we think we know but the many things we need to learn.
    A computer model called PATH, which stands for Plan for 
Analyzing and Testing Hypotheses, is held up as a reason for 
dam removal. It is important to note that there is no empirical 
data to prove that destroying the four dams would lead to 
recovery of the salmon. It is simply a computer model. This 
model makes some assumptions that do not follow known facts. 
For example, according to the recent salmon tag studies, over 
50 percent of the smolts moving in the Snake River reach salt 
water. However, one PATH model predicts only 20 percent, and 
other PATH model predicts only 30 percent. Therefore, I would 
hate to base a decision as monumental as dam removal on such 
hypotheses. There are questions.
    The environmental effects of breaching are another matter. 
The Corps of Engineers estimates that there are 100 to 150 
million cubic yards of sediment behind the four dams. This 
would create 30,000 acres of mud flats. With dam removal, this 
material would move down stream for several years and this 
would cause much harm to the existing habitats as they are 
today. The use of this river system is also environmental 
choice because of emissions. Navigating the river system will 
use 40 percent less fuel per ton mile than rail, assuming there 
would be cars and power units available, which we highly 
question. Compared to trucks, the Snake River system will use 
110 percent less fuel per ton mile. According to the Washington 
Wheat Commission, if grain barge traffic was halted, the 
industry would have to locate 120,000 additional grain cars, 
and 700,000 semi-trucks. This is an enormous cost of building 
of the roads and rail necessary for infrastructure. All this 
will affect our grain industry by raising costs to the industry 
that is already suffering economic depression.
    So, what should we do to increase the fish runs in our 
Snake River system?
    Continue to improve the transportation of smolt. Address 
and solve the predator harvest problems. Modify hatcheries to 
improve their contribution to an overall solution. Look into 
commercial fishing harvest to better understand their impact on 
the fish. Modify turbine gaps, turbine blades, blade coatings, 
and hydraulic conditions into and out of the turbines. Add 
surface collectors to move smolt around the dams. Continue to 
pursue technological alternatives that are scientifically 
sound.
    If we can get by the unfortunate notion that breaching of 
the lower Snake River dams is a possible solution to the 
problem at hand, we can then work together to solve the 
problem. Thank you.
    Senator Crapo. Thank you, Mr. Ausman.
    I have a couple of specific questions to members of the 
panel, and then I would like to toss out some questions in 
general and just ask all the members of the panel if they would 
like to respond to them.
    First, Mr. Faber. I realize that your experience in the 
collaborative process is not in the Pacific Northwest but I 
think it is illustrative of what can be done. As you heard the 
discussion and the testimony that took place today with the 
Federal officials, did it raise concerns to you? I guess I 
would just like you to comment on what you heard in terms of us 
seeking to achieve what you've done in the area where you work.
    Mr. Faber. I would be happy to share some thoughts. In 
fact, I found myself sharing your frustrations quite a bit. Six 
years ago, when we first began working on the Missouri and 
Mississippi Rivers, we faced the same sort of problem: agency 
officials deciding what alternatives should be considered, 
putting them before the public and asking for perfunctory 
comments. They were surprised to find out that nobody liked the 
alternatives they were coming up with. In fact, they themselves 
became so frustrated that they said, ``Okay, why don't you 
American Rivers, and you the navigation industry, and you the 
corn growers association tell us what alternatives you think we 
should be looking at.'' It strikes me that this is a process 
that has been led too much by the agencies and not enough by 
the public.
    We certainly don't agree on everything on the Mississippi 
and Missouri Rivers, but what we have been able to do is find 
areas of commonality. That in turn has given agencies like the 
Corps a sense of where consensus lies and how to change their 
river management decisions to reflect that consensus.
    Senator Crapo. We face very serious timeline pressures 
here. There is strong concern about, first of all, there are 
statutory requirements that we make prompt decisions, and then, 
second, there are strong concerns that if we don't make prompt 
decisions and if they're not the right ones, that it could have 
very severe consequences for the saving of the species.
    First of all, was that present in your circumstance? 
Second, given that dynamic, do we have time for a collaborative 
process?
    Mr. Faber. We certainly have the same certain time issues 
on the Missouri, where we have federally listed endangered 
species and a court waiting to intervene if necessary. I think 
the way to look at it is you can go down two paths right now, 
and I'm not referring to the acronym. One is the Corps and NMFS 
and the other agencies continue to put together alternatives 
that none of us, whether it is Mr. Ausman or Mr. Faber, 
particularly like and the whole thing ends up before Judge 
Marsh and maybe in 5 years we have a decision from the court, 
of all places. That's not an alternative I think any of us 
particularly want.
    Another alternative is to try and quickly create a 
collaborative process perhaps led by a conservation group and a 
farm group, or a navigation industry group, to really begin to 
seek consensus. The role I think the agencies play is by 
providing information, information that is requested by the 
public. For example, I know Mr. Ausman was talking about some 
of the information he feels the Corps hasn't developed 
sufficiently. We certainly feel that they haven't developed 
realistic transportation mitigation alternatives. Just as an 
example, what we found on the Missouri River was that when the 
Corps, at the urging of Senator Kerrey, developed more 
information about a split navigation season which would have 
suspended navigation in the summertime, it turned out that the 
industry was actually not as opposed to that as we would have 
thought.
    So when you let the public lead these processes, sometimes 
you wind up with a better outcome.
    Senator Crapo. Now it seems to me that you have been able 
in the Mississippi arena to achieve a circumstance in which the 
actual decision is made by the collaborators. Who is it led by?
    Mr. Faber. In Mississippi, it is led by American Rivers and 
Mark 2000, which represents the navigation industry and farm 
groups, everyone from----
    Senator Crapo. So constituency or interest groups in the 
region are leading the collaborative effort.
    Mr. Faber. Exactly.
    Senator Crapo. Are the decisions of the collaborative group 
binding?
    Mr. Faber. They are not binding because that would be 
creating a sort of a Basin Commission. Yet, we have found that 
when we have reached consensus on dam operations on the 
Mississippi River, for example, the Corps of Engineers jumps 
for joy. They finally could implement a hydrologic regime and 
change their dam operations to meet the needs of nature and 
navigation and could stop shooting in the dark, trying to guess 
what consensus looks like.
    Senator Crapo. One last quick question to you in this 
context. If it were possible for us to modify the Federal law 
to allow statutorily for the creation of this type of entity 
and give it binding decisionmaking authority, would you think 
that's a positive move?
    Mr. Faber. I think that's a terrific step in the right 
direction, but it also has to be accompanied by the Corps' 
willingness to develop the right information.
    Senator Crapo. At that point, the agencies, instead of 
becoming the decisionmakers as they are now, supply the 
expertise and become the support group, if you will, for the 
collaborators.
    Mr. Faber. That's right. We have found it's not a perfect 
process but what it has done is allowed us to identify common 
ground and then allow the agencies in turn to implement those 
recommendations on the Mississippi. I would be happy to share 
this with your staff.
    Senator Crapo. The agencies provide the support and 
implementation in the model we're talking about here. They are 
not the decisionmakers.
    Mr. Faber. That's right. Ultimately, they are taking their 
cue from the consensus that is developed through the Upper 
Mississippi River Summit. Agencies have varied in terms of 
their compliance. Frankly, the Corps has been the most 
responsive of all the agencies. The Department of Interior has 
been somewhat less responsive. In general, agencies have been 
happy that the stakeholders, who oftentimes show up at public 
hearings to entertain one another with their rhetoric, have 
finally sat down and really gotten down to brass tacks.
    Senator Crapo. One last question. I realize that we're 
talking about something we would like to see created in Federal 
law. What you have been able to create de facto in your region. 
But do you think we would have a shot at that in the Pacific 
Northwest?
    Mr. Faber. There's no reason you can't. I'm an outsider and 
I have to say there is probably a little bit more sensibility 
to folks in the Midwest than maybe anywhere else in the 
country. But it seems to me that the Corps now has the 
authority to go ahead and invite private groups to lead that 
process. They don't need you to act through WRDA or some other 
mechanism. But what they could probably use is some direction, 
whether that's in a letter or in some other means, that says 
here's a process that has worked on the upper Mississippi 
River, why don't you give this a try on the Snake and see where 
it goes.
    I will add one thing. I don't want to lecture the law to 
someone who has probably practiced law longer than I have been 
alive.
    Senator Crapo. I welcome it.
    Mr. Faber. But one problem with the process is the way the 
Corps has interpreted NEPA. They often do a scope of work and 
do all of their alternatives and run those alternatives before 
the public is even invited to provide comment. If NEPA were 
changed, or the Corps interpreted NEPA to require them to bring 
the public in early in the scoping process, then a lot of the 
problems that we're seeing here today wouldn't be happening I 
think.
    Senator Crapo. That's exactly the point that I was trying 
to make with the Federal officials here today. Do you agree 
from what you heard today that that's the dynamic we're seeing 
develop?
    Mr. Faber. Absolutely. I think it is a matter of bad law 
and bad habit. Some agencies--and I think it is changing in 
different parts of the country--do not see the public as a 
collaborator but merely as the end of the process. I'll just 
end with this anecdote. My father was in the Corps of Engineers 
in the 1950's, and he said that in the 1950's we didn't care 
what the public thought, we just did what we wanted and what 
Congress wanted. When we started 6 years ago the Corps said, 
well, if everybody is unhappy, we must be doing something 
right. Now I think, at least in our part of the country, the 
Corps is saying keeping everyone unhappy is not a good way of 
doing business and we've got to figure out how to bring the 
public into this decisionmaking process here.
    Senator Crapo. All right. Thank you.
    I am going to give each of you an opportunity to discuss 
this concept. But before I do, I had a couple of specific 
questions for Mr. Stearns.
    You had indicated that you're not as concerned with the 
Federal Caucus developments that we've had discussed here for 
several reasons. I understand your point. In fact, one of your 
points was that we don't want to have that chart magnified by 
having to open every single meeting that the Federal agencies 
have to public participation, and I certainly don't want to see 
that happen either.
    In one of your five recommendations at the end, No. 3 it 
was, you wanted to see no binding decisions made before there 
is consultation with the public and the public is involved. The 
question I have is, don't you have a concern that if the 
decisionmaking, and officials in this case, the Federal 
officials, even if they haven't made a binding decision, if 
they have been in a closed room making tentative decisions or 
evaluating the options and starting to reach conclusions, not 
making it binding, but then come out for public input, don't 
you believe that is a little bit late in the game for the 
public input?
    Mr. Stearns. Recognize that all of us have access to all of 
the Federal agencies all the time. What they don't do is if 
they don't get together and come up with their own vision of 
where they are headed as an administration, they basically 
aren't responsive on anything. Frankly, they give us multiple 
stories. It is much better, and it is long overdue, for them to 
speak with one voice on this issue. I look at the Federal 
problem on this river is that they have not formally and 
informally got together and come up with a common vision.
    All I am suggesting is that I just don't think that it is a 
reasonable standard to suggest that the Federal agencies can't 
meet together and figure out their administration program and 
put it out on the table. I think all of us at this table are 
fully capable of shooting down every stupid idea they come up 
with. We do it over and over and over again.
    Let me just describe one frustration. This Framework 
process, we had a big regional confab in November, there were 
28 different alternatives put into it; we put in one, the State 
of Oregon put in three, the State of Idaho didn't put in one, 
the Federal Government didn't put in one. It was an absolute 
frustration that the Federal Government would say everybody 
else come to the party and put your ideas on the table but 
we're not even going to bring what we think. My goal here is to 
smoke them out. Get them thinking. Get them to put their ideas 
on the table and have it go through a process.
    Senator Crapo. I certainly agree with the objective, and I 
think most people would, that the Federal Government should 
speak more with one voice, not with this kind of process and 
non-voice, and also that we don't want to slow the process down 
by creating a multiplication of difficult processes and 
creating even more difficult problems for the Federal agencies 
who do have the requirement under the statutes to act. So I 
understand your point.
    Let me just go to the whole panel now and ask, in the 
context of what you have heard today in the testimony from the 
Federal officials who testified, and from what you now 
understand about their explanation for what the Federal Caucus 
is and what it is doing, what your reaction to that is? Have 
your concerns been satisfied, or have they been increased, or 
do you have a comment on it?
    I guess, Mr. Faber, we have really already gone through 
that with you. I am going to pass you this time, and we'll go 
right to you Mr. Dunn for any comments you might have.
    Mr. Dunn. Just briefly, to say, unfortunately, our concerns 
were not alleviated by their comments today. We would encourage 
you and other members of this committee to continue to pursue 
them being open in their Federal Caucus process.
    Senator Crapo. Thank you. Mr. Squires?
    Mr. Squires. Senator, before I came to this hearing I had 
some concerns. Now I'm scared. This is probably, when I 
listened to them here today talk, it was probably the most 
frustrating thing I've done since we tried to talk to them 
about the chicken complex fire which raged in Idaho. I do not 
believe that this agency has a clue. Our biggest fear is that 
the anadromous fish problem in the Pacific Northwest will be 
politically driven, not fish driven. I think that they proved 
that here today. Thank you.
    Senator Crapo. Thank you. Mr. Stearns?
    Mr. Stearns. Well, I won't say that I don't share concerns. 
I think I would agree with Mr. Squires that I'm still scared. 
What I think is more important though is that Mr. Frampton 
suggested that the administration recognizes that they have a 
strategic role to play here, that there is both an economic set 
of decisions and a scientific set of decisions, and that they 
feel that the Federal Government needs to speak with one voice. 
I would have to admit that I am somewhat reassured by that.
    I am not overly sanctimonious about any Federal agencies. I 
have dealt with them my entire career and they have Congress 
pushing them, they have their constituencies pushing them, they 
have the press pushing them; they respond to pressures. But I 
guess what I would say more than anything is we were relieved 
when they said they were getting together because we thought 
they were 2 or 3 years behind. Now that they've said that they 
are doing something, we certainly ought to mistrust what 
they're doing and make them put it on the table. But whether I 
am more alarmed after this, I don't know.
    Senator Crapo. All right. Mr. Ausman?
    Mr. Ausman. I am very concerned with the closed door 
concept. But I think in listening to you I feel better about 
it. I feel with people like you here that helps. But I am 
concerned with the closed door concept.
    Senator Crapo. All right. Let me just conclude with another 
question which I would like everyone on the panel to talk 
about. Again, Mr. Faber, if you want to pitch in, feel welcome 
to do so, but I really want to get the feeling of the panel 
with regard to the idea that I've already explored with you. 
The question is on the broader question of moving to a system 
of environmental decisionmaking in which we have a 
collaborative process in which the collaborators actually make 
decisions and are empowered to do so, preferably by law, in my 
opinion, but whether it is by law or by de facto arrangement.
    I would like to know what the panel thinks about that 
arrangement in terms of both salmon recovery in the Pacific 
Northwest and in terms of environmental policy in general in 
this country. Anybody want to go first?
    Mr. Dunn?
    Mr. Dunn. Well, Mr. Chairman, I think that is something 
that we could certainly support in the Pacific Northwest. I 
think that process would guarantee that regional interests 
would be included. I think it has been a frustration that, for 
example, Northwest Power Planning Council has been charged with 
some oversight yet has been given no authority to really do 
much in terms of river operation or other environmental policy. 
So I think that is an avenue fruit processors would definitely 
support.
    Senator Crapo. Thank you. Mr. Squires?
    Mr. Squires. I think it is something that is long overdue, 
if it can be achieved. PPRC in our model, as you know, we're 
seeking balance. We have got to get both sides to the table 
here and get something that will work and find a balanced 
solution for these problems. I think that would be the answer 
ultimately. I would like to see the Federal Government take 
that role, as Mr. Faber said, somebody that would give 
information, somebody that would be a clearinghouse, but 
without an agenda, to help bind this thing together and find a 
solution for the fish and for the region. I think that is 
something that could be done.
    Senator Crapo. Thank you. Mr. Stearns?
    Mr. Stearns. Senator Crapo, with all due respect, I think 
one of the wisest things a legislator can do is not legislate. 
This is one of those situations where I don't think we 
necessarily need it in Federal law. We certainly could use your 
push and your help. It is not to say for an instant that we 
don't need these kinds of collaborations.
    I want to tell you that I have participated in a number of 
them, some successful, some frustrations. We have successfully 
relicensed the projects in the Skagit with Seattle City Light. 
We are going to successfully relicense projects owned by two of 
the three mid-Columbia utilities, Chelan County PUD and Douglas 
County PUD. No gun to anybody's head. We all showed up, agreed 
we wanted a solution. We felt that they had something to 
protect and worth valuing. They said we'll put a checkbook on 
the table but we're not signing it until we have a deal. I just 
don't want us to go and try to put guns to anybody's head.
    What I would suggest though is that there are three things 
that make a collaboration work. One is that you agree that 
you're going to comply within the law and within treaties. 
Second, that you're going to work only on solutions that are 
within the boundaries of science. Third, that you go and commit 
a finite time period to come to a deal. The ones that fail are 
the ones that string out on and on and on. So, clearly, we are 
open.
    Frankly, I think dam removal is something that has to be on 
the table. Is it the only recovery package that is going to 
work here? No. I think if we're willing to make some other 
really significant situations, we could do that. But I think 
people also have to come to the table with an open mind of what 
the possibilities are and work through them.
    Let me close with one thing. Bill Ruckleshaus is working on 
a process that is based primarily in the Puget Sound area, but 
he went and described that the Federal agencies and the States 
weren't talking particularly well and we needed a new Federal 
official. Very quickly the press and some politicians jumped on 
it and said ``Bill Ruckleshaus calls for a salmon czar.'' The 
last thing we need is a salmon czar. What we need is a salmon 
shuttle diplomat; somebody who goes around and doesn't try to 
impose solutions but listens to everybody, gets them to listen 
to everybody, and work for commonalities.
    I want workers that have living wage jobs, I want food on 
my table, and a healthy rural eastern economy. I think these 
guys want salmon. I think there are solutions here. But, 
clearly, we all have our blinders. I just think that if we live 
within the law, we live within the science, we agree to 
disagree and do it in a timely fashion, we can get somewhere.
    Senator Crapo. Mr. Ausman?
    Mr. Ausman. Being a farmer, back to the grassroots. The 
farming community in eastern Washington is working with the 
salmon recovery. We have a couple of different model 
watersheds. We feel that we're not getting recognized for what 
we are contributing to the situation right now is one of our 
problems, our frustrations.
    Senator Crapo. Good. Did you want to say something, Mr. 
Faber?
    Mr. Faber. Just to add that I think Mr. Stearns has made an 
important point, especially in your context, which is the 
timing. In this case, what you might think about, and then I'll 
go back to the Midwest where I can do more harm probably, is to 
say let's have a process that is led by stakeholders like the 
ones right in front of you, give it X amount of time to work, 
in this case we're talking about months, obviously, not years. 
If that doesn't work and these folks can't find consensus, at 
least we can say we've tried. Ultimately, I think all of us 
would prefer to be making that decision, the public would 
prefer to make that decision rather than to allow the 
Government or, God forbid, a judge make that decision for us. 
That creates a lot of pressure.
    Senator Crapo. Those are good comments.
    I really appreciate the effort that all of you have gone 
through to come here and testify. I know you've sat through the 
whole hearing, so you get the special ``at-a-boys'' for 
perseverance today. I appreciate your insight. Obviously, this 
is a difficult issue and there are a lot of very valid points 
of view that need to be brought together.
    My objective in this hearing was to focus on what I think 
is a very serious process error that is underway right now. 
Frankly, before the hearing, I thought that there may be a 
chance that we could get it resolved, that maybe our concerns 
would be alleviated. But I don't think that that has happened. 
I think that the concerns I had before the hearing are still 
concerns, and I know that a lot of you share those concerns as 
well. I know the Federal agency officials are sincerely trying 
to work this out from their perspective. We're going to 
continue from our perspective to try to push this in the right 
direction, both on the specifics of salmon and steelhead 
recovery, and on the general issue of how we approach 
environmental decisionmaking.
    I agree with you, by the way, Mr. Stearns, that there 
certainly is a question as to whether Congress can improve or 
screw things up worse in terms of trying to take a good idea 
and make it work. But there is also the question of whether the 
Federal laws are already fouled up and we may need to improve 
them somewhat or at least correct them in ways that have been 
suggested.
    So on both a specific level and on a general level, I think 
there are some ideas that have been generated by this hearing. 
I hope that the Federal agencies who were invited to be here 
and who will receive the FOIA requests will take off their 
blinders to the extent possible and try to find a way forward. 
I hope for a way forward that is very consistent with what Mr. 
Faber has identified as a way that we can without statutory 
changes at this point, because we don't have the time, maybe de 
facto, find a way forward in terms of a collaborative model 
that will work.
    Once again, I thank all of you for your time and effort and 
your ideas and your comments.
    Mr. Stearns, did you want to say something?
    Mr. Stearns. Mr. Chairman, just a final point. I hope 
nobody holds it against you that you agreed with me on 
something. But more importantly, the Framework is a process 
that I think right now is once again one that is being agency 
and bureaucrat-driven and there is a possibility of getting 
more stakeholders, make it more stakeholder-driven. I would 
suggest that immense pressure from a highly influential Senator 
would be a good step.
    Finally, in the last hearing on this issue Congressman 
Weldon suggested that if you wanted the people in the plane 
crash at the end, then you better get them on at the take-off. 
I thought it was an interesting malapropism in how we should go 
forward. Thank you.
    Senator Crapo. That's a good analogy. But we will make this 
plane land safely if we can do it.
    Thank you all very much for coming.
    This hearing is adjourned.
    [Whereupon, at 4:18 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
  Statement of Hon. Harry Reid, U.S. Senator from the State of Nevada
    Good afternoon, Mr. Chairman. Thank you for holding this important 
hearing on one of the most complicated and controversial wildlife 
issues in the Northwest, if not in the entire country.
    It is due to the very complexity of the issues involved that I 
think this hearing is so important. Rather than focusing on the issues 
themselves (there will be plenty of time for that later), we are going 
to take a look at the processes being employed by the federal 
government, in particular, in setting out a plan for recovering the 
many species of salmon in the Northwest.
    In reading through the testimony for today's hearing, it seems that 
most of the stakeholders in the Northwest agree on two things (and 
maybe not a lot else) when it comes to the salmon.
    First, everyone agrees that what we are doing now to protect and 
recover the salmon is not working. That cannot continue. By examining 
all of the possibilities and leaving no stone unturned, it is our 
obligation to future generations to make sure that salmon not only 
survive, but thrive in the Northwest.
    Secondly, everyone seems concerned that the federal caucus of nine 
agencies and departments is going off to work out a federal solution 
behind closed doors.
    I read all of the testimony last night from what I believe to be a 
relatively well-balanced panel and was surprised at the level of 
consistency I found across interested parties.
    From the Tribal witness: ``Since the federal government is 
developing its 4-H paper behind closed doors, it is somewhat difficult 
for us to comment on the substance of it.''
    From the agri-business witness: ``[The Corps] send[s] conflicting 
messages and has failed to coordinate with regional initiatives.''
    American Rivers: (speaking about similar efforts on the Missouri 
and Mississippi): ``. . .Corp conducted studies and developed 
management alternatives in isolation and, after spending years and tens 
of millions of dollars, mechanically sought our input through public 
hearings which provide wonderful theater but little more.''
    While I do not endorse some of the more overblown rhetoric that is 
sprinkled throughout some of the testimony, I am concerned that the 
nine federal agencies that are participating in this process as members 
of the ``Federal Caucus'' are making a key blunder if they are not 
planning to take advantage of every opportunity to involve the public 
in both the process and substance of this undertaking.
    I encourage each of the agencies individually and as a group to 
make their findings available for substantive public comment and peer 
review, and to make their final decisions in the open.
    Whatever findings result from this process, and I am in no way 
prejudging any options or series of options, will be controversial.
                               __________
   Statement of George T. Frampton, Jr., Acting Chairman, Council on 
        Environmental Quality, Executive Office of the President
    Mr. Chairman, Senator Reid and Members of the Subcommittee: I am 
pleased to appear before you today to testify about the Federal role in 
salmon recovery efforts in the Columbia River Basin, particularly long-
term decisions regarding the Federal Columbia River Power System. I 
have invited senior representatives from the regional agencies which 
are providing the lead role in this effort.
    I am pleased to be accompanied today by senior agency 
representatives from the region who are providing the lead role in this 
effort: Donna Darm, Assistant Regional Administrator of the National 
Marine Fisheries Service and Witt Anderson, Fisheries Biologist in the 
U.S. Army Corps of Engineers Portland of rice and by Steve Wright, Vice 
President, Corporate of the Bonneville Power Administration. They are 
key members of the Administration's northwest salmon recovery team and 
here to respond to your questions.
    Before delving into the specifics of the Columbia Basin, let me 
first provide several points of context.
    Many salmon and steelhead runs in the Pacific Northwest and 
California are in deep trouble. Several runs are, according to our 
fishery scientists, at serious risk of extinction. From Puget Sound to 
Central California, these runs need our help if we are to pass this 
important legacy to our children and to future generations. Extinction 
is not an option. This Administration, along with the people of the 
Northwest, is firmly committed to doing what we must to restore our 
precious salmon runs.
    Salmon are a keystone species which serve as an important indicator 
of the health of our streams and river systems overall. Healthy salmon 
runs require clean, healthy river and stream systems, which define our 
Northwest landscape.
    Healthy, productive landscapes and a strong economy go hand in 
hand. The Pacific Northwest, and the nation as a whole, is reaping the 
benefits of a glowing and expanding economy that is unprecedented in 
our time. Jobs, wages, and opportunity are bounding forward, hand in 
hand with a growing commitment to protecting our environment. The 
people insist upon both, and they are right. We reject the false choice 
of protecting either the economy or the environment: we have proven 
that we can do both.
    The salmon challenge poses special opportunities upon which we 
should act. While the Federal Endangered Species Act has served as a 
call to arms in the salmon effort, the solutions lie greatly in the 
realm of state and local commitments. Healthy streams and rivers are 
the keys to salmon recovery, since it is in those streams and rivers 
that the salmon are born and to which they return to continue their 
cycle of life. State, tribal and local authorities are instrumental in 
managing the many activities which affect clean water and healthy 
streams. We are therefore committed to building partnerships with 
state, tribal and local governments and the private sector to enlist 
the full range of capabilities and experience in getting the job done. 
Accordingly, that is why this Administration has entered into 
precedent-setting efforts with California Oregon, Washington and local 
governments to craft solutions to the salmon challenge. And that is why 
this Administration has proposed a $100 million dollar Pacific Coastal 
Salmon Fund to assist the states and tribes in recovery efforts outside 
the Columbia and Snake Rivers for the coming fiscal year. We urge your 
support for this important effort.
    You have heard much discussion of the ``Four H's'' which have been 
the principal human causes of the declines in salmon runs the last half 
of this century. They are: habitat, hydropower, hatcheries and harvest. 
Regarding the issue of harvest, I would urge you and your colleagues in 
the strongest possible terms to embrace the historic agreement we 
recently brokered with Canada under the auspices of the Pacific Salmon 
Treaty and the leadership of the state and tribal governments. This 
agreement, which is dependent upon your support and Federal dollars, is 
essential to solving the harvest side of the problem, which in turn is 
essential to salmon recovery along the coast. Please do not let this 
opportunity slip by. Help us seize the moment.
    Next, allow me to turn to the matter of the Federal Columbia River 
Power System and its role in both the recovery of salmon stocks in the 
Columbia and Snake system, and the Four H recovery strategy.
    The genesis of the so-called ``99 Decision'' is the requirement 
under the Endangered Species Act that Federal agencies avoid actions 
that jeopardize the continued existence of threatened and endangered 
species. In 1995, the National Marine Fisheries Service (NMFS) 
consulted with the Bonneville Power Administration (BPA), the Army 
Corps of Engineers (Corps) and the Bureau of Reclamation on the impacts 
of the Federal Columbia River Power System on three runs of Snake River 
salmon listed as threatened or endangered under the Endangered Species 
Act. At that time, NMFS concluded it needed more information to be able 
to give its scientific opinion on whether the Snake River salmon runs 
could recover under various long-term operations and configurations of 
the Power System. NMFS said it would revisit that question in 1999 
after it had gathered more information and pursued, with the operating 
agencies, an aggressive program to improve salmon survivals in the 
interim and generate better information about longer-term remedies.
    In 1999, the situation is different than it was in 1995. There are 
now 12 runs of salmon and steelhead stocks as well as sturgeon, bull 
trout, and snails in the Columbia River Basin that are listed under the 
Act. The operation and configuration of the Federal power system 
affects all of these runs--some significantly, others less so. Federal 
agencies are now examining the impacts of the system not just on Snake 
River salmon, but on all listed species. In short, it is no longer 
simply a question of the Snake River stocks, it is a multispecies 
recovery effort.
    For a number of important reasons, the NMFS and the other Federal 
agencies believe it is important to view the effects of the Federal 
dams in the context of all human activities that affect the fish. 
First, they will have to judge whether the fish are likely to survive 
and recover with the impacts from the Federal dams together with all 
other impacts. To make this judgment, they will need to estimate what 
is likely to happen to the fish in the other areas of their life cycle; 
in harvest, hatcheries and habitat. For the fish to survive and recover 
there must be firm and reliable improvements in their survival across 
their extraordinary lifecycle. Improvements in survival through the 
Federal power system are essential. So too are improvements in the 
productivity of the river and stream systems in which the young salmon 
grow and to which the adults return. Substantial reforms in harvest 
management and improvements in the hatchery practices throughout the 
Basin are essential.
    Second, creating this Four-H context helps remind people that there 
is no silver bullet that will solve the salmon crisis. The action-by-
action consultation approach of the ESA promotes the tendency of people 
to believe there is a single solution to a very complex problem. The 
Federal hydropower system is a major source of mortality for salmon, 
and the debate about dam operation and configuration creates an 
understandable opportunity for controversy and polarization. By 
creating a Four-H context, the Federal agencies aim to remind everyone 
that it is the entire range of human activity that got the fish into 
trouble, and it will take work in that entire range of human activity 
to get them out of trouble.
    Are we prepared to address the issue of harvest? I am heartened to 
report that the answer is yes, if we implement the necessary agreements 
under the Salmon Treaty now before you. Are we prepared to address the 
issue of hatcheries? Again, my reply is yes. Are we developing a long-
term plan for reducing predation by Caspian terns in the estuary? Of 
course. And what about the all-encompassing issue of healthy streams 
and tributaries, the crucial link in the salmon lifecycle? Frankly, the 
issue is open, and it depends in part on state, local and tribal 
commitments to protect and restore that habitat.
    We believe a home-grown regional solution is best if it is 
scientifically sound. We have directed the federal agencies with 
disparate missions to work together and with the region to develop a 
solution to the salmon challenge. The Federal agencies have been 
meeting for several months now to do their homework on these issues, 
and have been working closely with the states and tribes through the 
Multispecies Framework Project to develop alternative solutions to the 
salmon challenge. These alternatives include a broad range of 
strategies, from improving the hydropower system with all dams in 
place, to removing one or more projects. We support a regional 
strategy, and will continue to emphasize that it must be biologically 
sound to stand the test of time.
    We expect the results of regional analyses of the alternatives to 
be available in the fall. It will be especially instructive to have 
completed the biological analyses that gives us an indication of 
whether threatened and endangered fish can be expected to recover under 
different sets of alternatives. Both the Federal agencies and the 
Multispecies Framework Project are coordinating on the scientific 
analysis. Economic analysis is being conducted both through the Corps' 
EIS on Snake River drawdown and through the Multispecies Framework 
Project. We also hope to have information on opportunities to mitigate 
economic impacts on local communities. Through this regional 
coordination on the analytical tools, we can develop a common 
understanding of the biological and economic impacts of the choices.
    The Federal agencies have committed to share their analyses and 
their ideas with the other governments of the Region through the 
Columbia River Basin Forum, and we stand by that commitment. Once we 
have the initial results of the biological and economic analyses this 
fall, the region can decide what alternatives it would like to explore 
further both in terms of biological effects and economic impacts. No 
final Federal decisions relating to the future operation or 
configuration of the Federal Power System will be made by Federal 
agencies until after the issues are raised and discussed with the other 
governments through the Forum and other mechanisms.
    In conclusion, Mr. Chairman, I would urge that all of us allow the 
region to work through these issues. From an Administration 
perspective, that is our approach and preference. This fall the 
Framework will lay the options in front of the Region, and no doubt 
lively debate will ensue. The Administration will pay close attention 
to that debate, and will ensure that the Regional agencies are fully 
engaged. But we will not prejudge the outcome, nor try to steer it in a 
particular direction.
    This Administration is proud of its record of protecting the 
environment and promoting a strong economy in the Pacific Northwest. We 
bring the same principles to this very complex issue and are committed 
to finding outcomes that strengthen the fabric of this region.
    In closing, let me reiterate my strong request for your support for 
the Salmon Treaty agreement, for the Pacific Salmon Fund, and for 
regional decision making. Thank you for the opportunity to discuss 
these important matters with you today. My colleagues and I are happy 
to answer any questions you might have.
                                 ______
                                 
Responses of George Frampton to Additional Questions from Senator Crapo

    Question 1. Uncertainty with respect to future measures for salmon 
recovery makes economic investment decisions in the region more 
difficult. What period of time will the 4-H paper cover?
    Response. The 4-H paper will cover hydropower system actions, 
tributary habitat and hatchery approaches, and harvest programs for the 
next 20-25 years.

    Question 2. You didn't mention ocean conditions in your testimony. 
Isn't it true that scientists are increasing focusing on the impact of 
ocean conditions on the health and survival of salmon? As I understand, 
NMFS' own scientists, as well as many others, recognize oceans as part 
of the problem. Will oceans be analyzed or considered as part of the 
``H for Habitat'' of the 4-H process?
    Response. We will take into account the role of future ocean 
conditions on the future biological performance of the fish, 
considering a range from continuing poor conditions to a return to good 
conditions. It is important to recognize the overall role of ocean 
conditions in influencing salmon survival. While ocean conditions can 
have a serious effect on salmon survival--good or bad--they are but one 
of a multitude of variables which, taken as a whole, bear on salmon 
recovery.

    Question 3. Federal decisions of the magnitude being discussed for 
the Lower Snake require a record to be developed and a National 
Environmental Policy Act (NEPA) strategy in order to withstand court 
challenge. It appears that the COE' EIS is focused only on the 
questions of the Lower Snake Dams. Is an EIS being prepared which 
covers all 4-H's, and if not, will the Federal agencies only have a 
limited array of choices (i.e., dam breaching or not) to choose from in 
a manner which is sustainable in court?
    Response. Yes, the COE EIS is limited to the Lower Snake projects. 
The Interior Columbia Basis Ecosystem Management Project (ICBEMP) 
focuses only on Bureau of Land Management and Forest Service 
administration Federal of land within the Basin. (The ICBEMP is a 
comprehensive, land management strategy designed to not only address 
anadromous fish, but also the forest and rangeland health and socio-
economic issues facing the interior basin.) The Administration expects 
the NWPPC and the NMFS to recommend mitigation and recovery actions 
that are beyond the scope of these documents. Many of those 
recommendations will undoubtedly fall to Bonneville Power 
Administration (BPA) for funding. Actions that are not covered by the 
COE or ICBEMP EIS's, or other existing EIS's, will need additional NEPA 
review--i.e. a new EIS.
    Given BPA's role in implementation, BPA is initiating a Regional 
Fish and Wildlife Policy EIS. This EIS will cover a broad range of 
alternatives that embrace the alternatives generated in the Framework 
and the 4-H paper. The new Policy EIS will show decisionmakers the 
relative merits of the options available for mitigating and recovering 
fish and wildlife in the Columbia River Basin.

    Question 4. The focus of the Federal Caucus discussions has always 
appeared to be on salmon and steelhead. Yet there are many resident 
fish that are affected by upper basin reserves operations, including 
the Kootenai sturgeon in north Idaho. Will the 4-H paper integrate the 
impact on nonanadromous species? If so, where is the data being 
gathered to provide the environmental evaluation and how will the 
people in the affected areas be given a chance to provide their views?
    Response. As you indicated in your question, upper basin reservoir 
operations impact resident fish and other aquatic species such as the 
Snake River listed snails. The 4-H paper will address the biological 
requirements of resident fish and other aquatic species affected by the 
hydrosystem by establishing goals, objectives, and strategies to ensure 
their long-term persistence and by integrating actions into the 
alternatives packages that specifically address the needs of resident 
fish and other aquatic species. Members of the Federal Caucus have been 
participating in meetings of the multi-species Framework Hydro Group to 
ensure that alternatives are crafted that include hydro actions that 
benefit resident fish and other aquatic species, as well as salmon and 
steelhead.
    Data on the needs of resident fish and other aquatic species for 
the environmental evaluation are being gathered through the Framework 
and the Federal Caucus. Under the Federal Caucus field biologists from 
the U.S. Fish and Wildlife Service (USFWS) and other Federal agencies 
are collecting the data on resident fish and other aquatic species for 
the environmental evaluation. In most cases this is information that 
has been generated through studies conducted by state fish and wildlife 
agencies and Indian Tribes. For example, USFWS is relying heavily on 
flow studies by the Montana Department of Fish, Wildlife and Parks to 
define the needs of bull trout in the Kootenai River below Libby Dam. 
The draft 4-H paper will be provided for public review in the fall of 
1999, and we intend to hold meetings in Idaho and Montana to discuss 
the contents and to provide opportunities for comment.

    Question 5. The alternatives in the current COE' EIS would suggest 
that the only choices are to breach the four Lower Snake dams, increase 
transportation, or retain the status quo. If the Administration 
proposes dam breaching, it seems clear that the obvious questions will 
be what could be accomplished by changing practices in hydro, harvest, 
hatcheries, but short of dam breaching. It would be unfortunate if the 
response was that we do not have adequate information in the other 3-
H's to make this decision. We hope that as a result of this hearing, we 
will not be confronted with this problem a year from now.
    Response. The Federal agencies are examining the same range of 
alternatives as the NWPPC Framework process. These include a total of 
seven alternatives, including four nonbreaching alternatives. We have 
recommended to the Framework that its range include an alternative that 
has a very aggressive program in all H's, short of breaching. The 
purpose of the 4-H paper is to consolidate known data in all four 
``H's'' to produce life-cycle recovery options that constitute the most 
complete picture we have been able to produce to date. Of course, 
salmon science is incomplete across a range of factors. There is much 
about salmon we simply do not know. That is why monitoring and 
evaluation, and basic biological research, are such an important part 
of our ongoing efforts. The more we study the species down to the sub-
basin level, the greater confidence we will have in developing 
effective recovery measures.

    Question 6. Will there be an independent science review of the 
alternatives developed by the Federal Caucus?
    Response. Yes, there will be independent scientific review of our 
scientific analysis of alternatives, as well as of our final 
recommendations, in accordance with standard National Academy of 
Sciences guidelines.

    Question 7. Are you developing a nonbreaching alternative? If so, 
how far along is it?
    Response. Yes. As mentioned above, the Federal agencies are 
examining the same range of alternatives as the Framework. These 
include nonbreaching alternatives. We have recommended to the Framework 
that the range include an alternative that has a very aggressive 
program in all H's, short of breaching. The Federal 4-H analysis, which 
is designed to analyze recovery alternatives encompassing the entire 
salmon life cycle, should be available in preliminary form by early 
Fall 1999. We will provide this information to the Framework, the 
NWPPC, and the Northwest Governors' Columbia River Basin Forum and the 
public.

    Question 8. The memo announcing the formation of the Federal Caucus 
indicated work products would be completed by this time. Are these 
products done, and if not, what is the current schedule?
    Response. The draft Federal Caucus products planned for May and 
June of this year will be available in the fall of 1999. After the memo 
you reference was issued, the Federal Caucus initiated much closer 
coordination with the Framework products and schedules. Since the draft 
Framework analysis and alternatives were due in the fall, the Federal 
Caucus revised its schedule so that the products from the Federal 
Caucus would be able to consider and incorporate the Framework 
alternatives.

    Question 9. When will the COE' EIS and draft BA and draft 4-H Paper 
be released for public review?
    Response. The drafts of the COE' EIS, the BA, and the 4-H paper are 
all scheduled for release in fall of 1999.

    Question 10. What is the relationship of Interior Columbia Basin 
Ecosystem Management Plan to the 4-H Paper?
    Response. ICBEMP is a long-term, comprehensive strategy for 
managing Bureau of Land Management and Forest Service administered 
lands in the Interior Columbia River Basin; addressing broad-scale 
issues such as forest and rangeland health, socio-economics, and 
anadromous fish. The public lands included in the Project area provide 
critical habitat for salmon and steelhead listed under the Endangered 
Species Act (ESA), and make up the federal habitat portion of the 4-
H's. The National Marine Fisheries Service, U.S. Fish and Wildlife 
Service, and Environmental Protection Agency have been full partners in 
the development of the ICBEMP strategy, and integral to the development 
of the Project's aquatic health measures, especially as they relate to 
ESA listed salmon and steelhead. The 4-H paper will incorporate the 
aquatic results of ICBEMP which apply to salmon and steelhead habitat 
on Bureau of Land Management and Forest Service-administered lands.

    Question 11. What is the relationship of the Pacific Salmon Treaty 
and the U.S. v Oregon harvest management plans related to the 4-H 
Paper?
    Response. At a minimum, the 4-H paper will incorporate harvest 
improvements derived from the Pacific Salmon Treaty, and any such 
improvement negotiated within the U.S. v. Oregon structure. In 
addition, both the Framework process and the 4-H paper may provide 
opportunity to analyze impacts of different harvest and hatchery 
strategies in combination with different habitat and hydro strategies, 
which in turn may provide standards or goals for Treaty negotiators to 
work toward.

    Question 12. What processes will the Federal government use to 
consider hatchery practices in the region?
    Response. Each hatchery within the critical habitat of a listed 
species will pass through the ESA consultation or permitting processes 
under section 7 and section 10, respectively. Hatchery analyses and 
strategies are being developed jointly and on a coordinated basis 
within the NWPPC's Framework and Artificial Propagation Review 
processes, the Federal 4-H Paper, and the U.S. v. Oregon process. On a 
policy level, NMFS' goal is to ensure the debate in each of these 
forums is coordinated, resulting in a set of hatchery reforms that can 
pass through an ESA screen while addressing other legal mandates on a 
consistent and complimentary basis.

    Question 13. Can you guarantee that if the four Lower Snake dams 
were breached that no water would be taken anywhere else in Idaho?
    Response. No. Studies show that the primary benefits of breaching 
four Lower Snake River dams would be improved spawning habitat and 
decreased travel time from spawning areas to the estuaries. Regardless 
of breaching, water temperatures, water quality, and quantity of flows 
to facilitate travel time and keep spawning areas watered still pose 
real issues for salmon recovery. Therefore, it is not reasonable at 
this time to rule out the possibility that in some years flow 
augmentation from Dworshak and the Upper Snake might continue to be 
important.
                                 ______
                                 
 Responses of George Frampton to Additional Questions from Senator Reid
    Question 1. Federal Agencies and the Administration are working 
hard to make long-term salmon decisions by early 2000. The Committee is 
concerned that in your haste to assemble the scientific information you 
need to make the decisions, you are neglecting to study the means of 
minimizing the negative human impacts of these decisions. Will you 
describe the work underway to address these concerns? And, will you 
commit to crafting mitigation and transition proposals to minimize 
these impacts in a timely manner so that they can be considered by the 
region during the decisionmaking process? How do you propose to do 
this?
    Response. The Federal agencies and other regional entities involved 
in salmon recovery efforts are very concerned with potential impacts of 
their decisions on the people of the region. The Lower Snake River 
Juvenile Salmon Migration Feasibility Study is examining three main 
alternatives for configuration and operation of the four lower Snake 
River dams for improved salmon passage. A Drawdown Regional Economic 
Workgroup (DREW) of economists, social scientists and other 
professionals have been tasked to analyze and describe social and 
economic effects associated with alternative recovery measures. The 
potential for negative human impacts is being evaluated in the study, 
both on a national and on a local level. The U.S. Army Corps of 
Engineers (COE) has done some broad analysis of possible compensation/
mitigation actions that could be taken in the event of dam breaching 
for parties negatively affected by dam removal. If the preferred 
alternative identified in the draft Environmental Impact Statement 
(EIS) includes dam breaching, a more defined plan for compensation 
would be included in the final EIS.
    In addition, the regional Multi-Species Framework Project 
(Framework) is currently initiating a mitigation and transition study 
to describe alternative paths and tools that lead to long-term economic 
adjustment. It would focus on mitigation programs to facilitate 
transition to economic and social recovery under the seven Framework 
alternatives. This information will be available in the fall to help 
the region understand the range of mitigation response tools that may 
be available.

    Question 2. Please describe the relationship between the Federal 
Caucus and the Northwest Power Planning Council's (NWPPC) Multi-Species 
Framework. Will the alternatives that the Framework is crafting be 
officially incorporated into the range of alternatives that the 
Administration (be that National Marine Fisheries Service (NMFS) or 
COE) considers when choosing a preferred management alternative?
    Response. The attached letter, dated June 22, 1999, from the 
Federal Caucus and the Framework describes how the various processes 
and products will be coordinated in the salmon decision. The Framework 
is developing the fundamental options and outcomes that will be needed 
to make informed management decisions. The Federal Caucus will work 
with the Framework so that the alternatives that the Framework develops 
and analyzes can be incorporated into the 4-H paper the Federal Caucus 
is preparing. The Framework and Federal Caucus are working on the 
development of alternative hydropower system actions and alternative 
tributary habitat and hatchery approaches that both processes can use.

    Question 3. The public has a need to be informed and involved in 
salmon decision. Please assure the Committee that the COE and the other 
Federal agencies will create a single public involvement process that 
encompasses the various Federal forums.
    Response. The Federal agencies initiated the Federal Caucus to 
ensure coordination of issues and processes among the COE Snake River 
EIS, the Interior Columbia Basin Ecosystem Management Project (ICBEMP), 
and the 1999 decision for salmon recovery. We have successfully 
negotiated with each other to have all of these draft products 
available in October for public dialogue. We are actively exploring 
coordination of public involvement meetings for the combination of 
these issues, including meetings throughout the region, in the October 
through January timeframe. We are also in discussion with the Forum and 
Council to see if further coordination of public involvement is 
possible.
                                 ______
                                 
   Responses of George Frampton to Additional Questions from Senator 
                                 Baucus

    Question 1. Please explain the role of the stakeholder groups in 
the COE' DREW process. Is the COE currently utilizing the stakeholder 
workgroups--especially the recreation workgroup--to review and comment 
on the studies prior to the release of preliminary and draft documents?
    Response. Early in the study process, DREW invited participation by 
all interested parties. Representatives from industry associations, 
irrigators, other water users, Columbia River tribes and representative 
tribal associations, environmental groups, regional Federal and State 
agencies and others responded and have participated in the study. The 
participants helped develop the methodology and shape the analysis, 
provide input and ``reality checks,'' and review and provide comment on 
preliminary and draft reports. They have identified shortcomings in the 
analysis and provided feedback on whether the results were reasonable. 
The products prepared by DREW are being incorporated into the final 
EIS.

    Question 2. There is uncertainty about how the various Federal and 
non-Federal salmon forums and processes merge together and contribute 
to making decisions regarding the long-term recovery plan for salmon. 
Will you please provide the committee with a ``roadmap''--with time 
lines--that explains the expected ``output'' of each process, how these 
processes relate to each other and how these products and processes 
will be integrated to produce a single decision?
    Response. The attached letter from the Framework and the Federal 
Caucus, dated June 22, 1999, describes the various processes to develop 
a long-term recovery plan for salmon, the products of these processes, 
and how the processes relate to one another. Also attached is a draft 
timeline that gives a roadmap for how they will be produced. Following 
public comment on drafts of these products, they will be finalized in 
the winter of 1999. The NMFS will use the analysis, findings, and 
decisions reflected in these products to issue its final Biological 
Opinion on hydropower in the spring of 2000.
                               __________
 Statement of Donald Sampson, Executive Director, Columbia River Inter-
                         Tribal Fish Commission
    Thank you for this opportunity to provide testimony on the ``4-H'' 
paper being developed by the federal agencies with management authority 
over Columbia River basin salmon listed pursuant to the federal 
Endangered Species Act.
    Since the federal government is developing its ``4-H'' paper behind 
closed doors, it is somewhat difficult for us to comment on the 
substance of it. However, it is our understanding that the ``4-H'' 
paper is intended to provide a ``context'' or ``backdrop'' for the 
federal government's decision regarding the future of the Federal 
Columbia River Power System.
    It is well recognized that the hydrosystem causes significant 
impacts on salmon. In fact, the incidental take permit that NMFS has 
granted the hydrosystem operators allows the hydrosystem to take 24% to 
86% of the juvenile Snake River spring/summer chinook and 21% of the 
adult spring/summer chinook. Similarly, the hydrosystem is allowed to 
take 62% to 100% of the juvenile Snake River fall chinook and 39% of 
the adult fall chinook. The National Marine Fisheries Service's 
biological opinion on the hydro-system states that the existing 
operation of the hydrosystem does jeopardize the continued existence of 
Snake River salmon. This ``state of jeopardy'' is allowed on a 
temporary basis so that the federal government could gather the 
information it needs to make an informed decision regarding the proper 
configuration of the hydrosystem. Under the biological opinion, this 
information gathering and analysis process will culminate in a final 
decision in late 1999.
    NMFS' biological opinion recognizes that it is important to 
quantify the level of mortality imposed by the hydrosystem. This 
information ``will help answer whether sufficient survival improvements 
can be achieved in the hydropower system to contribute to the recovery 
of the listed stocks, or whether large survival improvements must be 
achieved in other sectors.''
    The Commission and its member tribes have long recognized that one 
cannot assess or manage the various mortality sectors, the ``4-H's,'' 
in isolation. Hence, the Commission's member tribes have long advocated 
for ``gravel-to-gravel'' management. This requires addressing the 
entire lifecycle of the salmon. To ensure that a species will rebuild 
all sources of mortality must be addressed. In order to control the 
various sources of salmon mortality and manage them to achieve 
rebuilding, it is necessary to develop goals and objectives for the 
affected salmon stocks that are consistent with law and based on sound 
biology. When assembled into a comprehensive package, the measures 
adopted to achieve these goals and objectives must add up to rebuilt 
salmon runs.
    Over four years ago, the Commission and its member tribes published 
a salmon restoration plan entitled Wy-Kan-Ush-Mi Wa-Kish-Wit (The 
Spirit of the Salmon). This plan encompasses the ``4-H's'' and includes 
quantitative goals and objectives. It uses the best available science 
and provides for monitoring, evaluation, and adaptive management. This 
is still the only plan for Columbia River basin salmon recovery that 
quantitatively assesses the measures recommended against the adopted 
goals and objectives and addresses all 4 ``H's'' of salmon management 
in a manner consistent with applicable laws.
    The federal government is the biggest dam operator, land owner, and 
hatchery manager in the Columbia River basin. It also has significant 
harvest management authorities. The federal government can and must set 
the tone for salmon rebuilding. The federal government cannot meet its 
legal obligations simply by complying with the Endangered Species Act. 
The ESA is only one of the laws that governs federal actions affecting 
fish. Other critically important laws governing federal action include 
the Clean Water Act, the National Forest Management Act, the Pacific 
Northwest Electric Power Planning and Conservation Act, the Magnuson-
Stevens Fishery Conservation and Management Act, the Pacific Salmon 
Treaty, and treaties with Indian tribes. Most of these laws contemplate 
salmon population and harvest levels considerably higher than the 
``survival'' and/or ``recovery'' levels that NMFS believes meet the 
requirements of the ESA. The federal government is legally obligated to 
use all of its authorities to ensure that Columbia basin salmon runs 
are rebuilt to support salmon harvest both within the Columbia River 
and in the ocean.
    For decades, the primary approach to conserving Columbia basin 
salmon has been to constrain harvest. This has not been effective. For 
example, hardly any spring or summer chinook are harvested in fisheries 
above Bonneville Dam. In fact, the tribes have not had a commercial 
fishery on spring chinook since 1977 or on summer chinook since 1964. 
Despite these severe restrictions, these runs have continued to decline 
to the point where Snake River spring/summer chinook are now 
endangered. Clearly, to prevent the extinction of Snake River spring/
summer chinook, it is essential to develop a plan that addresses all 4 
``H's.'' Yet, given the federal government's current restrictive 
policies on the use of artificial propagation, rebuilding of spring/
summer chinook will have to be implemented solely by making significant 
changes in the hydrosystem and habitat management policies.
    It has been frustrating for the tribes to watch the great salmon 
debate proceed with no real links to legal obligations and sound 
biological objectives. Instead, the focus is more on whether dam 
breaching is on the table or off the table or whether the Bonneville 
Power Administration will manage its finances so that salmon, 
taxpayers, and ratepayers are all given a fair shake. While these are 
important issues, one cannot reach a reasonable judgment about them 
unless they are placed in the context of legal obligations and sound 
biological objectives. Neither the tribes nor probably anyone else 
would suggest breaching any dams unless it is necessary to meet legal 
obligations and sound biological objectives. A reasonable ``4-H'' 
analysis should delineate all legal obligations and biological 
objectives so that one can clearly see what actions are needed.
    A reasonable ``4-H'' analysis must be firmly grounded in the best 
available science. The policy of deference to agency expertise does not 
always foster the use of the best available science nor does it foster 
acceptance and support by affected interests. The federal government 
and its scientists have been making the decisions about what salmon 
protection measures are implemented in the hydrosystem, in hatcheries, 
and on federal lands. While non-federal entities can provide comments 
or make recommendations, the final decisions have continued to rest 
with federal scientists and policy-makers. We see the fruits of their 
``expertise'' in the empty waters and degraded streams in the basin.
    Any ``4-H'' analysis developed by the federal government must be 
subject to thorough review by independent scientists. For example, the 
PATH process is a scientifically rigorous and independent process for 
reaching scientific conclusions. In contrast, NMFS scientists at the 
Coastal Zone and Estuarine Services in Seattle have too often rushed to 
broadcast their results before undergoing any external peer review 
process. We are very concerned that the federal government will develop 
its ``4-H'' paper without reasonable and necessary scientific peer 
review. We are not talking some sort of public comment process. The 
federal government has ignored our comments, to the detriment of salmon 
and the region, too many times. We suggest that, to the greatest extent 
possible, the federal government employ existing, thorough-going peer 
review processes such as the PATH or ISAB as a means of developing and 
reviewing scientific judgments.
    In closing, we believe that in order to meet its obligations to 
protect and rebuild salmon, the federal government must conduct an 
analysis of what must be done in each of the 4 ``H's'' in order to meet 
reasonable goals and objectives. These goals and objectives must be 
based on the biological needs of salmon and the federal government's 
legal obligations. These legal obligations include not only the ESA, 
but also the Clean Water Act and treaties with Indian tribes. In 
evaluating the efficacy of various actions for each of the 4 ``H's,'' 
the federal government must be guided by the best available science. In 
addition, the federal government must submit its scientific 
determinations to rigorous independent review.
                               __________
                       WY-KAN-USH-MI WA-KISH-WIT
                          spirit of the salmon
                                 ______
                                 
 The Columbia River Anadromous Fish Restoration Plan of the Nez Perce, 
               Umatilla, Warm Springs, and Yakama Tribes
                               dedication
    This work is dedicated to all life on this earth, before our time 
and long after we are gone.
    We did not inherit this earth or its natural resources from our 
ancestors, we are only borrowing them from our children's children; 
therefore, we are duty bound and obligated to protect them and use them 
wisely until such time that they get here, and then they will have the 
same obligations.

  ----Eugene Greene, Sr., Chairman Columbia River Inter-Tribal Fish 
            Commission
                                preface
    The salmon's spirit--Wy-Kan-Ush-Mi Wa-Kish-Wit--is sacred life. The 
salmon was provided a perfect world in which to enjoy its existence. 
For thousands of years, the salmon unselfishly gave of itself for the 
physical and spiritual sustenance of humans. The salmon's spirit has 
not changed; the human spirit has.
    Today the perfect world of the salmon is in total disarray. Even 
its very existence and worth are being debated. Human arrogance has 
brought the salmon to the brink of extinction.
    Rather than a dignified cultural icon, the salmon is being 
redefined as a problem, as something that makes unacceptable the human 
laws designed to protect the environment. In spite of the state of 
crisis, crude science and perilous politics have reduced the salmon and 
its habitat to a struggling species living in a polluted and life-
threatening home.
    The four Columbia River treaty tribes, who are keepers of ancient 
truths and laws of nature, employ the depths of their hearts and the 
expanse of their minds to save the salmon.
    Respect and reverence for this perfect creation are the foundation 
for this plan.
                           executive summary
    The Indians of the Columbia River Inter-Tribal Fish Commission, 
recognize that our fisheries are a basic and important natural resource 
and of vital concern to the Indians of these states and that the 
conservation of this resource is dependent upon effective arid 
progressive management. And it is further recognized that Federal court 
decisions have specifically established that the tribes have treaty 
rights to an equitable share of the Columbia Basin fishery resource. We 
further believe that by unity of action we can best accomplish these 
things, not only for the benefit of our own people but for all the 
people of the Pacific Northwest.

  ----Preamble to the Constitution and Bylaws of the Columbia River 
            Inter-Tribal Fish Commission

    The Columbia River Watershed is world renowned for its salmon 
populations. Historical estimates of average annual salmon runs 
exceeded 5-11 million fish in the portion of the watershed now above 
Bonneville Dam. When Lewis and Clark reached the Columbia River, they 
were amazed by the abundance of the salmon. Yet today, fewer than 
500,000 fish return above Bonneville and approximately 80 percent of 
these are produced in hatcheries. Some stocks have already been lost, 
three have been listed as endangered under the Endangered Species Act 
by the National Marine Fisheries Service, and the majority of the 
remaining stocks are declining. These reduced runs of salmon are surely 
cause enough for alarm, yet the issue comprises far more than salmon. 
Tribal culture, the identity of all the people, and many of the species 
that constitute the Pacific Northwest--essentially the integrity of the 
entire Columbia River Watershed--are at stake.
    If salmon are to survive in the Columbia River Watershed, we must 
face the challenges before us with our goals clearly in mind, in heart, 
and in spirit. We must now begin to respect, to reestablish, and to 
restore the balances that once enabled this watershed to perform so 
magnificently.
    Wy-Kan-Ush-Mi Wa-Kish-Wit: The Columbia River Anadromous Fish 
Restoration Plan of the Nez Perce, Umatilla, Warm Springs and Yakarna 
Tribes provides a framework to restore the Columbia River salmon, 
simply stated: put the fish back into the rivers. Yet making this 
happen has become increasingly difficult because of the decades of 
poorly guided and deeply entrenched fish management policies. More than 
science and its limits, the problems have almost always involved people 
and their institutions-- whether government, business or otherwise.
    Much of what is recommended to benefit salmon is what has been 
needed and known for a long time. More than 50 years ago, Federal 
biologists warned that the consequences of continued habitat 
degradation and additional hydroelectric development would be 
devastating to salmon populations. They were joined by tribal leaders 
and through the years, by government commissions and citizen groups.
    However, until the enactment of the Pacific Northwest Power 
Planning and Conservation Act of 1980 and its fish and wildlife 
program, there was no comprehensive salmon restoration program. for the 
Columbia Basin. Had the Northwest Power Planning Council's salmon plan 
been implemented, the people of the Northwest would not be today facing 
a salmon crisis.
    It was known that the passage conditions in the mainstem Columbia 
River were inhospitable to salmon. Yet changes in river operation were 
minute, especially given the prevailing drought conditions. It was also 
known that many salmon runs and stocks had declined to such an extent 
that their best hope was the application of artificial propagation 
strategies. But hatcheries were eschewed without regard to the best 
available science. Instead some of the stocks that might have been 
helped by enactment of the fish program measures became listed under 
the Endangered Species Act. And it was known that many environmental 
laws have been ignored, exacerbating the crisis in the Columbia River 
Watershed.
    Wy-Kan-Ush-Mi Wa-Kish-Wit is the culmination of the leadership and 
wisdom of the Nez Perce, Umatilla, Warm Springs and Yakama fish and 
wildlife committees and the technical work of reservation fisheries and 
the Columbia River Inter-Tribal Fish Commission staffs. This tribal 
salmon restoration plan outlines the cultural, biological, legal, 
institutional and economic context within which the region's salmon 
restoration efforts are taking place. This long-term plan addresses 
virtually all causes of salmon decline and roadblocks to salmon 
restoration for all anadromous fish stocks: chinook, coho, sockeye, 
steelhead, chum, eels (Pacific lamprey) and sturgeon, above Bonneville 
Dam. This area, encompassing about three quarters of the Columbia River 
Basin, is where most of the tribes' treaty-reserved fishing places and 
fish resources are located.
    The Columbia River treaty tribes take a holistic ``gravel-to-
gravel'' approach to the management of the salmon, which differs from 
approaches of many other groups in a variety of respects. This approach 
focuses on the tributary, mainstem, estuary, and ocean ecosystems and 
habitats where anadromous fish live. This focus on passage, habitat, 
harvest and production requires substantial changes in current 
practices and specific actions to recover from historical destructive 
impacts.
    Wy-Kan-Ush-Mi Wa-Kish-Wit integrates this gravel-to-gravel approach 
into an adaptive management framework. The tribes agree with others who 
advocate an adaptive approach that requires action even in the face of 
uncertainty. According to adaptive management principles, that action 
must be carefully monitored and evaluated so that natural resource 
managers learn and change their actions on the basis of what they have 
learned. Using an adaptive framework, this plan identifies the survival 
changes in current water, land and fish management needed to produce 
the necessary survival rates. The actions endorsed in this plan are 
designed to measure whether or not survival levels are being achieved. 
Should the recommended measures not attain sufficient rates of 
survival, the plan calls for modifications and additional actions.
    This plan goes far beyond those plans currently offered by other 
sovereign governments--the Federal plan for endangered Snake River 
salmon by the National Marine Fisheries Service and the Idaho, Montana, 
Oregon, and Washington fish and wildlife mitigation plan by the 
Northwest Power Planning Council (NPPC). The plan not only makes 
recommendations, but more importantly begins to provide a context for 
decisionmaking: scientific and legal justifications, directions for 
implementation, and analyses of expected outcomes are provided.
    Unlike other plans, this plan establishes a foundation for He 
United States and its citizens to honor their treaty and trust 
obligations to the four tribes. If implemented, it would at least begin 
to meet ceremonial, subsistence, and commercial needs of tribal members 
and to return fish to many of the tribes' usual and accustomed fishing 
places, as guaranteed in the 1855 treaties. If these obligations were 
met, the non-Indian public would be a beneficiary, enjoying its legal 
allotment of harvestable salmon and sharing a healthier, more natural 
river system.
    What often sets policy development apart from other decisionmaking 
is the tribal conviction that not all societal decisions can be 
properly weighed in terms of costs and economics. The costs of 
restoration must be at least equated with the value of restoration. 
That value includes the spirit of the salmon (Wy-Kan-Ush-Mi ?Wa-Kish-
Wit). Tribal peoples can feel the yearning of salmon to serve its life 
purpose. There is no model that can factor in spirituality nor the 
ultimate value of living creatures.
    The tribes would hope that those who read, study and use this plan, 
consider it a work-in-progress and invite readers to join in refining 
it. The tribes believe that the plan's approach can help give direction 
to a region whose salmon recovery is floundering without real political 
vision and genuine scientific guidance.
    If the reader can reconcile the truths of the past with the dreams 
for tomorrow, then today's work can be found. This plan calls on the 
collective human spirit to bring cultured and hereditary strengths to 
bear upon the need for salmon restoration.
                                 ______
                                 
            Goals and Objectives of Tribal Fish Restoration
                   put the fish back into the rivers!
                                 goals
    Restore anadromous fishes to the rivers and streams that support 
the historical cultural and economic practices of the tribes. (These 
are generally areas above Bonneville Dam.)
    Emphasize strategies that rely on natural production and healthy 
river systems to achieve this goal.
    Protect tribal sovereignty and treaty rights.
    Reclaim the anadromous fish resource and the environment on which 
it depends for future generations.
                               objectives
    Within 7 years, halt the declining trends in salmon, sturgeon, and 
lamprey populations originating upstream of Bonneville Dam.
    Within 25 years, increase the total adult salmon returns of stocks 
originating above Bonneville Dam to 4 million annually and in a manner 
that sustains natural production to support tribal commercial as well 
as ceremonial and subsistence harvests.
    Within 25 years, increase sturgeon and lamprey populations to 
naturally sustainable levels that also support tribal harvest 
opportunities.
    Restore anadromous fishes to historical abundance in perpetuity.
Specific Contents of the Plan
    If the actions outlined in the plan are taken, the four tribes 
believe the salmon decline can be halted within 7 years and salmon 
populations rebuilt to annual run sizes of four million above 
Bonneville Dam within 25 years. Interim adult return goals for each 
subbasin and species are listed in Table 1.1 and in Volume II of this 
plan. Allowing for additional escapement needs and anticipated passage 
losses, about two million salmon will be available for harvest in 
mainstem fisheries. Longer-term goals will depend in part on the 
success of the proposed actions. Habitat-based methods indicate the 
possibility of achieving larger adult returns over the long term. Goals 
in this plan will be reviewed periodically as part of the adaptive 
management process.
    To accomplish these objectives, the first volume of the plan sets 
out 10 proposals for institutional change, along with 13 scientific 
hypotheses and the recommended actions associated with each. The second 
volume contains subbasin-by-subbasin return goals and the restoration 
actions that must be undertaken to achieve them.
Tribal Culture and History
    To understand the approach the four Columbia River tribes have 
taken to anadromous fish restoration, key aspects of tribal culture and 
history are described, including the importance of salmon, tribal 
governmental structures and the traditional tribal management 
philosophies that continue to guide the tribes as they have since 
ancient times.
Biological Perspective
    Outlined in this section are the survival requirements for salmon 
and measures to improve survival of Pacific lamprey and white sturgeon. 
While their requirements, such as cool, clean water and complex stream 
systems, remain virtually the same as they have for hundreds of years, 
the conditions under which these anadromous fish must now live have 
been dramatically altered in a relatively short time. These changes and 
their consequences are summarized here and are the bases for many of 
the recommendations presented in this plan. The tribes have set 
survival standards by life history stage required to meet restoration 
goals for spring and fall chinook (Table 1.2).
Legal and Institutional Context
    The tribes in the Northwest have a unique place in the legal and 
regulatory scheme of natural resource management. To provide some 
understanding of why this is so, tribal sovereignty, treaty-reserved 
rights, trust responsibility and other legal matters pertaining to the 
governmental status of the tribes are explained. This section also 
describes the institutional structures already in place which recognize 
the tribes as resource co-managers and that can serve as the framework 
for accomplishing most restoration actions. An analysis of the 
successes and failures of these institutions and of numerous 
legislative initiatives is offered.
    Table 1.1. Interim adult return goal to each subbasin within the 
next 25 years. Most goals represent a combination of spawning needs 
plus tributary harvest opportunities; exceptions are footnoted.


----------------------------------------------------------------------------------------------------------------
                                           Chinook                                     Steelhead
           Subbasin            ------------------------------   Coho     Sockeye --------------------    Total
                                 Spring    Summer     Fall                         Summer    Winter
----------------------------------------------------------------------------------------------------------------
                                                                                                      ..........
                          LOWER COLUMBIA RIVER MAINSTEM (Bonneville Dam -> McNary Dam)
Wind River\1\.................     5,000  ........  ........       200  ........     2,000       200       7,400
Little White River\1\.........     2,000  ........       200       200  ........  ........  ........       2,400
Big White River\1\............       500  ........       100       100  ........     4,800       800       6,300
Klickitat River\2\............    20,000  ........    40,000    50,000  ........    25,000  ........     135,000
Hood River\2\.................     1,700  ........  ........  ........  ........     8,000     5,000      14,700
Deschutes River\2\............    10,250  ........    11,000  ........     5,000    19,000  ........      45,250
Fifteen Mile Creek\3\.........  ........  ........  ........  ........  ........  ........       300         300
John Day River\2\.............     7,000  ........  ........  ........  ........    45,000  ........      52,000

                          MID-COLUMBIA RIVER MAINSTEM (McNary Dam -> Chief Joseph Dam)
Umatilla River\2\.............    11,000  ........    21,000     6,000  ........     9,670  ........      47,670
Hanford Reach\3\..............  ........  ........    40,000  ........  ........  ........  ........      40,000
Walla Walla River\2\..........     5,000  ........  ........  ........  ........    11,000  ........      16,000
Yakima River\2\...............    26,300    12,000     4,700     5,000  ........    29,700  ........      77,700
Wenatchee River\2\............    21,000    10,000  ........  ........    35,000     6,410  ........      72,410
Entiat River\1\...............       750  ........  ........  ........  ........     3,000  ........       3,750
Methow River\1\...............     2,000     3,000  ........  ........  ........    10,000  ........      15,000
Okanogan River\1\.............     1,000     2,000  ........  ........    15,000    10,000  ........      28,000

                         LOWER-SNAKE RIVER MAINSTEM (Ice Harbor Dam -> Hells Canyon Dam)
Snake River\2\................  ........  ........    18,300  ........  ........  ........  ........      18,300
Tucannon River\2\.............     3,000     2,000  ........  ........  ........     2,200  ........       7,200
Clearwater River\2\               60,000    50,000    50,000    14,000  ........    93,100  ........     267,100
Grande Ronde River\2\.........    16,000  ........    10,000     3,500     2,500    27,500  ........      59,500
Salmon River\2\...............   128,000    60,200     5,000    20,000    44,500   192,900  ........     450,600
Imnaha River\1\...............     5,740  ........     3,000  ........  ........     4,315  ........      13,055
----------------------------------------------------------------------------------------------------------------
    TOTAL.....................   326,240   140,200   202,300    99,000   102,000   503,595     6,300   1,379,635
----------------------------------------------------------------------------------------------------------------
\1\ Harvest goal only
\2\ Harvest and spawning goal
\3\ Spawning goal only

    Table 1.2. Survival rates of Snake River spring and fall chinook 
under NMFS and Tribal restoration plans. From Table 5C.2.


----------------------------------------------------------------------------------------------------------------
                                                                SPRING CHINOOK               FALL CHINOOK
                                                         -------------------------------------------------------
         LIFE HISTORY STAGE OR MORTALITY SOURCE                         Tribal 25-yr                Tribal 25-yr
                                                            NMFS 1995     Strategy      NMFS 1995     Strategy
                                                              Plan        Option 3        Plan        Option 3
----------------------------------------------------------------------------------------------------------------
Egg -> Smolt............................................         .045           .10           .50           .50
Juvenile Passage........................................          .24           .71           .19           .36
Early Ocean.............................................          .16           .16           .20           .20
Ocean Natural...........................................          .50           .50           .50           .50
Ocean Harvest...........................................         1.00          1.00           .79           .85
In-river Harvest........................................          .90           .61           .85           .28
Adult Passage...........................................          .70           .91           .55           .83
Pre-spawning............................................          .85           .85          1.00          1.00
    Lifetime Total (<SUP>x</SUP>10<SUP>-3</SUP>)..............................          .46          2.69          3.51          3.56

----------------------------------------------------------------------------------------------------------------
        Spawner/Spawner Ratio...........................         1.16          6.74          6.04          6.13
----------------------------------------------------------------------------------------------------------------

Tribal Recommendations
    The tribal plan generally offers three types of actions within the 
recommendations section: institutional, technical, and watershed- or 
subbasin-specific. Recommendation descriptions and highlights follow.
Institutional
    The tribal salmon restoration plan urges that existing 
institutional frameworks be used to manage and achieve anadromous fish 
restoration. The framework provided by the Columbia River Fish 
Management Plan, Pacific Salmon Treaty, Northwest Power Planning Act, 
and the Federal Energy Regulatory Commission provides the structure for 
the sovereign governments of the Northwest to plan, coordinate and 
direct major restoration actions. The tribes contend that the failure 
of these existing mechanisms is a failure to act by responsible 
parties. The success of these existing institutional frameworks 
requires true co-management by the tribes instead of unilateral 
decisions by the state and Federal Governments.
    The institutional recommendations propose, for the most part, 
modest changes to the procedures adopted under the authority of U.?. v. 
Oregon and the Pacific Northwest Electric Power Planning and 
Conservation Act to improve harvest and production management and to 
coordinate policies and resolve disputes, particularly for hydro 
operations, public lands management and research. The recommendations 
attempt to join accountability with responsibility for fish restoration 
by shifting the funding prioritization process to the tribes and 
agencies and transferring certain federally funded hatcheries to the 
tribes. The recommendations seek to limit policy barriers to the use of 
artificial propagation as a tool for restoration. The institutional 
changes also address private land management by recommending support 
for watershed initiatives and for enforcement of environmental laws.
Institutional Recommendations
    1. Rather than create a new Federal bureaucracy, use the Columbia 
River Fish Management Plan, the Northwest Power Planning Council's Fish 
and Wildlife Program, and orders of the Federal Energy Regulatory 
Commission as a basis for management.
    2. Plan and implement production called for in the Columbia River 
Fish Management Plan.
    3. For public lands and water project management, implement a 
dispute resolution process similar to Columbia River Fish Management 
Plan and Federal Energy Regulatory Commission processes.
    4. Establish a new state and tribal fish and wildlife entity using 
Bonneville Power Administration funding.
    5. Support ongoing and implement new subbasin planning through a 
Columbia Basin watershed trust program.
    6. Base Endangered Species Act listing on the status of species 
throughout a significant portion of its spawning and rearing range. In 
the absence of scientific proof, the National Marine Fisheries Service 
should withdraw its Evolutionarily Significant Unit (ESU) interim 
policy as a basis for Endangered Species Act listings.
    7. Transfer federally funded hatcheries located on reservations and 
at other upriver sites to tribal control.
    8. State, tribal and Federal fish agencies coordinate and set 
priorities for research, monitoring and evaluation programs.
    9. Continue development of and make research and monitoring data 
available through a coordinated information system.
    10. Update provisions of the Pacific Salmon Treaty and the Columbia 
River Fish Management Plan based on the latest survival rate and catch 
level information.
    11. Continue coordinated harvest law enforce 12 meet; develop 
habitat protection law enforcement.
Technical Recommendations
    1. Begin improving in-channel stream conditions for anadromous fish 
by improving or eliminating land-use practices that de Technical grade 
watershed quality.
    2. Protect and increase instream flows by limiting additional 
consumptive water withdrawals, using the most efficient irrigation 
methods, preventing soil compaction and riparian vegetation removal and 
wetland destruction; where necessary. restore soil, restore riparian 
vegetation and re-create wetlands.
    3. Actively restore watersheds where salmon populations are in 
imminent danger of extirpation. Use ``Coarse Screening Process'' to 
develop demonstration projects.
    4. Use supplementation to help rebuild salmon populations at high 
demographic risk of extirpation.
    5. Use supplementation to reintroduce salmon to watersheds from 
which they have been extirpated.
    6. Use flow, spill, drawdowns \1\, peak efficiency turbine 
operation, new turbine technology, and predator control projects to 
improve inriver juvenile salmon survival; avoid fluctuations caused by 
power peaking operations.
---------------------------------------------------------------------------
    \1\ Short term: Draw down John Day to minimum operating pool and 
Lower Granite to 705' mean sea level; Long term:
        Option 1: John Day and Lower Granite to natural river level:
        Option 2: John Day to spillway crest: Ice Harbor and Lower 
Monumental to natural level:
        Option 3: John Day and four lower Snake dams to natural river 
level.
---------------------------------------------------------------------------
    7. Protect and restore critical estuary habitat.
    8. Establish Alaskan and Canadian ocean fisheries based on chinook 
abundance.
    9. Use stored cold water, additional ladders, ladder improvements 
and ladder maintenance to enhance mainstem adult passage; incorporate 
24-hour video fish counting.
    10. Improve water quality by eliminating sources of toxic pollution 
that accumulates in fish tissue and by reducing discharges of other 
contaminants to meet water quality criteria for anadromous fish.
    11. Closely monitor tributary production and escapement to improve 
management.
    12. Conduct research on Pacific lamprey and design artificial 
propagation strategies to supplement natural production.
    13. Develop artificial propagation and management strategies for 
white sturgeon populations above Bonneville Dam.
Technical
    The tribal technical recommendations are presented in sets of 
hypothesis statements that summarize various restoration problems. The 
hypotheses are organized by salmon life cycle stages. Individually, 
they propose near- and long-term actions, identify expected results and 
name the institutional and decisional processes required to carry out 
the recommended actions.
Habitat Restoration
    To protect and recover tributary habitat, the plan proposes that 
land and water users and managers meet a series of habitat conditions 
associated with survival rates, for example, 10 percent egg-to-smolt 
survival for Snake River spring and summer chinook. The use of the 
``Coarse Screening Process,'' where applicable, will determine the 
allowable level of watershed impacts. This process requires Federal and 
state land and water managers to maintain or improve fish habitat. If 
they do not meet the habitat standards--for example, water temperatures 
can be no higher than 60 F--land and water managers must take action 
that will achieve compliance. Other important Coarse Screening 
standards include limits on the amount of sediment in spawning habitat 
and in streams generally, and the establishment of riparian reserves to 
protect vegetation and soils. So that anadromous fish are able to again 
thrive in their natural environment, other necessary measures are 
recommended, including reconnecting habitat areas that support salmon. 
Badly degraded habitat may be directly downstream or upstream of 
salmon-supporting habitat. As migratory fish, salmon require decent 
habitat throughout their life-cycle range.
Production
    The tribal goal to put fish back in the rivers means literally 
putting the fish back. To do that requires returning more of the 
basin's fish production to the rivers and streams where they come from. 
Young salmon, if released at the proper time and manner, will return as 
adults to spawn in the same area they were released as juveniles. 
Rather than continuing current hatchery rearing and release methods, 
the plan outlines the development of new propagation strategies to 
reestablish naturally spawning salmon runs. With so many Columbia basin 
stocks at such low numbers, supplementation, which is what the tribes 
call their propagation proposal, is now an indispensable part of any 
restoration plan. While accounting for genetic concerns, the tribal 
plan asserts that increasing likelihood of further extirpations is in 
fact the far greater genetic risk.
Passage
    In the mainstem Columbia and Snake rivers where more than a dozen 
massive dams dominate riparian habitat, the plan also calls for putting 
the fish back in the river: Young migrating salmon are now being 
transported in trucks and barges. Stop collecting them for transport, 
the plan urges, and let them swim down the river to the ocean on their 
own. To support anadromous fish, mainstem habitat must be returned to 
natural conditions which are linked to a 71 percent downstream passage 
survival rate, closer to those that existed prior to construction of 
the dams. This can be done by providing additional spill and water 
flows, among other measures. The plan recommends actions that can begin 
restoration of mainstem habitat, including provisions to address toxic 
pollution as well as provisions for additional spill and water flows. 
The plan also addresses estuary and ocean problems.
Harvest
    Plan recommendations include proposals for reducing chinook 
mortalities in North Pacific fisheries and the adoption of abundance-
based salmon management in ocean fisheries. The plan addresses the 
problem of incidental mortalities and other harvest issues.
Watershed Actions
    In Volume II of this plan, the subbasin plans that were part of the 
earlier Northwest Power Planning Council fish and wildlife program have 
been updated and are included as a key part of this plan. Detailed 
recommendations are provided for 23 major watersheds above Bonneville 
Dam. The measures focus on habitat protection and rehabilitation and on 
returning fish to these streams using supplementation techniques. It is 
envisioned that these actions will be accomplished through a watershed 
restoration trust fund, under the leadership of the Columbia River 
treaty tribes.
Economic Context
    In this section, the tribes' plan acknowledges the cost of salmon 
restoration but provides a different look at valuation. The tribes 
contend that the people of the Northwest can afford salmon restoration 
and that calculating foregone hydro-electric cost is not the only 
measure of the salmon's worth. The annual costs of salmon restoration 
measures are estimated to be half a percent of the region's annual 
personal income. The loss of salmon has also meant the loss of revenue 
for tribal economies historically dependent on salmon with an estimated 
loss for tribal economies of billions of dollars so far. The estimated 
annual cost of the plan, $195-$325 million, is similar to the cost 
range of the Northwest Power Planning Council's Columbia Basin Fish and 
Wildlife Program and the National Marine Fisheries Service's Snake 
River Recovery Plan.
    In conclusion, the tribes urge the region to adopt a single plan 
for Columbia Basin anadromous fish--one that is mutually acceptable to 
the four tribes, the United States and the states of Washington, Oregon 
and Idaho. The tribes ask citizens and their government representatives 
and officials to use this plan and its framework as the basis for 
salmon restoration.

              BPA energy-related subsidies. From Table 6.1
------------------------------------------------------------------------
             BPA DISCOUNTS                    ANNUAL SUBSIDY (1994)
------------------------------------------------------------------------
Bureau of Reclamation irrigation         $32. million
 pumping.
Private irrigation pumping.............  $13.5 million
Direct Service Industries (primarily     $179. million
 aluminum smelting).
Residential loads of Investor-Owned      $210 million
 Utilities.
------------------------------------------------------------------------

                               __________
   Statement of Scott Faber, Director of Floodplains, American Rivers
    Mr. Chairman, thank you for the opportunity to testify.
    My name is Scott Faber, and I am Director of Floodplain Programs 
for American Rivers. For the past six years, I have worked daily with 
my colleagues at the Corps of Engineers to reform our management of the 
Missouri River, the nation's longest river, and the Mississippi River 
from the Twin Cities to Saint Louis. Many of the lessons we have 
learned could be applied to the Columbia and Snake.
    The parallels to the Snake and Columbia Rivers are striking. The 
Missouri, Mississippi, Columbia and Snake Rivers all support commercial 
barge traffic, generate hydroelectric power, and serve as important 
recreational resources. Changes made to support barge traffic on each 
river have placed native species on state and federal watch lists. On 
the Missouri, more than 100 species are in trouble; on the Mississippi, 
more than 50 species are in trouble, and, of course, Snake River salmon 
are on the verge of extinction.
    Like my colleagues in the Northwest, we were frustrated by the 
Corps' decision-making process. Rather than working with stakeholders 
to develop consensus about the management of our natural resources, the 
Corps conducted studies and developed management alternatives in 
isolation and, after spending years and tens of millions of dollars, 
mechanically sought our input through public hearings which provide 
wonderful theater but little more.
    It seems to me that this is exactly the opposite of what the Corps 
should do--and, indeed, the opposite of what Congress sought when you 
passed the National Environmental Policy Act of 1969. In the Midwest, 
we persuaded the Corps that agencies must do more than simply consider 
the impacts of proposed actions--they must ``use all practicable 
means', to balance our human needs with the needs of our natural 
resources.\1\ Instead, the Corps should develop science-based 
management alternatives and ask the public to decide the fate of our 
natural resources.
---------------------------------------------------------------------------
    \1\ 42 U.S.C. 433
---------------------------------------------------------------------------
    On the Upper Mississippi River, for example, the Corps worked with 
American Rivers and MARC 2000, a navigation industry trade association, 
to create the Upper Mississippi River Summit, which brings farmers, 
conservation groups, waterway users together to set management goals 
for the river. On the Missouri River, the Corps has held public 
workshops that provided information on a wide range of management 
alternatives for the Missouri's dams, and then asked the stakeholders, 
led by basin states, to seek consensus.
    In both cases, the Corps provided sound, science-based information 
and asked river stakeholders to make the tough calls. It's not easy. 
But, it has dramatically changed river management for the better, and 
brought the river's economic and environmental interests together.
    This model could be applied to the Columbia and Snake Rivers as 
well. But, the Corps has not developed the right information, and has 
not shown a willingness to let the public decide the fate of our public 
resources. The Corps is rushing headlong into making a decision without 
anticipating or preparing to mitigate the social and economic impacts 
of this decision--the human impacts of dam removal. Rather than simply 
measuring the likely effects of dam removal, the Corps should also 
anticipate social and economic impacts and propose measures that could 
offset these impacts.
    This committee can fix this problem, I believe, by the doing the 
following:
    1) First, the Committee should direct the Corps to develop a wide 
range of transportation mitigation alternatives.
    Whether we should remove four dams from the Snake River will force 
the nation to make a difficult choice. But, in reality, the Corps' 
current decision-making process will not allow us to make a choice at 
all--because they have not developed a plan to mitigate the impacts of 
dam removal on waterway users. There is no question that removing dams 
and doing nothing more--will increase transportation costs. If we are 
going to be able to make a real choice, the Corps must help 
stakeholders develop a transportation mitigation plan that would 
accompany dam removal. Directing the Corps to develop transportation 
mitigation alternatives is not the same as directing the Corps to 
remove dams. Rather, directing the Corps to develop transportation 
mitigation alternatives will help all river stakeholders make better 
decisions. The committee should instruct the Corps to work with the 
U.S. Department of Transportation and state and local of finials to 
quickly develop a variety of transportation mitigation alternatives.
    Wheat farmers and other waterway users must not shoulder the burden 
of salmon recovery alone. That's why American Rivers recently hired Dr. 
Edward Dickey, former Assistant Secretary of the Army for Civil Works 
under the Bush Administration and an expert on transport of commodities 
like wheat, to develop a transportation mitigation plan for the Snake 
River. Although Dr. Dickey's proposal is not yet complete, options 
might include enhanced rail and road infrastructure, additional rail 
cars, additional facilities to store or transfer grain, and other 
investments designed to reduce transportation costs. In addition to 
current waterway users, these investments will benefit other businesses 
that rely upon transportation.
    2) Second, the Committee should hold field hearings on 
transportation mitigation alternatives.
    Building consensus about the future of the Snake River will not be 
easy. Right now, river interests are polarized, unwilling to consider 
management alternatives that save salmon and meet the needs of current 
waterway users. Following the development of transportation mitigation 
alternatives, the Committee should hold field hearings to encourage 
debate and discussion, and direct the Corps to hold workshops designed 
to build consensus between groups like American Rivers and the American 
Farm Bureau Federation.
    3) Third, the Committee should direct the Corps to use sound 
science and credible economic analyses.
    It is absolutely critical that decisions be based on the best 
available scientific and economic information. Currently, the Corps' is 
relying upon documents that are incomplete, insufficient or 
analytically flawed.
    Let me give you two examples. Currently, the Corps' DEIS is 
disproportionately based upon the life histories on two of the five 
types of Snake River salmon listed as endangered species. Of course, 
salmon have very different life histories, and management decisions 
must reflect these differences. Or consider another example--after 
creating economic workgroups to review economic studies, the Corps has 
not allowed members of these workgroups to review and comment on 
preliminary reports.
    Perhaps the best example is the Corps' failure to properly measure 
the potential value of recreation following dam removal. The Corps has 
conducted surveys in California to gauge public interest in Snake River 
fishing and recreation. However, the Corps does not want to include 
information about the reported economic value of vacationing and 
fishing Californians in its study. So the Corps released its own 
report, without consulting the workgroups, which questioned the 
validity of the California numbers and offers an analysis excluding 
Californians. The Corps also ignored the relatively greater economic 
value of tourists who originate from cities and counties that do not 
border the Snake, and assumed that local communities would not build 
new boat ramps and other facilities to capture the economic benefits of 
increased tourism and recreation. This sort of unjustifiable, ad hoc 
action calls the Corps' entire study into question.
    4) Finally, the Committee should direct the Corps to craft a 
citizen-led, consensus building process.
    Holding field hearings on transportation mitigation alternatives 
could jump-start a citizen-led process to build a consensus vision for 
the Snake River. Six years ago, no one believed that Mississippi River 
stakeholders could put aside long-held antagonisms and develop a vision 
for the river that meets our economic and environmental needs. But, we 
did, and now we are working together, farmers and environmentalists, to 
implement our vision.
    This sort of vision could also be developed for the Snake. But, 
unless the Corps develops the information necessary to support this 
process, I expect that the future of the Snake will be no less 
polarized than it is today. The Committee should direct the Corps to 
support this process by using sound science and economics to support a 
range of management alternatives, including transportation mitigation 
alternatives. The Corps should also clarify the roles of current 
workgroups and forums, and work with their federal partners to make 
certain that these workgroups and forums support informed decision-
making by the public.
    Right now, few local residents understand how the myriad 
workgroups, forums, studies and other processes fit together, or 
whether they fit together at all. It would be too complicated to simply 
collapse these existing processes, given the number of agencies 
involved and their conflicting mandates. What is needed is better 
coordination, including an interagency communication and public 
involvement plan. We are anxious to work with the Committee to ensure 
that the federal agencies provide a sensible and timely roadmap to 
their decision-making processes.
    Thank you for the opportunity to testify.
                                 ______
                                 
  Responses of Scott Faber to Additional Questions from Senator Baucus
    Question 1: The Administration is preparing to make major salmon 
recovery decisions by the end of this year. Do you think there is time 
to study the mitigation and transition issues that you are proposing?
    Response. I do not believe that the Administration and Congress can 
actually make informed decisions without this information. Similarly, 
if the Corps and the other Federal agencies move ahead and make their 
decisions without providing the people of the region with credible 
proposals to deal with the negative impacts, the decisions will be 
virtually un-implementable. We need decisions that work for the fish 
and that work for the people. The Corps is capable of providing the 
needed information within the time constraints of the upcoming 
decision. However, they need to begin this work with earnest.
    The Corps needs to investigate the human impacts that might result 
from both dam removal and the non-dam removal options. For instance, if 
the dams stay, it is likely that more Idaho water will be called for in 
an attempt to improve downstream river conditions--if another 1 million 
acre feet of water is called for from Idaho irrigation reservoirs, this 
will have a tremendous human impact. The Corps needs to look at this 
and propose a means of mitigating or minimizing these impacts. The same 
types of proposals must be made regarding possible impacts on sport and 
commercial fishing, timber and mining if these activities are greatly 
curtailed as part of a recovery plan. Conversely, if the dams are 
removed, there will be an impact on those that currently use the 
waterway to ship commodities. This impact needs to be investigated and 
a proposal developed to minimize this impact. Proposals for minimizing 
the negative, human impacts need to be developed for all options being 
considered.
    Additionally, the various Federal and state processes moving 
forward in the region (Corps DEIS, NMFS Bi-Op, the 4-H paper and the 
Framework) need to be coordinated and integrated so that information 
provided in one study can be brought to bear on questions raised in 
another. And finally, there needs to be a formal, robust public 
participation process undertaken throughout the effected area to 
provide the public with the information they need, and to solicit their 
input and concerns. The people of the Northwest need to be 
substantively involved in these decisions.

    Question 2: In your testimony you expressed concerns about the 
Corps' economic study on recreation. How can we address your concerns?
    Response. I am concerned with the economic analyses being conducted 
through the he Corps of Engineers' Drawdown Regional Economic Workgroup 
(DREW).
    The DREW was established to ensure a balanced, thorough economic 
analysis addressing all significant issues. It consists of Federal, 
state, tribal, and interested party participants who have been jointly 
working toward this end. Early on, DREW participants agreed to a 
process for expert oversight by the Independent Economic Advisory Board 
(IEAB) and refinement of each analysis by the individual workgroups 
responsible for discrete issues, such as recreation or power supply. 
Unfortunately, major sections of the appendix, including the commodity 
transportation, recreation, regional, and social analyses, have not 
been provided to non-Corps DREW participants or the IEAB for review and 
critique.
    This short-circuiting of the proper review process for the analysis 
creates the very real possibility that key decisions on Snake River 
salmon and steelhead recovery may be based on inaccurate and incomplete 
economic information.
    I urge your Committee to take the following steps to ensure that 
the best economic information is presented in a timely fashion. First, 
all unreviewed or incomplete draft reports should be reviewed 
immediately by the designated DREW workgroups to identify necessary 
revisions. Second, the preliminary draft economic appendix and any 
subsequent drafts should be provided to all DREW participants and the 
IEAB for review at the same time they are distributed to the Federal 
agencies. This will ensure that a thorough review by all key players 
takes place as early as possible, providing the Army Corps with the 
information and time it will need to prepare a high-quality economic 
appendix for inclusion in the DEIS.
                               __________
Statement of Mark Dunn, Director of Governmental Affairs, J.R. Simplot 
                                Company
    Chairman Crapo and distinguished members of the committee, my name 
is Mark Dunn. I am Director of Governmental Affairs for the J.R. 
Simplot Company in Boise, Idaho, a diversified agribusiness, 
headquartered in the Northwest and operating in 23 states. I am here 
today primarily in my capacity as Chairman of the Government Affairs 
Committee of the Northwest Food Processors Association, a regional 
trade association representing the $6 billion fruit and vegetable 
processing industry in Idaho, Oregon and Washington.
    Thank you for the opportunity to testify today on a topic that is 
of critical interest to our industry and the entire Pacific Northwest. 
I would like to focus my comments today on the role of the federal 
Caucus in developing salmon recovery efforts in the Northwest.
    Protecting and recovering endangered salmon and maintaining the 
economic viability of the Northwest are not mutually exclusive. In 
fact, the recovery of salmon is dependent on industries like food 
processing.
    Food processing is the largest manufacturing employer in the state 
of Idaho and the second largest in the states of Oregon and Washington. 
Our companies provide the tax revenues and economic stability the 
region requires to focus on such an enormous task. However, to be 
successful, the region must have a common vision. A vision that is 
shared by all parties, including the federal agencies.
    The federal caucus does not currently seem to be a part of that 
shared vision for the Northwest. They continue to send conflicting 
messages and have failed to coordinate with critical regional 
initiatives. This uncertainty leads to increased conflict in the region 
and to decreased effectiveness of the regional process. It is hard to 
motivate business leaders to participate in a process that, in the end, 
means nothing because NMFS or one of the other agencies decides to go 
its own direction. I will give you a couple of examples.
    At this time last year, the Northwest Food Processors Association, 
as a part of a comprehensive coalition of Northwest economic interests, 
agreed to support and participate in the Northwest Power Planning 
Council's Framework process. As you know, the purpose of the Framework 
is to assess a number of potential recovery alternatives for the 
Columbia/Snake system. We agreed to participate because the Framework 
was to include all of the affected parties; tribes, economic interests, 
federal agencies and environmental groups, in a process that would be 
open, fair and scientifically valid.
    The federal caucus supported and encouraged the Framework process. 
Danny Consenstein, Columbia Basin Coordinator for NMFS, serves as one 
of the executive management team members for the Framework. However, 
once the project was funded and well under way, the federal caucus 
announced that they would be developing a separate vision for recovery, 
commonly referred to as the 4-H paper. This process is happening behind 
closed doors, with no outside involvement. The agencies are still 
participating in the Framework, but how can the process have any chance 
for success when the federal agencies that hold the regulatory hammer 
are developing their own separate vision for the region?
    A second example shows our concern for what appears to be extremely 
serious coordination issues among the federal agencies.
    The Bonneville Power Administration is currently in the middle of a 
controversial rate case that will have long term impacts on the Pacific 
Northwest. On September 21, 1998, after nearly a year long public 
process, Vice President Gore announced a set of ``Fish and Wildlife 
Funding Principles'' which would be incorporated into the BPA rate 
case. These principles were formally incorporated into BPA's Record of 
Decision for the Power Subscription Strategy issued in December of 
1998.
    Last month, we learned that three federal bureaucrats, from NMFS, 
U.S. Fish and Wildlife and EPA, each of whom are members of the federal 
caucus, had drafted a seventeen page memo titled ``Preliminary Cost 
Estimates for Two Fish and Wildlife Alternatives.'' This memo, which 
was circulated to key Administration officials, attempts to make a case 
for further rate increases for BPA from 10-22% in the 2002-2006 period. 
This is on top of the excessive reserves BPA already plans to 
accumulate using its adopted ``Fish Funding Principles.''
    While the contents of the memo are of critical concern to the 
region's industry, possibly the most shocking part of this incident is 
that the memo was never shown to officials at the Bonneville Power 
Administration prior to being circulated among top Clinton 
administration officials.
    If the caucus cannot or will not coordinate such an important 
initiative, how can we as economic stakeholders hope to work with them? 
Can we trust their statements and even more concerning, what is coming 
next?
    The future of the Northwest will be shaped by the decisions that 
are made in the next few years. With so much on the line, we cannot 
afford to have federal bureaucrats pursuing their personal agendas 
outside the accountability of the formal regional process.
                               __________
Staement of Owen C. Squires, Rocky Mountain Region President, Pulp and 
 Paperworkers Resource Council, Representing Paper, Allied-Industrial, 
      Chemical, and Energy Workers International Union, Local 712
    Mr. Chairman, Members of the Committee, ladies and gentlemen, my 
name is Owen Squires. I am before you today in my capacity as Regional 
Director of the Rocky Mountain Region of the Pulp and Paperworkers 
Resource Council or PPRC. Our over-300,000 members across the United 
States are deeply committed to the conservation of America's natural 
resources in ways that protect the wild community and benefit people.
    I am here to appeal to you to restore credibility to the process of 
deciding what to do to help our anadromous fish in the Pacific 
Northwest. Federal officials have once again concluded that the 
processes of democratic government are just too messy. Their response 
has been to form a federal commission, a small body of top federal 
executives who call themselves the Federal Caucus. Their purpose is to 
blow through the really tough process of working out what to do with 
our fish. In his letter dated February 16, 1999, Mr. Stelle says he 
will make an attempt to work with the rest of us. But if that attempt 
moves too slowly to meet his artificial timeline, he'll move ahead with 
a decision anyway, right or wrong, good or bad [last sentence on page 3 
of the Federal Caucus letter].
    That's particularly interesting about this approach, Mr. Chairman, 
is that these members of the Federal Caucus are the sardine people who 
have made the rest of us wait forever, time and again, for reasons of 
their own. What's the rush today?
    It appears else answer is that the Federal Caucus has already made 
up its mind and is moving through a speedy trial to a speedier hanging 
and American Labor and all working people in the Northwest are the 
defendants. We have a right to speak in our own defense. But this is 
not a trial. This is the formulation of public policy, policy that does 
not affect Mr. Stelle at all in the sense that he doesn't live here and 
he will not have to live directly with the consequences of his 
decision.
    It's easy to make decisions in small groups behind closed doors. 
It's not easy to implement those decisions, however The bright light of 
day is not kind to smoke-filled rooms. How can Mr. Stelle hope to find 
solutions if he isn't willing to involve the people?
    Those who would be king have told the rest of us not to worry, they 
have the answers, they'll take care of us. We don't believe it.
    Mr. Chairman, we need a seat at the table if this is going to work. 
The Federal Caucus needs to open the doors and let their light so shine 
that the truth becomes plain to all of us. They must listen to the 
expertise in the region and then ace on that expertise to help solve 
our common problems. And they must make time. Answers to complex 
questions do not come quickly or easily. It's not Federal.. they don't 
happen overnight. And it's not Burger King.. we don't always get it OUt 
way. We're credible people and it's OK to ask us to participate.
    Over thirty five years ago, the United States government told us, 
over our objections, that if we'd just go along with dam building our 
lives would improve and our region would prosper. They were right. We 
have prospered.
    We cannot now undo the past without vast consequences for the 
future.. our future. We are not interested in the settlements of 
decision brokers and lawyers in the back alleys of government. We are 
committed to working locally, thinking globally, and finding solutions 
we can all live with.
    Open the federal caucus and make it live for all of us in the 
refight Columbia River basin.
    Thank you. I stand for questions.
                               __________
    Statement of Tim Stearns, Policy Director, Save Our Wild Salmon
    Mr. Chairman and members of the committee, thank you for this 
opportunity to testify.
    My name is Tim Stearns. I am the Policy Director of Save Our Wild 
Salmon. For the past eight years I have sought to help the Northwest 
adapt to and make decisions about how best to stabilize and restore 
populations of wild salmon and steelhead on the Snake and Columbia 
Rivers, and the ecosystems on which they depend. Save Our Wild Salmon 
is a coalition of sportsfishing, commercial fishing, traditional 
environmental groups and salmon-based businesses. Prior to that I 
worked on the implementation of the Northwest Power Act, since its 
passage in 1980, where the Northwest sought to survive the failure to 
build nuclear plants, implement cost-effective conservation programs 
and build the power system of the future.
    I wanted to offer our observations on problems in the 
decisionmaking and analytical processes being used to make long term 
decisions.
    Declining salmon is not a new issue. It has existed since the 
arrival of white settlers. Increasing competition for fish, 
technological improvements, new people, development and resource use 
have all contributed to the decline. The Northwest has tried repeated 
technological interventions to stave off the declines. The single most 
destructive set of activities on the Snake and Columbia River has been 
the damming of rivers. In this testimony, I will not focus on the 
causes, but how to work toward solutions.
    Since the mid 1970's and the completion of the Lower Snake dams the 
Northwest has wrestled with the Endangered Species Act. The Northwest 
Power Act sought to fix two major problems--first the energy 
situation--including inefficient energy use, increased demand, huge 
cost increases from new thermal projects, poor forecasting and closed 
planning processes. It also sought a fix to declining stocks of 
anadromous fish, namely salmon and steelhead. The Northwest agreed to 
protect, mitigate and enhance salmon and steelhead, provide flows of 
sufficient quality and quantity, provide equitable treatment and defer 
to agency and tribal experts. The Power Act delayed implementation of 
the Endangered Species Act until 1991 when it was apparent our efforts 
were insufficient and probably misguided.
    The Northwest Power Planning Council made one last attempt to 
retain regional control of the issue with its 1994 Fish and Wildlife 
Program. The new Council, Bonneville Power Administration and Congress 
treated that program like a cafeteria implementing some measures and 
ignoring others, the Federal Government never embraced it and 
implemented measures of their own.
    The National Marine Fisheries Service under the Bush administration 
assured the region and nation it could handle this problem without 
additional staff or appropriations. Unfortunately, this decision did 
not allow the administration to develop a strategic approach or the 
people power necessary to analyze, assess and implement measures. NMFS 
has proved to be a bottleneck--I would suggest they have since somewhat 
geared up to take on the challenge since then, but too little too late 
resulting in bad feeling on the ground. NMFS has not consistently 
enforced its Biological Opinions. In our view NMFS never developed the 
independent scientific and economic tools necessary to work through 
these issues. NMFS continues to be dependent on the Bonneville Power 
Administration and Northwest Power Planning Council for hydrosystem 
economic information. NMFS has involved scientists who designed and 
study the passage measures at dams and the barging program instead of 
developing a separate scientific group.
    During this time period the science has significantly changed the 
playing field and our outlook. Until the mid 1990's the region and 
nation believed we could engineer our way through every salmon problem. 
In fact we deluded ourselves into believing we could do things better 
than mother nature. The state of the science was encapsulated in two 
watershed reports--Upstream by the National Research Council and Return 
to the River by the Independent Science Advisory Board concluded that 
salmon convolved with their watersheds and thus, needed restored 
watersheds processes. The scientists went to great lengths to suggest 
that human development and technology could be compatible with 
sustainable salmon runs; however, they did suggest that we need to be 
increasingly cognizant of the needs of salmon, that technology should 
be used to complement and recreate watershed processes and that 
virtually everything we do should be treated, monitored and adapted 
like an experiment.
    After a series of litigation that found the interim recovery 
measures adopted by NMFS inadequate, NMFS proclaimed to the Federal 
Court they would make decisions by December of 1999. The Court 
reluctantly deferred to the discretion of the federal government. NMFS 
sketchily laid out its decisionmaking and research plan. In the 1995 
Biological Opinion NMFS proposed interim flows, a spill program and 
modification of the John Day dam. Unfortunately, the flow targets have 
never been met during the summer months and the administration never 
sought did the Congress approve the John Day modifications. The spill 
program has improved after relentless prodding. NMFS launched its 
limited research program and called upon the Corps of Engineers to 
study the alternative measures for restoring Snake River salmon.
    The Corps Lower Snake River Leasability study has been rife with 
problems: it is over six months behind scheduled; it is limited to 
three mainstem Snake River options; it does not encompass the broad 
range of alternatives or impacts throughout the Columbia ecosystem--for 
instance the future operation and configuration of John Day dam is 
being addressed in a separate EIS; harvest, hatcheries and habitat are 
being dealt with in many processes. It does not have a well defined 
protocol for releasing information--thus officially releases some 
information and allows other information to be embargoed resulting in 
charges of leaks, spin control frustration by interested parties and 
media. Recently participants in the economic analysis have supported 
open dissemination of final reports creating a more open availability 
of information and encouraging a more open debate. The Corps has 
consulted with some parties and affected communities, while ignoring 
others--the Corps appropriately did a series of meetings with 
communities near the river that would be directly affected by changing. 
Unfortunately the Corps did not hold similar meetings with coastal 
communities or parties who would benefit from either improved fisheries 
and recreation, or those who implement infrastructure improvements. 
Finally, the Corps has not focused on how we would solve problem, 
mitigate damages or implement thoughtful transitions for affected 
parties.
    The states of Idaho, Montana, Oregon, Washington, the 13 tribes 
adjoining the Snake and Columbia and the federal government have 
launched an analytical process called the Framework and a discussion 
forum called the Columbia Basin Regional forum. The Framework is still 
somewhat undefined as to what its analysis will be and whether it will 
be available on time. It has its problems and limitations. We are 
participating and hoping it will provide useful information on which to 
base decisions. It is certainly not clear whether Council is capable of 
adopting a scientifically sound program.
    The Federal government has launched a parallel process they call 
the 4 H paper. Some are suspicious of this project. We share the 
skepticism, but believe it is overdue and necessary. First the Corps 
EIS is clearly too limited and probably won't comply with the National 
Environmental Policy Act because of its limited scope and problems. 
Second the NMFS biological opinions covering harvest, the operation of 
the Columbia River power system, hatchery system and habitat are 
incomparable, inconsistent and are not coordinated making them ripe for 
challenge. For instance the 94-98 hydro biological opinion allows 99% 
of smolts to die migrating through the hydrosystem, while it allows 
over 60% of adults to die returning. The harvest bi-op limits harvest 
on healthy fall chinook to 24% to protect endangered stocks. The 
inequitability is clear. Thirdly, the federal government does not speak 
with one voice on salmon recovery. It is long overdue for this 
administration to develop one unified and coordinated policy.
    The federal government needs to put its options out for state and 
tribal consultation and public review. We have called for this openness 
in this process. We reject the notion that the administration should 
not meet privately to develop its positions. The administration has the 
legal obligation to implement the Endangered Species Act, Clean Water 
Act, tribal treaties, Forest Land Management Act and the U.S.-Canada 
treaty.
    I understand the suspicions of the federal government and share the 
frustration and usually champion openness; however, it is vitally 
important and long overdue that the administration get its act together 
and puts its alternatives and proposals on the table and leads a public 
discussion. We have urged and many members of Congress have urged that 
proposals go through the same set of economic and scientific analytical 
filters to ensure the region and nation can understand the tradeoffs, 
consequences and transition opportunities.
    The Bonneville Power Administration is about to enter into its rate 
setting process to establish electric rates from 2001 to 2006. The 
Administration adopted Fish Funding Principles to ensure that adequate 
dollars would be available to implement recovery measures. 
Unfortunately the rate proposal by BPA puts too much risk on fish 
recovery and could require a substantial rate increase in 2007. This 
could have easily been avoided. The Senate has adopted language to 
prevent the establishment of a recovery fund to be used in a future 
rate period. Bad water years, changes in market conditions and economic 
downturn could create a crisis pitting salmon recovery against repaying 
the Treasury. This will either invite out of region intervention or 
delay salmon recovery.  hope the Administration will revise the 
proposal so it becomes solid. I am not sure whether my 7 year old son 
will go to college or where nor how long my retirement will be, but I 
have started saving so I can ensure that options exists. Salmon 
recovery will cost money in the next 10 years to modify hatcheries, buy 
habitat, change fishing practices or modify dams. The Northwest only 
deserves the benefits of this unique power system if we meet treaty 
obligations, comply with federal laws and implement public purposes.
    With regard to public process, we have urged the administration to 
hold one set of hearings throughout the region, on the coast and in 
Washington, DC before Thanksgiving or after the New Year (if 
information is delayed) on its draft Biological Opinions, 4 H paper, 
the Lower Snake Feasibility study and other relevant documents. We want 
to avoid the chaotic holiday season to ensure the discussion is as 
fruitful and inclusive as possible. We want to ensure that the 
Framework produce its information for inclusion in the same set of 
hearings.
    This committee can play a vital role to ensure the decisionmaking 
is done thoughtfully, orderly and on time.
    1) Demand that the alternatives being considered by the federal 
government be submitted to the following entities for review and 
comment: Process for Analyzing and Testing Hypothesis Independent 
Science Advisory Board Independent Economic Advisory Board Framework 
process.
    We assume the Corps will discuss it with its Drawdown Regional 
Economic Workgroup.
    2) Urge the Clinton Administration to make its final decisions 
prior to the 1999 salmon migration as it committed to in Federal Court. 
Ensure those decisions comply with all applicable federal laws and 
treaties.
    3) Urge the Clinton Administration to fully consult with the 
affected states and tribes and respond to substantive comments before 
making decisions.
    4) Urge all parties in the region to consider all options. It is 
premature to rule out any option. Opposing dam removal is not a 
recovery plan. Opposing increased flows is also not a recovery program.
    5) Ensure that appropriate mitigation and transition plans are 
developed so we can ensure that affected parties are dealt with fairly.
    Clearly this issue is contentious. The longer we put it off the 
more difficult and expensive recovery will be. The longer we continue 
out of compliance of federal laws the more legal, political and 
congressional pressure we should expect. The longer we wait the longer 
the uncertainty prevents people from moving forward. The changes needed 
will be difficult, but we must keep our eyes on the prize--a 
sustainable economy that works for salmon, people and the future. 
Together we can work through these changes.
    Thank you.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
 Statement of Lynn Ausman, Representing the Washington Association of 
           Wheat Growers and the Washington Barley Commission
    Thank you Mr. Chairman and members of the subcommittee. On behalf 
of the Washington Association of Wheat Growers and the Washington 
Barley Commission, it is a great pleasure to talk with you this 
afternoon about these important issues.
    I am a barley and wheat grower in Asotin county in the state of 
Washington. Asotin county is bordered on the north by the Snake River 
and Lower Granite dam is the first of the four Snake River dams we all 
hear so much about. Four grain receiving elevator have barge loading 
facilities on the Snake River.
    As our governor put it; ``The salmon fisheries of this state have, 
in the past, been wonderfully productive. Of late, however, evidence of 
a decrease in the run is apparent, and all are agreed that something 
ought to be done to prevent the final extinction of a great industry.'' 
This governor was John R. Rogers not our present governor Gary Locke 
and he said it in 1899, not 1999. Our Association thinks this puts the 
salmon restoration problem in the proper perspective, as we deal with 
it today. In our area there is strong support to increase the fish runs 
in our river system. There is also almost total agreement the breaching 
of the four lower Snake River dams will not be the answer to this 
problem.
    The members of our association are growing increasingly frustrated 
as we have watched the ongoing analysis of salmon restoration in the 
Snake River System focus almost solely on dam breaching. We were told 
from the beginning that there were four H's to be considered: habitat, 
hydropower, harvest, and hatchery management. However, it has become 
increasingly clear that the federal agencies are only focusing on one 
of these H's, hydropower.
    In the past few years of watching the process of salmon recovery 
efforts it has become apparent to us that this problem is one of the 
most complex issues of this score of years. It starts with the very 
definition of salmon species to continues on to include the variance of 
ocean temperature. A marine biologist expressed the belief that there 
weren't ten reasons for fish run declines or even a hundred but he 
thought a thousand reasons were more in the ballpark. I would submit to 
you that the problems we have with fish populations is not what we 
think we know but the many things we need to learn.
    A computer model called PATH which stands for Plan for Analyzing 
and Testing Hypotheses is held up as a reason for dam removable. It is 
important to note that there is no empirical data to prove that 
destroying the four dams would lead to recovery of the salmon. It is 
simply a computer model. This model makes some assumptions that do not 
follow known facts. For example, according to the recent salmon tag 
studies, over 50% of the smolts moving in the river system reach salt 
water. However, one PATH model predicts only 20% and another PATH model 
predicts only 30%. Therefore, I would hate to base a decision as 
monumental as dam removal on a set of hypotheses that are in question.
    The environmental effects of breaching are another matter. The 
Corps of Engineers estimates that there are 100-150 million cubic yards 
of sediment behind the four dams. This would create 30,000 acres of mud 
flats. With dam removal this material would move down stream for 
several years and this would cause much harm to the existing habitats 
as they are today. The use of this river system is also environmental 
choice because of emissions. Navigating the river system will use 40% 
less fuel per ton/mile than the rail system (assuming there would cars 
and power units available, which we highly question). And compared to 
trucks, the river system will use 110% less fuel per ton/mile. 
According to the Washington Wheat Commission, if grain barge traffic 
was halted, the industry would have to locate 120,000 additional grain 
cars, and some 700,000 semi-trucks. There is also the enormous cost 
(and environmental impact) of building the roads and rail necessary for 
infrastructure. All this will affect our grain industry by raising 
costs to an industry that is already suffering in an economic 
depression.
    So, what should we be doing to increase wild fish runs in our river 
system?Continue to improve the transportation of smolt
    Address and solve the predator harvest problemModify hatcheries to 
improve there contribution to an overall solutionLook into the 
commercial fishing harvest to better understand their impact on the 
fisheryModify turbine gaps, turbine blades, blade coatings, and 
hydraulic conditions into and out of the turbinesAdd surface collectors 
to move smolt around the damsContinue to pursue other technological 
alternatives that are scientifically sound
    If we can get by the unfortunate notion that breaching of the four 
lower Snake River Dams is a possible solution to the problem at hand, 
we can then work together to solve the problem we all want to solve.
    Thank you.

                                   - 

</pre></body></html>
